<html>
<title> - FISCAL YEAR 2004 BUDGET REQUESTS FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) AND THE U.S. FISH AND WILDLIFE SERVICE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
    FISCAL YEAR 2004 BUDGET REQUESTS FOR THE NATIONAL OCEANIC AND 
   ATMOSPHERIC ADMINISTRATION (NOAA) AND THE U.S. FISH AND WILDLIFE 
                                SERVICE

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             March 19, 2003

                               __________

                            Serial No. 108-8

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

85-772              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
VACANCY

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Rob Bishop, Utah                     Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 19, 2003...................................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     8
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     4
    Ortiz, Solomon P., a Representative in Congress from the 
      State of Texas.............................................     7
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     5
        Prepared statement of....................................     6

Statement of Witnesses:
    Lautenbacher, Vice Admiral Conrad C., Under Secretary for 
      Oceans and Atmosphere, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     8
        Prepared statement of....................................    11
        Response to questions submitted for the record...........    78
    Williams, Steven A., Director, Fish and Wildlife Service, 
      U.S. Department of the Interior............................    17
        Prepared statement of....................................    19
        Response to questions submitted for the record...........    42


   OVERSIGHT HEARING ON THE ADMINISTRATION'S FISCAL YEAR 2004 BUDGET 
REQUESTS FOR THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION (NOAA) 
                 AND THE U.S. FISH AND WILDLIFE SERVICE

                              ----------                              


                       Wednesday, March 19, 2003

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest, Chairman of the Committee, presiding.
    Present: Representatives Gilchrest, Pallone, Faleomavaega, 
Ortiz, and Bordallo.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. The Subcommittee will come to order. We will 
be joined shortly by the Ranking Member, Mr. Pallone from New 
Jersey. He is being held up at another Committee markup, but we 
will get started and welcome him when he arrives.
    Good afternoon. Today, the Subcommittee will conduct its 
annual review of the Administration's budget request for the 
U.S. Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration. I am pleased to welcome Admiral 
Lautenbacher and Director Steve Williams and Marshall Jones of 
the Fish and Wildlife Service.
    Four of NOAA's strategic goals, including promoting safe 
navigation, sustaining healthy coasts, building sustainable 
fisheries, and restoring protected species are under the 
jurisdiction of this Subcommittee and I look forward to hearing 
about these programs for Fiscal Year 2004.
    I want to commend the Administration for again increasing 
funds to promote safe navigation. Over the last 5 years, the 
projected time for surveying and producing new charts for the 
roughly 1 percent of the exclusive economic zone that is 
considered commercially critical has fallen from nearly 35 
years to as few as 15 years. The agency has made strides toward 
implementing electronic charts that will form the basis for 
improved port security and better protection of human life and 
the environment.
    Of course, this would not be a NOAA budget hearing if we 
did not discus the perennial--it almost sounds like flowers, 
perennials versus annuals, so this is, I think, both perennial 
and annual--inequities between NOAA's wet side and dry side. 
Two examples, the budget request seeks $687 million for 
satellites and no funds for the third fishery survey vessel, 
and the Office of Oceanic and Atmospheric Research is reduced 
by $8.2 million, however, climate and weather programs are 
increased by $18.3 million while ocean, coastal, and great lake 
programs decline by $26.6 million. Nevertheless, I remain 
hopeful that in the not-so-distant future, we will see a budget 
that equitably distributes resources between the oceanic and 
atmospheric portions of NOAA.
    The National Marine Fisheries Service is still facing over 
100 lawsuits, many of them disputing management actions taken 
by the agency. One fishery in particular, the New England 
groundfish fishery, has been in and out of court with a judge 
rather than the management agency making some of the decisions.
    I know how complex and how difficult the fishery issues are 
and we will try to address some of those in the reauthorization 
of the Magnuson Act and certainly listen to the Oceans 
Commission and the Pew Commission, and I will tell you, 
Admiral, that we have an ongoing, very good relationship with 
NMFS and certainly Director Hogarth. But these are some of the 
issues that we really need to tackle to get back into the 
management of fisheries, using good science to manage fisheries 
and not tie up a lot of these dollars in Federal court.
    I am hopeful that the fishery will soon come out from under 
the court's control, not that people don't have a right to file 
a lawsuit, but I think things will go a lot easier if we find a 
way to reduce that necessity.
    I am pleased to see the agency has requested $3 million to 
address the need for additional observer coverage for the 
fishery. This will help as we reauthorize the Magnuson Act, to 
plug that in there.
    NOAA also requested additional funding for bycatch 
reduction measures, including gear research and testing. 
Bycatch is a national concern and any actions taken to reduce 
its occurrence will be well received. It is important that this 
research be conducted cooperatively with the industry. So if we 
can get more of those fishermen on board, so to speak, and 
seeing what they see as practical measures to reduce bycatch, 
it will go a long way into increasing the flow of information. 
Then there is inevitably less anxiety and more trust.
    NOAA's budget also includes an increase of $12.5 million to 
modernize and expand the scope of fisheries research and 
management capabilities. Included in this increase are funds 
for much needed stock assessments.
    After reviewing the budget of the U.S. Fish and Wildlife 
Service, I am in agreement with the funding levels requested 
for many accounts. For instance, just last week, the National 
Wildlife Refuge System celebrated its 100th birthday. I 
strongly support the President's request to allocate $292 
million for refuge operations and $109 million for refuge 
maintenance, which are both at historic levels. This money will 
be spent to revitalize the system and to pay down the capital 
and equipment maintenance backlog.
    Mr. Williams, we really want to work over the next couple 
of years with this added money to focus it where it really 
needs to be spent and then try to figure out in some instances 
how to manage wildlife refuges in more of a natural way. Nature 
was the management of a lot of these areas for a long, long, 
long time, and I know some of the refuges are managed so that 
they create feeding areas for migrating water fowl, and the 
necessity of that is that a lot of areas have been developed, 
so their natural flyway as far as their nesting areas, their 
feeding areas, their raising their young areas, and so on, has 
been significantly reduced, but very often a refuge spends 
enormous amounts of money berming and dyking and building ponds 
and things like that. So if we could work through some of those 
high-cost areas, it would be productive for everybody.
    Secondly, I support the request of $103.6 million for 
fisheries. In particular, there was a renewed emphasis on 
repairing and modernizing some of our Federal fish hatcheries. 
These hatcheries provide some $5 billion worth of fish which 
are used for recovery, restoration, mitigation, stocking 
activities.
    Third, the President has asked for $50 million for the 
North American Wetlands Conservation Fund--that was the bill 
signing we went to, right? At that bill signing, I gave Mr. 
Bush a copy of a fascinating book called Water written by Alice 
Outwater from Vermont, and it is a history of the hydrologic 
cycle in the United States over the past 500 years and how 
human activity has changed that natural cycle and some of the 
problems that have resulted. So you might want to read that, 
and the next time you see the President, you can discuss that 
book together. So the President has authorized $50 million for 
the North American Wetlands Conservation Fund, and this fund, 
as we know, is providing protection for millions of acres of 
habitat for migrating water fowl in the three different 
countries.
    Fourth, I fully concur with the request of $7 million for 
the Multinational Species Conservation Fund. In fact, we should 
do more for these fisheries and I support the World Wildlife 
Fund's efforts to allocate $14 million for African elephants, 
Asian elephants, rhinos, tigers, great apes, and neotropical 
migratory birds. There is no question that these funds are 
critical for the long-term survival of these flagship species.
    And from a local perspective, I strongly support the $1.1 
million for land acquisition for the Blackwater National 
Wildlife Refuge and $800,000 for this invasive species nutria, 
and we would like to continue working with Fish and Wildlife to 
deal with the whole panorama, array of issues surrounding 
invasive species and the high cost that is incurred from that.
    And also, the number of species that are imported here, 
whether it is for fish tanks in your house or whether it is for 
bait, you know, we have had a problem with some fish in 
Maryland, but we also have some potential problems with 
Vietnamese worms used for bait. We will hold a few hearings in 
this session looking at some of those issues and we will try to 
give Fish and Wildlife Service some adequate statutory 
authority to deal with those growing issues.
    Finally, I would support enhanced funding for the 
Endangered Species Account, Land Acquisition, and National 
Wildlife Refuge Fund.
    I look forward to hearing your testimony, and just as an 
aside, I want to express my thanks to the three of you and 
those who are with you today for your public service. It is not 
always very easy. It is often very volatile. But we appreciate 
your patience with us and look forward to working with you over 
the next 2 years.
    [The prepared statement of Mr. Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
             on Fisheries Conservation, Wildlife and Oceans

    Good afternoon, today, the Subcommittee will conduct its annual 
review of the Administration's budget request for the U.S. Fish and 
Wildlife Service and the National Oceanic and Atmospheric 
Administration. I am pleased to welcome Admiral Conrad Lautenbacher and 
Director Steve Williams.
    Four of NOAA's strategic goals including promoting safe navigation, 
sustaining healthy coasts, building sustainable fisheries and restoring 
protected species are under the jurisdiction of this Subcommittee. I 
look forward to hearing how these programs fare in the Fiscal Year 2004 
budget request.
    I want to commend the Administration for again increasing funds to 
promote safe navigation. Over the last five years, the projected time 
for surveying and producing new charts for the roughly 1 percent of the 
exclusive economic zone that is considered commercially critical has 
fallen from nearly 35 years to as few as 15. The Agency has made 
strides toward implementing electronic charts that will form the basis 
for improved port security, and better protection of human life and the 
environment.
    Of course this would not be a NOAA budget hearing, if we did not 
discuss the perennial inequities between NOAA's wet and dry sides. I 
will cite two examples: the budget request seeks $687 million for 
satellites and no funds for the third fishery survey vessel and the 
Office of Oceanic and Atmospheric Research is reduced by $8.2 million. 
However, climate and weather programs are increased by $18.3 million 
while ocean, coastal and great lake programs decline by $26.6 million. 
Nevertheless, I remain hopeful that in the not so distant future, we 
will see a budget that equitably distributes resources between the 
oceanic and atmospheric portions of NOAA.
    The National Marine Fisheries Service is still facing over a 
hundred lawsuits, many of them disputing management actions taken by 
the Agency. One fishery in particular, the New England groundfish 
fishery, has been in and out of court with a judge rather than the 
management Agency making some of the decisions. While I am hopeful this 
fishery will soon come out from under the court's control, I am pleased 
to see the Agency has requested $3.0 million to address the need for 
additional observer coverage for this fishery.
    NOAA also requested additional funding for bycatch reduction 
measures including gear research and testing. Bycatch is a national 
concern and any actions taken to reduce its occurrence will be well 
received. It is important that this research be conducted cooperatively 
with industry.
    NOAA's budget also includes an increase of $12.5 million to 
modernize and expand the scope of fisheries research and management 
capabilities. Included in this increase are funds for much needed stock 
assessments.
    After reviewing the budget of the U.S. Fish and Wildlife Service, I 
am in agreement with the funding levels request for many accounts. For 
instance, just last week, the National Wildlife Refuge System 
celebrated its 100th birthday. I strongly support the President's 
request to allocate $292 million for refuge operations and $109 million 
for refuge maintenance which are both historic levels. This money will 
be spent to revitalize the system and to pay down the capital and 
equipment maintenance backlog.
    Second, I support the request of $103.6 million for fisheries. In 
particular, there is a renewed emphasis on repairing and modernizing 
some of our Federal fish hatcheries. These hatcheries provide some $5 
billion dollars worth of fish which are used for recovery, restoration, 
mitigation and stocking activities.
    Third, the President has asked for $50 million for the North 
American Wetlands Conservation Fund. This Fund has protected millions 
of acres of essential wetland habitat in Canada, Mexico and the United 
States. Just last year, we reauthorized this effective program and this 
money is a sound investment of our tax dollars.
    Fourth, I fully concur with the request of $7 million for the 
Multinational Species Conservation Fund. In fact, we should do more for 
these species and I support the World Wildlife Fund's efforts to 
allocate $14 million for African elephants, Asian elephants, rhinos, 
tigers, great apes and neotropical migratory birds. There is no 
question that these funds are critical to the long-term survival of 
these flagship species.
    From a local perspective, I strongly support the $1.1 million for 
land acquisition for the Blackwater National Wildlife Refuge and 
$800,000 for nutria eradication in the State of Maryland.
    Finally, I would support enhanced funding for the Endangered 
Species Account, Land Acquisition and the National Wildlife Refuge 
Fund.
    I look forward to hearing from our distinguished witnesses and I 
recognize the Ranking Democratic Member of the Subcommittee.
                                 ______
                                 
    Mr. Gilchrest. The gentleman from New Jersey, Mr. Pallone.

 STATEMENT OF HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I have to apologize 
because I have laryngitis, so I don't know how well you can 
hear me.
    But I wanted to say that I think we would lose a great part 
of ourselves as a nation if we were to allow our remaining 
wilderness to be destroyed and that this statement is certainly 
as true today as it was 100 years ago, but now we face much 
greater challenges in conserving and protecting those 
wildlands.
    Much of the responsibility for preserving our fish and 
wildlife heritage falls to the wide-ranging programs and 
activities conducted by the U.S. Fish and Wildlife Service and 
the National Oceanic and Atmospheric Administration. This is 
why I must state my disappointment in the Administration's 
request for both agencies in the Fiscal Year 2004 budget.
    Important authorized programs administered by Fish and 
Wildlife Service remain underfunded and neglected in order to 
fund this administration's own initiatives. Funds that should 
be devoted to fully supporting State and tribal wildlife 
grants, land acquisition, or the backlog in ESA critical 
habitat designations continue to be shifted away to support 
unauthorized grant programs. Even in a year when we are 
celebrating the centennial of the National Wildlife Refuge 
System, this year's budget request hardly comes close to the 
$700 million recommended by the Cooperative Alliance for Refuge 
Enhancement to address the growing operations and maintenance 
backlog afflicting the Refuge System.
    I was equally disappointed in reading through NOAA's 
proposed budget. This budget represents a broad retreat from 
recent significant increases in funding for NOAA's ocean, 
coastal, and fisheries accounts and I question the priorities 
and the deceptive rationale for this shift in funding to other 
dry-side programs in NOAA.
    For example, the Administration portrays its $57 million 
request for Sea Grant as an increase of $57 million when it is 
actually a $3 million cut from the Fiscal Year 2003 
appropriation of $60 million. This type of budget sleight of 
hand is unwarranted and the deception springs from the fact 
that the Administration proposed transferring the National Sea 
Grant program to the National Science Foundation in last year's 
proposed budget. Sea Grant belongs under the auspices of NOAA, 
and furthermore, it is a valuable program that needs and 
deserves significant funding increases, and I know some of you 
realize that I know that firsthand because I was a Sea Grant 
specialist at one time, working as a coastal lawyer for Sea 
Grant.
    Cuts to other important NOAA programs, such as harmful 
algal bloom research, coastal monitoring, fisheries data 
acquisition, and oil spill response and restoration also 
concern me, as do level funding requests to support State 
grants under the Coastal Zone Management Act.
    In closing, Mr. Chairman, we cannot allow these programs to 
be shortchanged. As we await the release of the National Ocean 
Commission and Pew Ocean Commission's reports later this year, 
Congress should be prepared to address the priorities that the 
reports have identified. Slashing funding for research and 
monitoring is a regressive approach to dealing with the 
fisheries and wildlife issues that face this nation.
    These budget requests require our careful consideration and 
oversight. I am willing to work with you, obviously, Mr. 
Chairman, and other members of this Subcommittee to clearly 
understand the implications of the budget and to engage the 
Administration toward some thoughtful reconsideration, and I 
hope that we can look at the budget and this hearing in that 
regard.
    Thank you, Mr. Chairman. Sorry for the voice.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    [The prepared statement of Mr. Pallone follows:]

      Statement of The Honorable Frank Pallone, Ranking Democrat, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    Thank you, Mr. Chairman. It has been said that we would lose a 
great part of ourselves as a nation if we were to allow our remaining 
wilderness to be destroyed.
    This statement is certainly as true today as it was one hundred 
years ago, although now we face much greater challenges in conserving 
and protecting those wild lands.
    Much of the responsibility for preserving our fish and wildlife 
heritage falls to the wide-ranging programs and activities conducted by 
the U.S. Fish and Wildlife Service and the National Oceanic and 
Atmospheric Administration.
    This is why I must state my disappointment in the Administration's 
requests for both agencies in the Fiscal Year 2004 budget.
    Important authorized programs administered by the Fish and Wildlife 
Service remain under-funded and neglected in order to fund this 
administration's own initiatives. Funds that should be devoted to fully 
supporting State and Tribal Wildlife Grants, land acquisition, or the 
backlog in ESA critical habitat designations continue to be shifted 
away to support unauthorized grant programs.
    Even in a year when we are celebrating the centennial of the 
National Wildlife Refuge System, this year's budget request hardly 
comes close to the $700 million recommended by the Cooperative Alliance 
for Refuge Enhancement to address the growing operations and 
maintenance backlog afflicting the Refuge System.
    I was equally disappointed in reading through NOAA's proposed 
budget. This budget represents a broad retreat from recent significant 
increases in funding for NOAA's ocean, coastal and fisheries accounts, 
and I question the priorities and deceptive rationale for this shift in 
funding to other ``dry-side'' programs in NOAA.
    For example, the Administration portrays its $57 million request 
for Sea Grant as an INCREASE of $57 million when it is actually a $3 
million CUT from the Fiscal Year 2003 appropriation of $60 million. 
This type of budget sleight of hand is unwarranted, and the deception 
springs from the fact that the Administration proposed transferring the 
National Sea Grant Program to the National Science Foundation in last 
year's proposed budget. Sea Grant belongs under the auspices of NOAA, 
and furthermore, it is a valuable program that needs and deserves 
significant funding increases.
    Cuts to other important NOAA programs, such as harmful algal bloom 
research, coastal monitoring, fisheries data acquisition and oil spill 
response and restoration also concern me, as do level funding requests 
to support State grants under the Coastal Zone Management Act.
    In closing Mr. Chairman, we cannot allow these programs to be 
shortchanged. As we await the release of the National Ocean Commission 
and Pew Ocean Commission's Reports later this year, Congress should be 
preparing to address the priorities that the Reports have identified. 
Slashing funding for research and monitoring is a regressive approach 
to dealing with the fisheries and wildlife issues that face this 
nation.
    These budget requests require our careful consideration and 
oversight. I am willing to work with you and the other members of this 
Committee to clearly understand their implications and to engage the 
Administration towards some thoughtful reconsideration. Thank you.
                                 ______
                                 
    Mr. Gilchrest. Mr. Ortiz, opening statement?

  STATEMENT OF SOLOMON P. ORTIZ, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Ortiz. Maybe I can give my time to my big friend. He's 
bigger than I am, Mr. Chairman, so I don't know if he wants to 
say something.
    [Laughter.]
    Mr. Ortiz. Mr. Chairman, I want to welcome all our 
witnesses today to this hearing and I thank you for holding 
this hearing today, Mr. Chairman. There are a couple of things 
that concern me greatly and I have a few comments and questions 
that I would like to address when appropriate concerning my 
district and the whole Gulf and South Atlantic shrimp industry.
    In addition, while NOAA is an important player in the 
future of the shrimp industry, it is my hope that we can have a 
hearing soon on the state of the industry and how agency 
regulators are negatively impacting the shrimp personnel at the 
fisheries.
    Recently, the National Marine Fisheries Service put out a 
new regulation which mandates for larger, more expensive turtle 
excluder devices, known as TEDs, that will cost the fisheries 
industry thousands of dollars to install, which will further 
impact the vessels.
    Mr. Secretary, if I recall correctly, when the turtle was 
on the brink of extinction, it was the seafood industry working 
in conjunction with Fish and Wildlife that provided the most 
funding and worked hard to ensure this did not happen. 
Currently, there are efforts in South Texas and Mexico, Rancho 
Nuevo, where everyone is working together to keep the turtles 
off the endangered species list.
    What concerns me is that after the industry has worked in a 
good-faith effort, NMFS still continues to penalize them, and I 
think this is very, very unfair, specifically now that we are 
being dumped with tons and tons and tons of shrimp from other 
countries into the United States. They don't have the same 
regulations we have. They don't have turtle excluder devices. 
They don't have OSHA. This is an industry, Mr. Chairman, that 
is being on the verge of extinction.
    So when the proper time comes, Mr. Chairman, I will ask 
some questions, but I know that if I am correct, and I stand to 
be corrected, I understand that some of these devices will cost 
$2,000 to $3,000 per boat. And now when you try and go to the 
gas pump and try to fill up the tank, you see that gasoline and 
the energy prices are going out of sight. When the proper time 
comes, Mr. Chairman, I would like to ask a few questions, and 
thank you for your indulgence.
    Mr. Gilchrest. Thank you, Mr. Ortiz.
    Mr. Faleomavaega?

STATEMENT OF ENI F.H. FALEOMAVAEGA, A DELEGATE IN CONGRESS FROM 
                         AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I thank my 
colleague from Texas in expressing his concerns about some of 
the budgetary cuts that have been given to the programs that 
certainly are of interest to his constituents in his district.
    My particular interest, Mr. Chairman, as you know, we 
worked very hard last Congress to increase the authorization of 
the National Sea Grant program, and I notice here on the 
syllabus that the Administration does not have any intention of 
putting not one red cent in addition to the authorization that 
we had worked so hard in providing this program, which I 
believe should be right in conjunction with the Land Grant 
program.
    Here we expend almost $1 billion a year for the Land Grant, 
which I have no problem with. But the fact that to me it seems, 
Mr. Chairman, the Sea Grant program is just as important, 
especially serving the millions and millions of people 
throughout the country, especially among the coastal States, 
and somehow this administration does not view the Sea Grant 
program as an important part of our country's interest.
    I am looking forward to hearing our friends and their 
testimony and seeing where we need to go from there.
    I join also my leader, our Ranking Member from New Jersey, 
Mr. Pallone, for his concerns and the statement that he has 
brought forth before our Committee and certainly look forward 
to hearing from our friends on the budgetary request for Fiscal 
Year 2004. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega. The Committee 
will work with you on the Sea Grant issue, seeing that it is an 
important program that implements the science on the ground, 
and Mr. Ortiz, we certainly will work with you on the shrimp 
issue as we move through this Congress.
    Mr. Lautenbacher, Admiral, you may begin, sir.

  STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR., U.S. 
    NAVY (RET.), UNDER SECRETARY FOR OCEANS AND ATMOSPHERE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Admiral Lautenbacher. Thank you, Mr. Chairman, members of 
the Subcommittee, and staff. It is a great honor to appear 
before you. I thank you for this opportunity to discuss the 
NOAA budget and to ask for your support for the programs that 
we are attempting to enact this year.
    The Administration's request for NOAA this year is $3.326 
billion. That is a small amount of money when you consider the 
broad scope of responsibilities that the agency has to cover. 
When you bounce that against the enacted bill, which, I might 
mention, just came out recently, in the last month or so, it is 
about a 1-percent change. It is about $45 million difference. 
So we are about the same level as was enacted by Congress in 
this omnibus bill that we had at the end of February.
    We have essentially within that $3 billion about $284 
million of changes, so those are the--and you mentioned some of 
them in your opening statement, so that is the churn. It is 
about 10 percent of that total amount that we are talking about 
now in terms of priorities that we need to deal with.
    In those changes, I would like to make a strong pitch for 
support from the Committee for our people. The scientific core 
that makes up NOAA is extremely important to our country. This 
is the essence of ocean and atmospheric science for this entire 
nation. As I like to point out, we are about the size of one 
Army light division, but this is the only division we have in 
this whole work and we are deployed platoon by platoon, from 
Maine to American Samoa to Key West and Point Barrow. So this 
is a big operation.
    People are essential. I am asking for adjustments to base 
to pay our people the authorized pay raises that Congress 
approved of 4 percent and then 2 percent. That is about $52 
million. I think it is critical that we keep this scientific 
cadre together and working. It is not something that can be 
rebuilt quickly if it gets torn down. That is my No. 1 
priority, and again, people are the heart and soul of NOAA 
operations.
    The budget this year was submitted in terms of six themes. 
The first piece is the infrastructure, maintenance, safety, and 
human capital, of which I just mentioned the biggest piece is 
paying our people to do the important work that they do. 
Homeland security is the next topic, which is extremely 
important. Climate, change, a big issue this year politically, 
as well as scientifically. Ecosystem forecasting and 
management, which is an area that you're all very concerned 
about. Energy and commerce and environmental monitoring and 
prediction. Let me just mention a couple of the things that I 
think are important so we have more time for questions.
    I have already mentioned the maintenance, safety, and human 
capital. The biggest piece of that is paying our people the 
authorized pay raises.
    In homeland security, we have a small amount of money, but 
one program that I think is worthwhile mentioning is the 
extension of NOAA weather radio to an all hazards system 
nationally. This will automate emergency managers' input into a 
system which, of course, you know of NOAA weather radio's 
alarm. Every house that they are in, they are essentially a 
built-in alarm clock for any kind of emergency that might come 
up, not just weather.
    So this initiative of roughly $5 million would take a 
system that reaches--has the potential to reach 95 percent of 
the population of the United States. It would take any 
emergency actions that a local or regional manager might have 
concern for the local population, such as chemical spills, 
fires, as well as weather, and within 2 minutes get it out to 
all the people who have these NOAA weather radios. It is a 
great step forward. Right now, it takes seven to 8 minutes 
under good circumstances to do it manually through this system.
    In ecosystem forecasting and management, which is very 
important, as I just heard from the opening statements, NOAA is 
a large regulatory agency as well as environmental agency and 
there are modest increases in this area. I will mention that 
Sea Grant is back in, as was mentioned, and I think it is 
important that it is back in NOAA and I am pleased to be able 
to report that the Administration has put this back in a NOAA 
program versus the NSF program.
    We also have some modest increases in there which the 
Chairman mentioned in terms of trying to build our base of 
fisheries science and fisheries management, money for 
observers. We have some court ordered coverage in New England 
that we must cover which is in this budget. We have $13.5 
million for the Columbia River Power System Biological Opinion, 
which goes to salmon recovery in the Northwest. We have, as 
mentioned, $2.8 million for reducing bycatch. Bycatch is a huge 
issue that we need to work for.
    And in terms of the regulatory streamlining, we have added 
money to try to make it better and easier for the public, $1.5 
million additional for regulatory streamlining. I might mention 
that our court cases recently dipped below 100, so we are doing 
better in terms of consistency and winning some of the cases 
that are coming up to us and eliminating some others from 
coming up.
    In energy and commerce, which is very important, the 
mapping and charting that was mentioned, we have an increase 
for our electronic navigation charts. We are looking to build 
that coverage completely by Fiscal Year 2008, and it would be 
about 1,000 charts that would be maintained in electronic 
navigation. I might add that we have had a great success in 
delivering them electronically over the Internet. This last 
month, in February, we had the largest, something like 17,000 
charts were delivered electronically over the Internet, free of 
charge to users, and so that is a growing business and a 
growing market for us and it is working out very well.
    In energy and commerce, we are also asking for an increase 
to keep our National Water Level Observer Network up. We are 
grateful for the increases that we received in years past. We 
are up to about a 74 percent effectiveness level. We need to 
get higher to be able to produce the kinds of port management, 
port modeling schemes in order to ensure that our commerce 
comes in and out of our harbors as it should, safely and 
efficiently.
    We have increased the money for our vessel time charter 
program to ensure that we can cover the requirements in the 
Gulf and Alaska, as well.
    I will just mention the environmental monitoring 
prediction, which is what most of you refer to as the dry side. 
It continues to try to build the programs that are essential to 
everyone, wet side and dry side, and those are the observing 
platforms. The satellites that we have are the foundation of 
everything we do. And I might add, we are using more and more 
of that data to work in ecosystem management. It allows us to 
do things such as pinpoint harmful algal blooms, different 
types of sediment activity that is happening in coasts. So 
there will be more and more usefulness from satellite coverage 
for our coasts and ecosystems in the years to come if we stay 
on course with some of those programs.
    With that, I will close my formal remarks. Again, I 
appreciate very much the support of this Committee and the 
members and the staff. I look forward to working with you as we 
move through the budget 2004 budget process, and again, it is a 
delight to be here today. Thank you, sir.
    Mr. Gilchrest. Thank you very much, Admiral.
    [The prepared statement of Admiral Lautenbacher follows:]

 Statement of Conrad C. Lautenbacher, Jr., Under Secretary of Commerce 
  for Oceans and Atmosphere, Vice Admiral, U.S. Navy (Ret.), National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

    Thank you, Mr. Chairman, and members of the Committee, for this 
opportunity to testify on the President's Fiscal Year 2004 Budget 
Request for the National Oceanic and Atmospheric Administration (NOAA).
    NOAA activities and operations contribute to the Nation's economic 
and environmental health. This budget request allows us to provide 
essential support to the programs that enhance our scientific 
understanding of the oceans and atmosphere, in order to help sustain 
America's environmental health and economic vitality.
    NOAA is at the forefront of many of this Nation's most critical 
issues from weather forecasting to fisheries management, from safe 
navigation to coastal services and from environmental observations 
through NOAA's satellites to climate research and ocean exploration.
    The Administration requests $3.326 billion for these people, 
products and services for Fiscal Year 2004. This represents a very 
modest total increase of $45.0 million, only about 1.4% more than the 
fiscal year 03 enacted amount. It targets essentials, such as $284.2 
million in program changes of which $52.0 million are adjustments to 
base (ATBs), or mandatory cost increases, which are mostly inflationary 
costs related to salaries for NOAA employees.
    This budget request focuses on NOAA's core responsibilities: severe 
weather prediction; long- term climate and environmental trends; 
sustaining healthy marine habitats, robust ecosystems and coastal 
environments;, and managing safety and environmental compliance issues 
impacting our people. People are NOAA's top resource, the heart and 
soul of NOAA operations. It is the people who work for NOAA who allow 
us to remain a premier oceanic and atmospheric science, service & 
stewardship agency.
    The Fiscal Year 2004 NOAA budget request is organized slightly 
differently than the NOAA budget requests that have been presented to 
Capitol Hill in past years. I believe that looking at the NOAA 
organization and programs through a thematic matrix yields a more 
complete view of the interrelationship of NOAA programs and project 
teams that cut across the traditional NOAA product and service lines. 
Organizing the budget in this manner demonstrates NOAA's commitment to 
addressing critical environmental issues in a multi-disciplinary 
manner. The six themes included in the Fiscal Year 2004 NOAA budget 
are: Infrastructure, Maintenance, Safety & Human Capital; Homeland 
Security; Climate Change, Research, Observations & Services; Ecosystem 
Forecasting & Management; Energy & Commerce; and Environmental 
Monitoring & Prediction. I would like to briefly address what is 
covered under each theme.

Infrastructure, Maintenance, Safety & Human Capital ($248.4M, $62.0M 
        increase)
    The full $52.0 million requested for adjustments to base (ATBs) 
appears in this theme. This is the most basic, fundamentally important, 
investment in the infrastructure category. It is the funding necessary 
to support NOAA's people, so they can continue to improve service and 
product delivery to carry out NOAA's mission. This figure includes the 
annualization of the 4.1% pay raise in Fiscal Year 2003, the 2% pay 
raise requested in Fiscal Year 2004, and the funds necessary to 
increase the NOAA Corps and improve ship crew training.
    The funds requested in this category will also assist NOAA in 
beginning to implement agency-wide management improvements. This 
includes addressing remediation projects to improve environmental 
safety and compliance at NOAA facilities, and participating in the e-
gov initiatives that make NOAA more accessible to the American public. 
Funding is also requested for operation and maintenance of the NOAA 
Ship FAIRWEATHER, weather forecast office and housing construction in 
Alaska and the Pacific Region, the $10.4 million NOAA share in the cost 
of the Center for Weather and Climate Prediction construction and the 
NOAA Satellite Operations Facility in Suitland, Maryland.
    This theme also includes investment in health and safety through 
improvements and upgrades in NOAA's facilities and equipment, such as 
the NOAA P-3 ``hurricane hunter'' aircraft. An investment of $1.7 
million this year is requested to upgrade the navigational system of 
this advanced atmospheric and environmental platform used for hurricane 
research.
    Among all the items included in this theme, the most important 
component of NOAA activities is the people who generate our products 
and services. Retaining and appropriately compensating the people at 
NOAA who are working to help us reach our goal of improving services 
delivery is crucial to attaining this goal. As you are aware, last year 
NOAA underwent an Agency- wide realignment to help move NOAA into a 
more efficient mode of operations. The Program Review Team (PRT) posed 
3 questions to the NOAA staff, the answers to which formed the core of 
the PRT report and recommendations:
    Is NOAA's organization aligned with its current missions, now and 
for the future?
    Are NOAA's resources properly aligned with requirements?
    Is NOAA doing things as efficiently as possible?
    The goals of the PRT exercise were to improve NOAA business 
practices, including grant management and facilities planning, and to 
move towards becoming a citizen-centered, results-oriented, market 
based organization. This effort has resulted in several management 
improvements just in the last year, including the creation of the 
Planning, Programming and Integration (PPI) office, and establishing 
official matrix management teams for the Coral Reef, Habitat 
Restoration, Ocean Exploration and Climate programs. NOAA is also 
moving towards integrating program budgeting and performance, 
separating fisheries science and regulation, and strengthening NOAA 
administrative services by implementing Activity Based Costing (ABC), 
and Business Management Fund Development.

Homeland Security and Related Programs ($65.1M, $7.7M increase)
    The investments in this area focus on existing NOAA products and 
science which can be utilized for Homeland Security. Priorities are on 
the ``first responders,'' which enable NOAA technology to be accessed 
and used by local, state, and Federal emergency managers. The funding 
provided under this theme provides critical infrastructure and enhanced 
security to current NOAA facilities.
    For first responders, NOAA is requesting $5.5 million to support a 
scaled upgrade of the current NOAA Weather Radio (NWR) network to an 
All Hazards Warning Network for civil emergency messages. The existing 
NWR network provides the most robust government-owned dissemination 
infrastructure capable of meeting the all-hazard dissemination 
requirements. This investment will decrease the time to disseminate 
civil emergency messages from an average of 7 minutes to 2 minutes. 
This request is a one-time cost. The funds will allow NOAA to modify 
existing Advance Weather Interactive Processing System (AWIPS) 
communications software to allow emergency managers to directly 
transmit a civil emergency message over secure lines. This modification 
will have immediate, nationwide impact because NWR is located in every 
state, linked to the Emergency Broadcast System, and NOAA weather radio 
receivers are widely available in the commercial market.
    The security and safety of NOAA facilities is an equally important 
element of this budget theme. $2.2 million is requested in the Fiscal 
Year 2004 budget for emergency preparedness and safety to improve the 
overall physical security at National Weather Service (NWS) facilities 
to preclude unauthorized individuals from entering and tampering with 
NOAA property. This investment will provide for alarm or monitoring 
systems at 92 weather forecast offices and national centers, as well as 
electronic or cipher door locks at 149 weather forecast offices or 
national centers. These small improvements will go a long way towards 
improving the safety and security of the physical workplaces of NOAA 
employees across the country.

Climate Change, Research, Observations & Services ($295.5M, $16.9M 
        increase)
    NOAA is requesting a $16.9 million increase for our climate 
research activities, which is just a portion of the government-wide 
$185 million Climate Change Research Initiative (CCRI). This funding 
will allow NOAA to complete 29 stations out of a network of 36 
atmospheric vertical profiling stations around North America, and begin 
producing improved decision support tools, including regional carbon 
maps. This theme also includes funding for the increased computing 
needs at the Geophysical Fluid Dynamic Laboratory (GFDL) in Princeton, 
New Jersey, and further development of the global ocean observing 
system to meet long-term observational requirements of operational 
forecast centers, research programs, and major scientific assessments. 
This initiative builds on the Fiscal Year 2003 request, focusing on the 
effective use of scientific knowledge in climate policy and management 
decisions to reduce uncertainties in climate science and develop 
research and operational climate products based on science. This 
strategy is aligned with National Academy of Science recommendations, 
and takes operational climate forecast capabilities to a 24x7 world.
Climate Symposium Event
    From December 3-5, 2002, under the leadership of James R. Mahoney, 
Assistant Secretary of Commerce for Oceans and Atmosphere, NOAA and 12 
other U.S. Government Agencies hosted a major workshop in Washington, 
D.C. under the umbrella of the newly formed U.S. Climate Change Science 
Program (CCSP). The CCSP incorporates both the U.S. Global Climate 
Change Research Program and the Climate Change Research Initiative. The 
workshop responded to the President's initiative to make the U.S. 
global change and climate change science programs more objective, 
sensitive to uncertainties and open for public debate. The workshop 
specifically focused on reviewing the CCSP's draft strategic plan for 
climate change and global change studies, with an emphasis on 
developing short-term (two- to four-year) products to support climate 
change policy and resource management decision-making. The Fiscal Year 
2003 budget for the CCSP is approximately $1.75 billion. The NOAA 
request for CCRI for Fiscal Year 2004 is $41.6 million, out of a 
government wide $185 million.

NOAA's Climate Services Program
    The nation needs accurate, comprehensive and timely information 
about climate variability and trends, climate change and climate 
uncertainties. NOAA's Climate Services Program is an integrated 
endeavor designed to develop and deliver climate information, thereby 
providing an improved basis for climate-related decision-making. NOAA's 
Climate Services Program will be managed in a new way within the 
organization. NOAA has instituted a new Climate Office. The new NOAA 
Climate Office will consist of representatives from each of the NOAA 
Line Offices (NOAA National Environmental Satellite, Data and 
Information Service (NESDIS), NOAA National Marine Fisheries Service 
(NMFS), NOAA National Ocean Service (NOS), NOAA National Weather 
Service (NWS) and NOAA Office of Oceanic and Atmospheric Research 
(OAR)) and will focus on all NOAA climate programs. This is in contrast 
with the current NOAA Climate Observations and Services Program office, 
which primarily focuses on new climate funding and only has 
representatives from OAR, NWS and NESDIS. The new NOAA Climate Office 
will work on NOAA's climate programs, as well as supporting NOAA's 
efforts in the interagency Climate Change Science Program. It will be 
established in accordance with the matrix management principles 
outlined in the Program Review Report (while the existing Climate 
Observations and Services Program office will form the basis of the new 
NOAA Climate Change and Variability Office and will continue to be 
hosted by OAR).
    One of NOAA's top strategic goals in this area is to understand and 
enhance society's adaptation to climate variability and change. NOAA 
has initiated a new Climate Services Program in an effort to coordinate 
climate activities across all NOAA line offices. NOAA is requesting 
$2.0 million to help improve our understanding of how climate change 
affects marine and coastal ecosystems in the Bering Sea and Gulf of 
Alaska. The waters of Alaska are the most productive fisheries in the 
world and are home to a wide variety of ecosystems. While NOAA is aware 
of changes occurring in the climate, we currently lack comprehensive 
understanding of how these processes can effect biological and other 
changes in marine ecosystems. The study of the effects of climate 
changes upon fisheries, marine mammals and birds, ocean temperatures 
and currents, and other impacted areas is an important task to ensure 
that the fisheries remain productive in the 21st century. These funds 
will be used to develop and implement models to understand these 
dynamics and will fund long-term observations and studies to correlate 
the relationships between climate and changes in marine ecosystems. 
Researchers in the Northwest Climate Impacts Group interact with 
stakeholders to develop and test products based on stakeholder's 
needs--linking climate and weather information to marine ecosystems 
(chiefly Pacific salmon); hydrology and water resources (including 
hydropower, forest resources), coastal resources; and health.
    NOAA's success in providing integrated climate services to the 
nation can be attributed to NOAA's unified strategy for transitioning 
research into systematic and sustained outreach. Specifically, NOAA's 
Climate Services Program will benefit from the participation of several
    NOAA line offices: NWS, NESDIS, and OAR are the primary producers 
of climate information within NOAA. It is also important to acknowledge 
the role of the NOAA Officer Corps. The NOAA Corps operates a fleet of 
research vessels and aircraft that directly contribute to and support 
these line offices with implementing their climate research, 
observations and service activities.

NOAA Climate Partnerships, Education, and Outreach Efforts
    NOAA maintains partnerships with universities, private industry, 
other U.S. agencies, nations and international bodies to observe and 
monitor the climate, further scientific knowledge, and make climate 
assessments/predictions. NOAA also works closely with private sector 
partners to develop products to meet stakeholders' needs and to ensure 
that the data and information delivered are readily understood and can 
be used to develop value-added tailored products and services for 
business, industry and the public.
    Climate is a key issue for NOAA and its strategic goals for the 
future. From observations to research to operational product delivery, 
NOAA maintains significant involvement in helping the nation and the 
world respond to the impacts of climate variability and change. NOAA 
manages several global data bases--for meteorology, oceanography, solid 
earth geophysics, and solarterrestrial sciences. From these sources, 
NOAA develops and provides environmental data and information products 
and services. NOAA gathers global data about the oceans, Earth, air, 
space, and sun and their interactions to describe and predict the state 
of the physical environment.
    The President's CCRI led to the creation of a new interagency 
framework to enhance coordination of Federal resources and research 
activities. Under this framework, thirteen Federal agencies are working 
together under the leadership of a Cabinet-level committee on climate 
change to improve the value of U.S. Climate Change research. Even in 
this time of difficult budget decisions, the President is committed to 
fully funding climate research so that we can continue to reduce the 
uncertainties associated with climate change.

Ecosystem Forecasting & Management ($1,017.1M, $3.47M decrease)
    NOAA is the largest regulatory agency within the Department of 
Commerce. Most NOAA regulatory functions and activities are captured 
under this budget theme. Due to reductions for the Pacific Salmon 
Treaty and other programs, there is a net reduction in the Ecosystem 
Forecasting theme of $3.4 million. Absent reductions, however, the net 
increase is $18.6 million. The increases in this theme involves 
investments in rebuilding fisheries, and conserving and restoring 
living marine resources and habitats. This theme focuses on enhancing 
the understanding of the physical, chemical and biological components 
of ocean and coastal ecosystems by supporting research and prediction 
of impacts of environmental factors on the distribution and fate of 
species and their habitats. Another important activity carried out 
under this theme is satisfying immediate legal and regulatory 
requirements of resource stewardship, including Section 7 consultations 
under the Endangered Species Act, Northeast Groundfish observers, 
regulatory streamlining, socioeconomic capacity and management of the 
Columbia River Biological Opinion process. This area also includes a 
reduction of $39.9 million for the Pacific Salmon Treaty for which all 
U.S. obligations have been met.
    Research initiated under this theme includes studying the influence 
of climate change on the stewardship of coastal and marine ecosystems, 
and the scientific basis for management of fisheries to rebuild 
fisheries and recover protected species. Specifically, as I mentioned 
earlier, this theme includes $2.0 million for improving the 
understanding and prediction of climate change on major U.S. marine and 
coastal ecosystems in the Bering Sea and the Gulf of Alaska.
    Funding is included to modernize and expand stock assessments. 
Funds will allow for research days at sea which will be used to improve 
the comprehensiveness, timeliness, quality and communication of state-
of-the-art assessments to NOAA Fisheries and the Regional Fishery 
Management Councils. The resulting assessments will be of higher 
quality and more frequency, which reduces the uncertainty in choosing 
and monitoring rebuilding and management policies. This improvement in 
the scientific basis for mangement will raise the confidence and 
certainty of both fishery managers and the industry that our management 
strategies are necessary and sufficient to return the greatest benefits 
to the nation.
    $4.4 million is also requested in the Protected Resources 
Conservation and Management line item, including 10 FTEs for Section 7 
consultation activities. This new funding will help NOAA meet the 
court-ordered deadlines to conduct consultations on pesticides with the 
Environmental Protection Agency (EPA).
    There is also $6.3 million included in this theme that will be used 
to increase the number of New England Groundfish observers to meet the 
court ordered level of 5% observer coverage in the region.
    The $13.5 million requested for the Federal Columbia River Power 
System Biological Opinion (Columbia River BiOp), and Basin-wide 
Recovery Strategy will be used to ensure that management activities 
necessary for this program are undertaken. This includes allowing NOAA 
fisheries to promote subbasin planning, enhance recovery planning, and 
review passage and screening enhancements in priority watersheds.
    The $2.8 million requested for reducing bycatch will be used to 
support approximately 2,000 days at sea for observers. These days at 
sea will be used to enhance and coordinate technical expertise to 
respond to bycatch issues, including examining existing bycatch 
reduction methods, evaluating their effectiveness, and designing and 
testing new methods. These additional funds would complement existing 
marine mammal efforts and the provisions of the Administration's 
legislative proposal for the Marine Mammal Protection Act to reduce 
mortality and serious injury of marine mammals incidental to commercial 
fishing. These efforts include the collection of data to assess the 
impact of fishery mortality on marine mammals and to evaluate and 
develop new fishing gear or practices.
    This theme also includes $1.5 million for regulatory streamlining 
activities, to improve NOAA's ability to administer the National 
Environmental Policy Act (NEPA) and other regulatory collection 
activities through the development of an information technology (IT) 
system.

Energy & Commerce ($116.0M, $17.9 M increase)
    This theme includes a $17.9 million investment in the safety and 
productivity of our nation's waterways and harbors which will help 
sustain our economy by increasing the levels of trade and improve our 
abilities in forecasting regional climate and temperature variations 
which will serve to improve power forecasting and result in savings for 
the power industry and other public groups.
    This theme also incorporates $1.2 million to support our High 
Impact Weather investment. This investment enhances the modernization 
of the NOAA National Weather Service (NWS) Cooperative Observer 
Network, which provides the nation with a network of state-of-the-art 
measurement, monitoring, and communication equipment for surface 
weather data collection. This includes the modernization of 307 
Cooperative Observers Program (COOP) stations in New England.
    Also included are funds to build and maintain an additional 100 
electronic navigational charts (ENC) to provide contiguous coverage of 
the Gulf of Mexico and the east coast of the United States. This will 
go a long way towards helping us achieve our goal of expanding the ENC 
inventory to a total of 550 by 2006, just over half the 1000 ENCs 
required to achieve full coverage of all U.S. waters.
    Another element of this theme is the $7.9 million investment for 
mapping and charting activities and the development of additional 
forecast model systems for key ports and bays to promote the safe and 
efficient transit of cargo through our waterways. This will provide 
full three-dimensional coverage of a commercial port for water levels, 
current fields, salinity and water temperature and help measure under-
keel ship clearances.
    The $4.4 million for a Vessel Time Charter to expand our 
hydrographic surveying capacity is also included in this theme. The 
funds requested for this activity in Fiscal Year 2004 build on the 
request from Fiscal Year 2003, allowing the vessel to operate in both 
the Gulf of Mexico and Alaska, collecting data on an additional 550 
square nautical miles. Using both government and private resources to 
collect this data will allow NOAA to accomplish this goal efficiently 
in Fiscal Year 2004.
    Another system that requires upgrades is the National Water Level 
Observation Network (NWLON), which is over 20 years old. The requested 
$1.5 million for NWLON will be used to repair these ailing stations, 
which provide data used for nautical charting, real-time navigation, 
hazardous material response efforts, and tsunami and storm surge 
warnings, to name a few uses.

Environmental Monitoring & Prediction ($1,600.6M, $183.3M increase)
    This theme is organized around two components-observing platforms 
and sustaining current capabilities. Environmental Monitoring and 
Prediction includes a $13.5 million investment by the Agency (not 
including Geostationary Operational Environmental Satellite (GOES), 
Polar Operational Environmental Satellite (POES) and the National Polar 
Orbiting Operational Environmental Satellite (NPOESS)) to support 
technological advancements in NOAA's severe weather prediction efforts. 
This theme includes data collection activities on the status and health 
of the ecosystem. This area also covers the maintenance of the 
infrastructure needed to ensure basic operations and safety of NOAA 
employees, and incorporates and expands NOAA's satellite monitoring and 
in situ observations. The demand for these types of NOAA products and 
services is expected to rise significantly over the next several years, 
particularly in the key areas of Homeland Security and Climate Change.
    In light of the recent tragic loss of the space shuttle Columbia, 
as Deputy Secretary Bodman noted in his testimony before the House 
Science Committee on February 13, I would like to remind the Committee 
that NASA and NOAA have a long history as partners in the development 
of our environmental satellite systems. As part of our routine support 
to the NASA shuttle program and satellite launches, NESDIS and NWS 
provide specialized services, including space-based observations and 
weather forecasts. At the time of the accident, NWS transmitted 
emergency broadcasts in Texas and Louisiana via the NOAA Weather Radio 
(NWR) network.
    The Fiscal Year 2004 request for the polar-orbiting and 
geostationary satellites ensures the simultaneous operation of existing 
satellite series while supporting planned critical path acquisition 
activities for future systems. These data are used to predict 
hurricanes and other types of severe weather, support search and rescue 
operations, provide global monitoring and climate assessment and 
prediction, and monitor significant events such as volcanic eruptions, 
wildfires and oil spills.
    The bulk of the funding under this theme will be used to support 
NOAA's observing platforms. This includes a $107.3 million net increase 
for post launch requirements for GOES I-M, the continued procurement of 
the GOES- N series satellites, instruments, ground systems and systems 
support necessary to maintain the continuity of geostationary 
operations, as well as planning and development of the GOES-R series of 
satellites and instruments. GOES-R will significantly improve weather 
forecasting as well as homeland security. To support the POES and 
NPOESS programs, NOAA has requested a $70.6 million net increase in the 
Fiscal Year 2004 budget. The NPOESS program will continue the space-
based climate record, as well as significantly improving weather 
forecasting and homeland security. The satellites supported by NESDIS 
are used by NWS, NOS, NMFS and OAR to support their weather, climate 
and navigation safety missions.
    A relatively small $2.0 million of the funding requested under this 
theme is requested to add sensors to the NOAA's Coastal Global 
Observing System to provide definitive information on the effects of 
the changing climate on coastal communities in the United States, and 
to improve ocean condition forecasts that adversely affect coastline 
erosion. The funds will be used to add ocean instrumentation for 
surface salinity, water temperature and currents to all the existing 
buoys and coastal marine stations operated by the National Buoy Data 
Center (NDBC). It adds 15 moored buoys and 15 coastal marine (CMAN) 
units in areas where data collection buoys are sparse.
    This theme also includes $1.3 million in funding requested to 
sustain the operations of the international research program known as 
THORpex, which stands for The Observing Research and Predictability 
Experiment. THORpex seeks to gain a better understanding of the global 
impact of weather predictability, with the goal of improving our 3 day 
forecast accuracy to that of our current 2 day forecast, and producing 
reliable forecasts up to 14 days in advance. This investment will be in 
new technologies and improving our data assimilation and numerical 
weather prediction capability.
    An additional $1.3 million is requested under this theme for 
sustaining our flood prediction capability along the Susquehanna River 
in the states of New York, Pennsylvania and Maryland. The Susquehanna 
is a 444-mile river whose basin extends from Cooperstown, NY, to the 
Chesapeake Bay. It sustains six times the nation's average in flood 
damages per square mile each year. The $1.3 million can be broken down 
as follows: $0.6 million for flood forecast enhancements, $0.5 million 
for the data network and $0.2 million for the Susquehanna River Basin 
Commission for Outreach and Community Assistance.
    We are also asking for $3.6 million to sustain our weather warning 
and forecast services for the Pacific Islands. This will allow NOAA to 
continue providing upper-air and aviation surface observations in the 
Republic of the Marshall Islands, the Federated States of Micronesia 
and the Republic of Palau. These observations are critical to 
accurately forecasting weather events in the Pacific Region.
    Another important element covered by this theme is aircraft 
maintenance. We are requesting $1.5 million for necessary aircraft 
maintenance including manufacturer- required, mid-life inspection of 
our G-IV aircraft used for hurricane surveillance and winter storms 
reconnaissance. $1.6 million is also requested for a replacement 
aircraft to conduct snow surveys. The aircraft currently used for this 
purpose is experiencing an increase in unscheduled maintenance 
downtime, and this aircraft provides critical data as part of our 
airborne snow survey program.
    Another area where we are looking to add funding for a technology 
infusion is for our NWS Telecommunications Gateway. The $2.9 million 
requested for this purpose will be used to reduce time delays for 
disseminating critical hydrometeorological data for NWS national 
centers, weather forecast offices, and other Federal agencies and 
partners that rely on this data for operations. This funding will 
address electric power and facility deficiencies, and be used to 
replace the communications matrix switch, and some enterprise servers 
and front-end processors. The servers and processor replacement 
activity will be ongoing because it is a two-year refresh program. 
These pieces of equipment need to be replaced in order to meet our goal 
of achieving transmit times of less then 10 seconds for watches and 
warnings by 2005. Currently the average delay is between one and two 
minutes. More efficient information technology equipment is the key to 
reducing this transmit time to the required level by 2005. Another area 
that warrants investment is NEXRAD technology deployment. The $3.8 
million requested for this activity will also improve lead times, 
expanding average tornado warning lead times from 11 minutes to 15 
minutes by 2007, and increasing the forecasters' ability to detect 
small tornadoes. This investment will allow NOAA to purchase and deploy 
82 all Open Radar Data Acquisition (ORDA) systems prior to the onset of 
severe-weather season in Fiscal Year 2005, and complete deployment of 
ORDA systems by the end of Fiscal Year 2006. Supporting these programs 
and initiatives will significantly improve NOAA's ability to support 
weather and water, ecosystems, and homeland security programs.
Other Key Projects/Programs in Fiscal Year 2004 President's Budget
    Some of the other key areas of investment in the Fiscal Year 2004 
budget request include funding for our laboratory research programs, 
which provide for continued ocean observations, baseline observatories, 
and climate change assessments. Funding also provides for our SEARCH 
program that focuses on detection of climate change in the Arctic, and 
to continue NOAA's Energy Initiative, which consists of high impact 
weather and air quality activities, including funding for the Joint 
Hydrography Center in New Hampshire. Funding is also provided for 
undersea exploration, research, and technology in both the deep ocean 
and the U.S. Exclusive Economic Zone (EEZ), as well as to maintain our 
fundamental data collection and assimilation for the National Weather 
Service. This type of funding also allows NOAA to continue the vessel 
monitoring system for our enforcement and surveillance activities.

Conclusion
    NOAA's Fiscal Year 2004 Budget request invests in our priority 
areas: people, climate, energy, homeland security, infrastructure, 
research, science, and services. In this time of tight budgets and 
difficult funding decisions, this budget maintains NOAA on its course 
to realize its full potential as this nation's premier environmental 
science agency. The new thematic budget structure reflects NOAA's 
business approach as an integrated NOAA team which responds to the 
needs our customers and employees have voiced in workshops and 
communications efforts. NOAA is also doing its part to exercise fiscal 
responsibility as stewards of the Nation's trust as well as America's 
coastal and ocean resources. And, in the same way that NOAA is 
responsible for assessing the Nation's climate, we have assessed and 
are improving our management capabilities. NOAA will continue to 
respond to key customers and stakeholders, and will continue to 
leverage its programs and investments by developing those associations 
that most efficiently and economically leverage resources and talent, 
and that most effectively provide the means for successfully 
maintaining NOAA mission requirements. NOAA's budget strongly 
demonstrates the success of performance budgeting, where funding has 
been matched by results. Each request in the Technical Budget includes 
specific goals and descriptions of expected performance factors. NOAA 
Senior Management is now required to report every quarter on a set of 
performance measures that have come to be known as ``The 
Administrator's Metrics.'' This new set of reporting requirements 
reflects NOAA's commitment to ``Management by Fact,'' a philosophy NOAA 
will continue to demonstrate throughout Fiscal Year 2004 and beyond. 
Thank you for the opportunity to present NOAA's Fiscal Year 2004 
budget.
    [NOTE: The attachment entitled ``FY2004 NOAA Budget Summary 
Tables'' has been retained in the Committee's official files.]
                                 ______
                                 
    Mr. Gilchrest. Mr. Williams?

 STATEMENT OF STEVEN A. WILLIAMS, DIRECTOR, FISH AND WILDLIFE 
   SERVICE, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
 MARSHALL JONES, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Mr. Williams. Thank you, Mr. Chairman and members of the 
Subcommittee. I also appreciate the opportunity to testify 
before you today and report on the Administration's Fiscal Year 
2004 budget request for the Fish and Wildlife Service.
    Before I discuss the budget request or highlight our 
request, I would like to mention our recent decision to 
downlist gray wolves throughout much of its range. Wolves are 
coming back and their new status highlights our progress toward 
recovering them across their range. Our final rule will give us 
greater management flexibility for most gray wolf populations 
as we work toward removing gray wolf populations from the list 
of endangered and threatened species.
    I would now turn to highlighting a few items in our Fiscal 
Year 2004 budget request, starting with the Endangered Species 
program. The 2004 request is $3 million above the 2003 level. 
An increase of $3.2 million over the 2003 request level is 
required to address the growing listing program litigation-
driven workload. This additional funding is necessary to 
address listing actions required by court orders or settlement 
agreements.
    Additional high priority recovery actions, including 
immediate actions needed to stabilize critically imperiled 
species and actions that could lead to delisting nearly 
recovered species will be implemented nationwide, with a 
request for $2 million above the President's 2003 budget 
request.
    We request $103.6 million to implement the Fisheries 
Program Vision for the Future, through increased funding for 
hatchery operations and hatchery maintenance and increased 
emphasis on aquatic invasive species. This request will help us 
to do more for aquatic resources and the people who value and 
depend on them through enhanced partnerships, scientific 
integrity, and a balanced approach to conservation.
    Significant funding increases will support high-priority 
needs of the National Wildlife Refuge System. Last year, the 
President's budget requested the largest increase in the 
system's history to celebrate the Refuge System's centennial 
earlier this month. This year, the Administration request 
builds on that substantial increase with another $25.5 million 
over the 2003 request.
    To date, the Partners for Fish and Wildlife program has 
worked with about 28,700 private landowners through voluntary 
partnerships to implement on-the-ground habitat restoration 
projects covering some 360,000 acres across the country. We are 
requesting an additional $9.1 million in the 2004 request to 
increase the program's capability to enter into meaningful 
partnerships resulting in on-the-ground habitat restoration 
accomplishments.
    In addition, we are requesting an additional $1 million 
over the 2003 request to fund our nutria control obligations. A 
$3 million increase for the joint venture program will provide 
a total of $10.4 million, or full funding for that program. As 
of December 2002, partners have contributed approximately $1.5 
billion to protect, restore, or enhance almost five million 
acres of U.S. wetlands, grasslands, forests, and riparian 
habitat.
    Our law enforcement program, we hired nine additional 
wildlife inspectors to interdict and deter the illegal trade in 
protected species. In addition, manatee protection efforts will 
be accelerated in Florida by protecting manatees from boat 
strikes, enforcing speed zones in refuges and sanctuary areas 
with a half-a-million dollar increase.
    The President's 2004 budget continues to support active 
participation on the part of States and other partners in 
resource conservation efforts. To this end, the budget request 
provides $247 million for five service grant programs that 
facilitate State and local conservation efforts. As part of 
this $247 million request, the budget includes $50 million to 
continue the Land Owner Incentive and Private Stewardship Grant 
program.
    We are requesting $86.6 million for the Cooperative 
Endangered Species Conservation Fund, a $60 million request 
which includes $5 million for tribal set-aside for the State 
and Tribal Wildlife Grant program, and we request $50 million 
for the North American Wetlands Conservation Fund. This fund 
protects and restores wetland ecosystems that serve as habitat 
and resting areas for migratory game and non-game birds and 
supports non-regulatory private-public investments.
    I thank you very much for the opportunity to testify. We 
appreciate this Committee's interest and support, and I look 
forward to working with you in the future.
    Mr. Gilchrest. Thank you, Mr. Williams.
    [The prepared statement of Mr. Williams follows:]

 Statement of Steven A. Williams, Director, Fish and Wildlife Service, 
                    U.S. Department of the Interior

    Mr. Chairman, and members of the Committee, I appreciate this 
opportunity to testify before you today and report on the 
Administration's Fiscal Year 2004 budget request for the Fish and 
Wildlife Service.
    Our budget request for 2004 is almost $2.0 billion, consisting of 
$1.3 billion in current appropriations under the purview of this 
Subcommittee as well as $674.0 million in permanent appropriations.
    The request continues key Administration priorities such as the 
Secretary's continued emphasis on conservation partnerships through a 
revised Cooperative Conservation Initiative that focuses on existing 
successful programs.
    The Service's Partners for Fish and Wildlife, North American 
Wetlands Joint Venture, Coastal and Refuge Challenge Cost-share 
programs are all included in this year's Cooperative Conservation 
Initiative. The budget provides $15.0 million in increased funding for 
these programs, including $9.0 million for Partners, $3.0 million for 
Joint Ventures and $3.0 million for Refuge Challenge Cost-share.
    Our main operating account--Resource Management--is funded at 
$941.5 million, a net increase of $38.0 million over the 2003 request. 
We note this account is funded at $30.0 million over the recently 
signed 2003 Omnibus spending bill.
    The request includes $7.0 million for fixed pay and other cost 
increases. The budget also includes a $3.4 million general decrease for 
travel and transportation costs as well as an $8.1 million reduction 
tied to information technology streamlining savings. Last, funding for 
several lower priority projects has been redirected to higher 
priorities.
President's Management Agenda
    We support the President's Management Agenda and continue to create 
a citizen-centered organization by evaluating and implementing 
strategies to integrate budget and performance management, conduct 
workforce planning, competitively out-source with the private sector, 
expand e-government, and provide greater accountability to the American 
people.
    The Service has worked closely with the Department over the past 
year to develop a more business-like approach to strategic planning and 
the 2004 budget. Substantial new performance information is contained 
in our justifications along with the series of traditional information 
that has supported previous Congressional decision-making on the budget 
request.
    Last, the National Fish Hatchery System and Partners for Fish and 
Wildlife Program were evaluated under the Administration's Program 
Assessment Rating Tool during the 2004 budget process. I will discuss 
more on the PART process later.
Fisheries Vision for the Future
    We request $103.6 million, a net increase of $8.8 million over the 
2003 request to implement the Fisheries Program's ``Vision for the 
Future'' through increased funding for hatchery operations and hatchery 
maintenance and increased emphasis on aquatic invasive species. For 
comparative purposes, this level is $3.0 million below the recently 
signed 2003 Omnibus spending bill, largely attributed to unrequested 
projects included in the Omnibus bill.
    Our ``Vision for the Future,'' with the backing of this 
Presidential budget request, will help to do more for aquatic resources 
and the people who value and depend on them through enhanced 
partnerships, scientific integrity, and a balanced approach to 
conservation. This ``Vision'' will help the Service better support the 
sport fishing community, which has historically been one of this 
agency's most valuable and valued partners. It also will help efforts 
to restore imperiled species.
    We seek a total of $58.0 million for the National Fish Hatchery 
System, a net increase of $8.0 million above the 2003 request level. 
The National Fish Hatchery System was one of over 200 programs 
evaluated using the Administration's Program Assessment Rating Tool 
during the Fiscal Year 2004 budget process. New goals were developed 
consistent with the President's Management Agenda, the Department's 
Draft Strategic Plan, and the Fisheries Vision. This year's increase is 
a direct reflection of the program's shift towards becoming more 
performance oriented.
    $5.0 million will support operations:
    <bullet> $1.6 million will support an additional 29 priority 
recovery tasks prescribed in approved Recovery Plans in 2004, an 
increase of 11%.
    <bullet> $2.5 million will implement 32 additional restoration/
recreation projects to conserve and restore aquatic resources, roughly 
72% of all restoration activities.
    <bullet> $900,000 will be used to conduct 16 high priority 
projects addressing science and technology objectives supporting 
valuable recreational fisheries and recovery of imperiled species.
    $3.0 million will improve the hatchery system's aging 
infrastructure to good and fair operational conditions to meet fishery 
management and recovery plan requirements. Of this total, $2.5 million 
will be directed toward 16 additional high priority deferred 
maintenance projects. The remaining $500,000 will enable the Service to 
complete Condition Assessments on 75 percent of its field stations in 
2004, and to streamline maintenance reporting and accountability by 
implementing the Service Asset and Maintenance Management System 
(SAMMS).
    An additional $1.0 million will prevent the introduction of aquatic 
invasive species, detect and rapidly respond to aquatic invasive 
species, and control and manage aquatic invasive species such as Asian 
carp in the Mississippi drainage and Asian swamp Eel in the Everglades.
    We also note that while this year's budget focuses on much needed 
increases for the hatchery system, we continue to strongly support 
aquatic habitat needs through a variety of programs. For example, the 
budget continues base funding for fish passage projects, for aquatic 
habitat restoration, and for other projects, some of which will be 
discussed below.

Partners for Fish and Wildlife
    To date the Partners program has worked with 28,700 private 
landowners through voluntary partnerships to implement on-the-ground 
habitat restoration projects covering 360,000 acres across the country.
    The Partners Program was also one of over 200 programs evaluated 
using the Administration's Program Assessment Rating Tool during the 
Fiscal Year 2004 budget process. This year's increase is a direct 
reflection of the program's achievement of annual performance goals.
    We are requesting an additional $9.1 million in the 2004 request to 
increase the program's capabilities to enter into meaningful 
partnerships resulting in on-the-ground habitat restoration 
accomplishments.
    For example, the Service will work with the California University 
of Pennsylvania on a landscape-scale habitat restoration program in the 
Buffalo Creek Watershed, Washington County, Pennsylvania and Brooke 
County, West Virginia to install streambank fencing, cattle crossings, 
and constructing alternate watering sources for livestock. And, in 
Alaska, the Service will work with the Chickaloon Village to restore 
fish passage within the Moose Creek watershed to restore all five 
species of Pacific salmon to the watershed.
    During 2004, the Partners program will:
    <bullet> enhance or restore a total of 66,365 acres of wetlands 
through voluntary agreements to help improve fish and wildlife 
habitats;
    <bullet> enhance or restore a total of 287,507 acres of upland 
habitat through voluntary agreements to help improve fish and wildlife 
populations;
    <bullet> enhance or restore a total of 830 miles of riparian and 
stream habitat through voluntary agreements to help improve fish and 
wildlife populations.

National Wildlife Refuge System
    Significant funding increases will support high priority needs of 
the National Wildlife Refuge System. Last year, the President's Budget 
requested the largest increase in the system's history to celebrate the 
Refuge System's Centennial in March 2003. This year the Administration 
request builds on that substantial increase with another $25.5 million. 
For comparative purposes, this is a $33.6 million increase over the 
recently signed 2003 Omnibus spending bill.
    Together with last year's request, this totals over $82.0 million 
for much needed operations and maintenance projects within the refuge 
program.
    A $5.0 million increase will provide start up costs for new and 
expanded refuges including Vieques, Midway Atoll, and Don Edwards. 
Invasive species encroaching upon the refuge system will be addressed 
with an additional $2.1 million to combat nutria, Tamarisk and Giant 
Salvinia, among others.
    We will fund additional Challenge Cost Share projects under the 
Cooperative Conservation Initiative with $3.0 million; support 
additional Comprehensive Conservation Plans with $2.0 million; and 
control Chronic Wasting Disease on the refuge system with $500,000.
    Other priorities include $1.6 million for refuge law enforcement, 
$2.0 million for Land Management Research Demonstration Units, $1.0 
million for environmental education, and $7.0 million for refuge 
specific priorities.
    On the maintenance front, additional maintenance funding will 
upgrade the SAMMS module with $2.0 million.

Endangered Species
    The endangered species program is funded at $129.0 million, $3.0 
million above the 2003 request level. The program funding will support 
operations that enhance implementation of the Endangered Species Act, 
one of the nation's most significant environmental laws.
    An increase of $3.2 million is required to address the growing 
listing program litigation-driven workload. This additional funding is 
necessary to address listing actions required by court orders or 
settlement agreements.
    Additional high priority recovery actions, including immediate 
actions needed to stabilize critically imperiled species and actions 
that could lead to delisting nearly recovered species will be 
implemented nationwide with an additional $2.0 million. Potential 
actions include, for example, propagation and habitat restoration for 
aquatic species in the Southern Appalachians and Lower Tennessee 
Cumberland ecosystems, a region containing the highest diversity of 
freshwater fishes and snails in the United States and the highest 
diversity of freshwater mussels and crayfishes in the world.

Other Operations Increases
    A $3.0 million increase for the Joint Venture program will provide 
a total of $10.4 million for the program, in line with target levels. 
As of December 2002, Plan partners have contributed approximately $1.5 
billion to protect, restore, or enhance almost 5 million acres of U.S. 
wetlands, grasslands, forests, and riparian habitat, more than one-
third of the 16 million acres of U.S. habitat objectives under the 
Plan.
    Our law enforcement program will hire nine additional wildlife 
inspectors with an additional $1.0 million to interdict and deter the 
illegal trade in protecting species thus sustaining biological 
communities. In addition, manatee protection efforts will be 
accelerated in Florida by protecting manatees from boat strikes and 
enforcing speed zones in refuges and sanctuary areas with a $500,000 
increase.

Easements and Land Acquisition
    The President's budget request reduces our traditional land 
acquisition program by $29.6 million to a $40.7 million level to fund 
high-priority conservation easements or acquisition of land from 
willing sellers. For comparative purposes, the account is funded at 
$32.2 million below the recently signed 2003 Omnibus spending bill. 
Highlights include $5.0 million for conservation easements on the 
Quinault Indian Reservation in Washington State and $5.0 million for 
the Baca Ranch in Colorado.

Construction
    The Construction account totals $35.4 million, roughly equal with 
last year's request. This request level will fund 19 dam safety, road 
and bridge safety, and other priority projects at national wildlife 
refuges, fish hatcheries, and law enforcement facilities. Highlights 
include replacement of the Great Lakes fish stocking vessel M/V Togue, 
replacement of the office building at Cabo Rojo NWR in Puerto Rico, and 
$1.0 million to begin an aircraft replacement program to support 
important migratory bird surveys important to setting hunting 
regulations.

Grant Programs
    We will continue conservation efforts through cooperation, 
consultation and communication with all stakeholders including States, 
the District of Columbia, Territories and Tribes. The President's 2004 
budget continues to support active participation on the part of the 
States and other partners in resource conservation efforts. To this 
end, the budget provides $247.0 million for five Service grant programs 
that facilitate State and local conservation efforts.
    Recognizing the opportunities for conservation of endangered and 
threatened species through partnerships with private landowners, the 
budget includes $50.0 million to continue the Landowner Incentive and 
Private Stewardship programs.
    We are requesting $86.6 million for the Cooperative Endangered 
Species Conservation Fund, $2.3 million below the 2003 request level, 
and $6.1 million above the 2003 Omnibus spending bill. The proposed 
funding level would provide $50.0 million to support Habitat 
Conservation Plan Land Acquisition; $17.8 million for Recovery Land 
Acquisition grants to help implement approved species recovery plans; 
$7.5 million for traditional grants to states; and $8.9 million for HCP 
planning assistance to states.
    The budget includes $60.0 million (including a $5 million tribal 
set-aside) for State and Tribal Wildlife Grants, roughly level with the 
Fiscal Year 2003 request level, and $4.6 million below the 2003 Omnibus 
spending bill.
    A $50.0 million request for the North American Wetlands 
Conservation Fund includes an increase of $6.0 million above the 2003 
request level, and $11.3 million above the 2003 Omnibus spending bill. 
This Fund protects and restores wetland ecosystems that serve as 
habitat and resting areas for migratory game and non-game birds, and 
supports non-regulatory private-public investments in the U.S., Canada, 
and Mexico.

International Conservation
    $7.0 million is available for the Multinational Species 
Conservation Fund, $2.0 million above the 2003 requested level.
Conclusion
    Thank you very much. We appreciate the Committee's past support, 
and look forward to working with the Committee in the future.
                                 ______
                                 
    Mr. Gilchrest. Mike, I think what we'll do, we may turn the 
lights on. We have got a few members now. What we will do is we 
will use the lights as we go through the questioning and we 
will come around for a second or third time to do that.
    Admiral, you mentioned a number of interesting items here 
and I would just ask, could you tell us a little more about 
this emergency radio system that sounds like it can be 
purchased in a store, Radio Shack? It is not a radio, but tell 
us a little bit. Does it come on when there is an emergency? 
Can you purchase something like this at Radio Shack? Do you 
have to buy a subscription? How does that work?
    Admiral Lautenbacher. It is very easy. It is a very easy, 
simple system. It is commercially produced by a number of 
manufacturers. A couple that come to mind are Midland Radios 
and Radio Shack.
    Mr. Gilchrest. Is this going to be a regular radio, or is 
this something separate?
    Admiral Lautenbacher. It is separate from a radio. It has 
the frequencies in it that receive broadcasts from the NOAA 
weather transmitters, radio transmitters which are populated 
all around the country. Obviously, it is most popular in the 
areas, seacoast areas as well as tornado-prone areas. So folks 
in the Midwest know a lot about this and some of our folks 
along the coast do, as well, because they use the NOAA 
broadcasts.
    But the idea is that as long as you have it plugged in, and 
they come in battery sets, too, so you can have portable ones, 
any time it gets a signal, a danger signal or a warning signal, 
it is going to alarm. It is going to set off a noise, and you 
can program the noise in some cases so it is a pleasant noise. 
But, in other words, it is an alarm that tells you you had 
better pay attention. Something serious is about to happen. It 
has been used very successfully for tornadoes and 
thunderstorms.
    Mr. Gilchrest. So at that point, this little device will 
send a signal, but there is no voice communication in it?
    Admiral Lautenbacher. Well, there is voice. It can be voice 
and also some of them have digital readouts.
    Mr. Gilchrest. Oh, I see.
    Admiral Lautenbacher. So there is voice and digital 
readout. It depends on the brand you buy or what your 
preference is, what would you like to have in terms of--
    Mr. Gilchrest. So it would be some form of communication 
that is specific to the occurrence?
    Admiral Lautenbacher. That is right, and it comes through 
the NOAA weather--from our weather forecast centers that have 
access to the transmitters that are located around the country. 
We have had a voluntary program over the years where citizen 
groups have bought these transmitters and put them in towns, 
and now we are up to the point where it covers about 95 percent 
of the country. So it is broad coverage.
    It is automatic warning, and this initiative that is in our 
budget would automate the system for emergency managers, all 
the county emergency managers now. You would build firewalls 
and codes in there, PIN numbers, whatever, so they can get into 
it, and within 2 minutes, you could get from the time that the 
emergency managers decide that you have to evacuate something 
or warn the public about a fire or a chemical spill or a 
terrorist attack, as well as a thunderstorm and--
    Mr. Gilchrest. Well, that sounds good.
    Admiral Lautenbacher. And they are going to put it on 
television this summer. The Thompson-RCA group will be coming 
out with, and I don't want to scoop them, but they will have a 
similar band width on a television set for you.
    Mr. Gilchrest. Well, you are going to have six Members of 
Congress sending out a press release on that scoop this 
afternoon.
    Admiral Lautenbacher. Yes, sir. I will be glad to provide 
more information for you.
    Mr. Gilchrest. You mentioned in the series of things that 
are funded ecosystem forecasting and management. What is that?
    Admiral Lautenbacher. This is a way to look at the NOAA 
budget. NOAA has always been considered five stovepipes, and 
you indicate that, as well, wet and dry, because those are our 
stovepipes, sort of fall in a wet and dry area.
    When you look at the issues that our country faces in terms 
of environmental monitoring and ecosystem management 
forecasting, they really cut across all of our branches. It 
takes all of them working together. So ecosystem forecasting 
and management is an attempt to get out of this managing 
fisheries species by species, looking at National Marine 
Sanctuaries just as a park and not part of a big system, 
looking at various pieces of habitat restoration in abstract 
from what they really do, which is build life in a water column 
and support the nurseries of our coastal and our sea systems.
    So the object is to look at the programs with a mission 
output, and that mission output, in our view, should be going 
toward an ecosystem approach. We can't even define it very well 
today, so I am not going to sit here and pretend that I know 
exactly what it means.
    Mr. Gilchrest. So you look at NOAA's resources--
    Admiral Lautenbacher. Right.
    Mr. Gilchrest. --what NOAA's fundamental job is, and blend 
or understand that the climate, the ocean, the fisheries--
    Admiral Lautenbacher. They all work together.
    Mr. Gilchrest. --they all work together as a very complex 
system and how to collaborate and use that concept of 
conciliance in that whole flow.
    Admiral Lautenbacher. And to put the pieces together so 
that when we have little pieces of our budget and you say, why 
are we spending money here, why aren't we spending it there, I 
have an answer to you that says, the reason is because it 
supports an outcome on the basis of a system management 
principle so that we can have a better dialog between what the 
priorities ought to be and so that I can judge--not I, but the 
whole administration can judge better where the money ought to 
be in a systems context than just saying, well, it all belongs 
in fisheries, it all belongs in NOS, it all belongs in weather 
or in weather service. It actually is supporting a much bigger 
mission.
    This budget was developed in terms of those six cross-
cutting strategies which I invented when I came into the agency 
last year. This year, we have a formal strategic planning 
process that's gone into place and there are four themes. You 
will see the Fiscal Year 2005 budget. By the way, one of them 
is ecosystem management, so that is still a prime principal and 
that was gained with having workshops around the country from 
stakeholders, employees, other scientists, academia, staff 
members and Congress were involved in building the strategic 
plan. We hope we have a better basis on which to come to you 
and explain why we do what we do.
    Mr. Gilchrest. Thank you. My time is up. I will yield to 
Mr. Pallone.
    Mr. Pallone. Thank you, and again, I have to apologize for 
my voice or lack of voice, I guess I should say.
    Admiral, several of our Democratic members from the San 
Francisco Bay area, including our Democratic leader, Mrs. 
Pelosi, Congresswoman Eshoo, and Congresswoman Wolsey also have 
expressed concern about the reassignment of the sanctuary 
manager at the Gulf of the Farallons National Marine Sanctuary 
and the Cordell Bank National Marine Sanctuary. It is a 
gentleman named Ed Ueber, I guess, who has been transferred to 
NOAA's headquarters in Silver Spring to work on special 
projects, and I guess he has been the manager of these two 
sanctuaries since their designations in 1981 and 1989, 
respectively, and he worked very hard to build strong 
protection of the resources within those sanctuaries.
    I guess the problem is that NOAA is currently initiating 
management plan review processes for all four California 
sanctuaries--the other two are Monterey Bay and Channel 
Islands--and NOAA has decided to combine three of these mid-
coast sanctuaries into one process, leaving Channel Islands to 
be considered separately. Many of the environmental advocates 
there are concerned that this could result in a weakening of 
the sanctuary regulations for Ueber's sanctuary in the name of 
harmonization with the Monterey Bay regulations, which are, I 
guess, a lot less stringent.
    We have got a number of NGO's and other Federal and State 
officials and industry groups that strongly support Ueber and 
are urging NOAA to transfer him back to his original duties.
    I know you sent a letter to Mrs. Pelosi just recently, 2 
days ago, but I have to be honest and say that, having looked 
at the letter, I don't really think it completely responded to 
those concerns and I was going to ask you if you would respond 
now, if you could give us some more information.
    Admiral Lautenbacher. I would be delighted to talk about 
it. First of all, in terms of--no decisions have been made in 
terms of combining any of the marine sanctuaries. Each of them 
is undergoing the normal 5-year review process, and since they 
were sort of close--they were formulated close to about the 
same time, it was felt reasonable--this process started before 
I ever showed up on the scene--was to do the management plan 
reviews simultaneously because they are connected. There are 
boundaries that make sense, or boundaries that--maybe the 
boundaries don't make sense in terms of an ecosystem approach.
    But anyway, the management reviews went forward 
simultaneously in each of these groups. Of course, one of the 
options could be to make one larger sanctuary. That is not a 
decision that has been made nor are we anywhere near doing 
that. These management plan reviews are going on in accordance 
with the law and there is no--I have asked that--I have been 
out there and talked to some of the constituent groups and I 
have asked that everybody be involved. This is a public 
process. It is designed to serve the citizens of the region as 
well as the United States, and so there is no indication here 
that we are trying to do anything that is against what the 
local organizations, constituencies, and support groups want to 
do.
    Regarding the individual in question, there is not--the 
issue is not anybody--nobody is trying to knock down any of the 
protections. The issue is some internal management, and so--and 
I don't want to compromise any internal investigation that is 
going on because I do have a good deal of respect for the 
gentleman. This is not about protections. This is about 
responsible management of management functions. That is what 
this is about. It is not about reducing the protections in the 
marine sanctuary or trying to undercut any of his programs that 
he has put in place or anything else.
    It is about responsible management, and so while that--I 
don't like to use the word ``investigation,'' but while we are 
looking at the situation out there, he has been temporarily 
relieved of those duties and it is in the hands of his 
assistant, who is very well qualified to carry out all of the 
programs and plans that he has put in place.
    Mr. Pallone. I guess my concern would be that, given that 
all this is happening in terms of this review, wouldn't it make 
sense, given Mr. Ueber's experience, that he be there when 
these things are happening?
    Admiral Lautenbacher. Not if he is doing things with--I 
don't want to get into an internal investigation, but, I mean, 
we are talking about his integrity and management, not the--we 
are talking his ability to handle money, people, issues like 
that. We are not talking about the substantive issues of the 
management plan review. And so if there is any question, we owe 
it to the taxpayers to ensure that our employees who are taking 
taxpayer money are acting at the highest level of ethics in 
terms of managing money and managing people and following the 
rules and laws of the land and I am responsible to try to make 
that happen. That is all we are talking about here. We are not 
talking about reducing any protections, changing any thrusts of 
the way environmental policies are going. We are talking about 
management, internal management issues and ethical 
responsibilities.
    Mr. Pallone. Thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Admiral. I alluded earlier to 
the Sea Grant program. Again, I am probably beating this to 
death, but I wanted to ask you, what was the total 
appropriations from last year for the Sea Grant program? I 
notice that for Fiscal Year 2004, it is proposed at $57.4 
million.
    Admiral Lautenbacher. It is proposed in Fiscal Year 2004 at 
$57 million.
    Mr. Faleomavaega. What was it last year?
    Admiral Lautenbacher. It was proposed in the NSF budget at 
$57 million. Now, it was enacted at supposedly $62 million, but 
they said use the unobligated balances, which we don't have, so 
it is really a $60 million program that Congress left us with 
for 2003. So there is a $3 million difference between the bill 
that--by the way, we just got that bill just a month or so ago 
at the $60 million level.
    Why is it at $57 million? It is at $57 million because that 
was the level the Administration had submitted for 2003. At the 
time that I had to build the Fiscal Year 2004 budget and make a 
strong representation that I felt Sea Grant could be--the 
Administration would be best served by having Sea Grant within 
NOAA, that was the level at which the Administration had agreed 
to fund it in 2003, and, therefore, it stayed at that level.
    I am a strong supporter of the program, as you know. I 
believe, as you have said, that it belongs in NOAA. The 
Administration agrees it belongs in NOAA and we will continue 
to work hard to provide the proper resources for it.
    Mr. Faleomavaega. I will have some more questions later, 
Mr. Chairman. Thank you.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    Mr. Ortiz?
    Mr. Ortiz. Thank you, Mr. Chairman. I know that you are key 
players in the different natures that we talk about and my 
shrimpers have told me that this devised new regulation will 
cost anywhere between $2,000 to $3,000. Do you have any idea as 
to what the real price will be?
    Admiral Lautenbacher. My folks tell me that it depends on 
how many they have to--how big their nets are and that sort of 
thing, but that is about $200 per one of the TED, or the turtle 
excluder devices. So it depends on how big the net is and it 
also depends on how many times they turn their net over in a 
season. I am told that some can use a net for an entire season, 
and some groups, because of wear and tear, it takes two or 
three replacements.
    So, theoretically, if you had large nets that had two or 
three of these in and so it was, say, $500 and you had three 
nets, used up three nets in a season, you would get up $1,500. 
I mean, it depends on the size of the boat and the amount of 
hard wear and tear that they put on the nets. But anywhere from 
a small boat for $200 with one net for the season to maybe 
$1,200 or $1,500.
    Mr. Ortiz. I doubt if you will find a boat that has only 
one net.
    Admiral Lautenbacher. Now, the issue is that they also are 
required to do this now, so it is not a new expense. It is a 
replacement expense. In other words, they have been buying 
these all along. These are not more expensive. This is a device 
which is about the same as the devices before. It is just that 
it turns out to be much more effective in terms of both shrimp 
and--catching shrimp and releasing turtles. It is a much better 
technical device.
    Mr. Ortiz. And this is through testing and they have been 
now that they are more effective? Who tested them?
    Admiral Lautenbacher. Our laboratories tested them and we 
have the data and we are delighted to meet with anybody you 
would like us to meet with. I have sent Bill Hogarth down. He 
has been down in Texas. He has been in Louisiana. He was in 
South Carolina this weekend and he is going to North Carolina 
next weekend to try to talk to everybody more about it.
    I am very sympathetic. I understand the state of the 
shrimping industry. It is exactly as you say. It is on the edge 
and it is competing with foreign imports, most of which, I 
might say, are aquaculture types of imports that are coming in 
now.
    It also is very--our economic analysis indicates it is very 
dependent on the cost of fuel at this point, that fuel is the 
largest single expense in operating a shrimp fleet, and you 
change a few pennies--they are so on the edge now in terms of 
profit margin that you change a couple of pennies fuel one way 
or another and you put people in trouble. I couldn't agree more 
with your analysis of the industry.
    Mr. Ortiz. Admiral, when you look at the fuel, the new 
regulations, new devices, and the liability, when I first came 
to Congress 21 years ago, we had one of the largest fleets of 
shrimp boats in my district. They have dwindled down to a few 
hundred. And then besides that, the dumping that takes effect, 
and those people from other countries don't have to contend 
with the regulations that we impose on our shrimpers.
    So I know you all have been very fair in the past. I am 
just hoping that maybe you can give us some idea as to how we 
can approach this, this serious problem, because these are 
Americans. They pay taxes, whether they buy gasoline, or 
anything they buy, anything they do, they pay taxes. But they 
are taking a beating, a serious beating to the point that we 
won't have an industry.
    Do you anticipate, now that these new regulations came 
about, do you anticipate any other regulations that are about 
to come out?
    Admiral Lautenbacher. I don't know of any other regulations 
in this regard that are to come out. By the way, I might say 
that this didn't happen overnight. We have been taking comments 
and talking to people for 2 years on it and have tried to--and 
we are still testing other devices that folks in Louisiana say 
will work just as well. As soon as we have the weather and some 
turtles around, we are going to test another device--I forget 
the name of the TED, but anyway, it is one that they 
particularly like there and we will test that.
    We have also delayed the regulations until August. We are 
doing everything that we can. But we know that if we don't have 
the regulations, that because of the environmental laws our 
country has, there is a chance that a court case could shut the 
industry down. We are looking for the right balance in 
maintaining environmental concerns as well as trying to keep 
the industry viable.
    As I said, Bill Hogarth is out talking to people on the 
last 4 weekends. We are still working hard to try to gain 
people's confidence--
    Mr. Ortiz. We appreciate that--
    Admiral Lautenbacher. We are doing the best we can for 
them.
    Mr. Ortiz. Just one last question. I won't take long. Are 
you considering any type of what economic impact it will have 
on those communities?
    Admiral Lautenbacher. Well, in terms of the--we don't 
believe that the turtle excluder device issue that we are 
talking about right now is a huge--we think it is a very, very 
small factor in the overall industry picture based on the 
comments that I made earlier.
    There may be other things to do to help these communities 
that are outside the purview of the NOAA and National Marine 
Fisheries organizations that could be used. For instance, we 
are prepared to issue grants immediately as soon as requests 
come in. The $17.5 million of aid that was appropriated in the 
final bill for Gulf shrimpers, we are ready to pass that money 
out. So we are doing everything we can to help.
    Mr. Ortiz. We thank you very much. All we want is fairness.
    Admiral Lautenbacher. Yes, sir.
    Mr. Ortiz. That is all we are asking for. We are not asking 
for a handout, just fairness.
    Admiral Lautenbacher. Understood.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Admiral Lautenbacher. Thank you.
    Mr. Gilchrest. Thank you, Mr. Ortiz.
    The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and to 
you, Admiral, and the other witnesses.
    I have noticed in the news recently that the National 
Weather Service will begin issuing 5-day hurricane forecasts 
this year, extending the 3-day forecasts that have been issued 
since 1964, so this is a change. As you know, Guam has 
considerable interest in accurate and timely weather 
forecasting, given our vulnerability to powerful typhoons. 
Could you provide me some clarification on your new 5-day 
hurricane forecast standard. Does it apply to the National 
Weather Service work in the Western Pacific, and if not, then 
what is your standard for forecasting storms in the Western 
Pacific, because we haven't had very accurate readings in the 
last two super typhoons that we have had.
    Admiral Lautenbacher. Yes, that is the new standard. We 
believe, after looking at the data, that given the improvements 
we were able to make technologically in forecasting, that we 
can produce a 5-day forecast which is as accurate as the 3-day 
forecast was 10 years ago, or something like that, which is--
while it is not perfect, it is a lot better than not having 
that kind of information earlier.
    As more and more people crowd into our coasts--more than 50 
percent of our folks live in coastal counties--emergency 
managers are begging for more time and more accuracy because it 
makes a big difference to saving lives and mitigation of 
economic damage, the sooner you can get warnings to people. So 
that is why we are pushing the state out to 5 days.
    We intend to hold to that standard everywhere. The 
forecasting in the Pacific, you are aware that Hurricane 
Squadron that used to be there isn't there--
    Ms. Bordallo. No longer there.
    Admiral Lautenbacher. --so it makes it harder for us to 
provide the kinds of advanced accuracy. So I can't sit here and 
tell you with all honesty that every hurricane, that it is 
covered well in the United States that we are going to be 
able--exactly the same accuracy is going to exist out in the 
Pacific with the system that we have today, but we do believe, 
given the--there will be differences, but we are getting better 
at it and we are going to try to make the forecast sooner 
advanced so that people have more warning.
    Ms. Bordallo. So the 5-day forecast will apply to the 
Western Pacific?
    Admiral Lautenbacher. Yes.
    Ms. Bordallo. Thank you.
    I have one other short question, Mr. Chairman. Is the Fish 
and Wildlife Service maintaining their effort to control for 
and mitigate against the brown tree snakes on Guam, and if 
possible, can you inform me of how much funding the 
Administration is proposing for this purpose in the Fiscal Year 
2004 budget, and how is the recovery program for endangered 
species on Guam coming along?
    Mr. Williams. We are continuing our efforts on the National 
Wildlife Refuge in Guam in terms of controlling brown tree 
snakes. The majority of the spending on brown tree snake 
control comes through the U.S. Geological Survey. Some years 
ago, the dollars for control flowed through the Fish and 
Wildlife Service, but again, some years ago, that money was 
redirected or reprogrammed and is now--those control efforts 
are primarily through the U.S. Geological Survey. But we do 
obviously work in cooperation with them and have efforts--
    Ms. Bordallo. So you are not aware, then, of what the 
budget contains?
    Mr. Williams. The last I knew, which was last year at this 
time, it was approximately $3 to $3.5 million. I believe that 
is correct. Steve Guertin, the Chief of our Budget office, says 
that is roughly what it is in USGS's budget this year, around 
$3 to $3.5 million.
    Ms. Bordallo. About the same amount.
    Mr. Williams. Yes, ma'am.
    Ms. Bordallo. All right. And what is the status of the 
critical habitat proposal for Guam? We had to delay this 
because of our last super typhoon and I just wondered about 
that.
    Mr. Williams. Apparently the comment period for that 
critical habitat designation has been reopened. I am not sure. 
We will get you an answer to that, whether that comment period 
is closed yet.
    Ms. Bordallo. We delayed it for some time because of our 
situation.
    Mr. Williams. Right.
    Ms. Bordallo. All right.
    Mr. Williams. We can provide you an answer.
    Ms. Bordallo. I would appreciate if you could send that to 
my office.
    Mr. Williams. We would be happy to do so.
    Ms. Bordallo. Thank you very much. Thank you, Mr. Chairman.
    Mr. Faleomavaega. Will the gentlewoman yield?
    Ms. Bordallo. Yes, of course.
    Mr. Faleomavaega. I just wanted to ask the Admiral, as a 
follow up question to Ms. Bordallo. Concerning weather 
forecasts, if the services that NOAA provides are also for the 
Federated States of Micronesia, the Marshalls and Palau. It is 
my understanding the Administration intends to take it out. Is 
there any information to that regard? What kind of a weather 
service system are we providing for these three entities, the 
FSM, Palau, as well as the Marshalls?
    Admiral Lautenbacher. We have money in our budget to 
continue providing support for the weather systems in the area 
that you have mentioned. There was, it is called the Pacific 
Island Compact, COFA, and the funding came through, I believe 
through Interior at one point, and now that the period of 
transition has ended, we have asked for the same amount of 
money in order to continue what we consider very vital 
services, both to gain the observing data as well as to provide 
the forecasting expertise to the Republic of Micronesia, 
Marshall Islands, Palau, et cetera. So we are very sensitive to 
that issue. We are asking Congress to support a continuation of 
those services.
    Mr. Faleomavaega. So basically the Interior Department 
provides the funding, but you provide the services?
    Admiral Lautenbacher. We are providing the funding this 
year.
    Mr. Faleomavaega. You are funding it, as well, but my 
question here is: has there been any decision to the effect 
that you intend to take out the servicing of weather forecasts 
for these three entities?
    Admiral Lautenbacher. No, sir.
    Mr. Faleomavaega. OK. Thank you, Mr. Chairman.
    Admiral Lautenbacher. No, there is not.
    Mr. Faleomavaega. Thank you, Admiral.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega and the 
gentlelady from Guam.
    We will start another round of questions. From Fish and 
Wildlife, Mr. Williams, can you tell us the current number of 
species listed under the Endangered Species Act?
    Mr. Williams. It is approximately 1,800.
    Mr. Gilchrest. Eighteen hundred. Can you send the 
Subcommittee the list? I am not sure if we have that, what they 
are.
    Mr. Williams. Yes, sir.
    Mr. Gilchrest. How many species are currently being 
reviewed for listing?
    Mr. Williams. Oh, boy. This will probably be pretty 
accurate. What I am going to quote here is some information on 
litigation that we are involved in on listing, and the reason I 
use this to respond to your question is that much, if not all, 
of our listing activity and critical habitat designation 
activity is driven by the courts, by litigation.
    As of March 17, we are involved in 31 active lawsuits on 
listing issues with respect to 32 species, including four 
lawsuits on petition findings for four species, four lawsuits 
regarding final determination for three species, eight lawsuits 
regarding critical habitat for 11 different species, and 17 
lawsuits regarding merits challenges on 19 species.
    Mr. Gilchrest. Let me ask you, since they are lawsuits and 
they go to court, and there are 31 or 32 lawsuits undergoing 
and various other ones dealing with species and critical 
habitat and so on and so forth, is it then the opinion of Fish 
and Wildlife that those lawsuits represent species or areas 
designated as critical habitat as not really necessary, that 
the species are not endangered, that the habitat is not 
critical?
    Mr. Williams. I don't think it is fair to characterize all 
of those lawsuits in that manner. There may be some that we 
wouldn't agree with.
    I think an important point to make is that although in the 
past, recent past, we have tried to put together a logical 
process to prioritize which species that we work on, and I will 
use this term, the avalanche of lawsuits that we are confronted 
with and a lawsuit saying that we couldn't prioritize 
necessarily on a biological basis, our workload, our listing 
workload is really driven by the court system.
    Mr. Gilchrest. I see.
    Mr. Williams. And some--well, it would be premature to 
judge whether some of these petitions to list are--
    Mr. Gilchrest. I guess there is not enough Fish and 
Wildlife personnel to be crawling all over the country to 
determine what 50-acre or 100-acre forest that has just been 
zoned residential, and somebody starts cutting the trees down 
to build a housing development, and then somebody says there is 
a Delmarva fox squirrel in there and then everything comes--and 
then Fish and Wildlife didn't stop that, and so a lawsuit 
develops.
    Given the problems that NMFS has with lawsuits, and given 
the problem that Fish and Wildlife has with lawsuits--of 
course, people filing those lawsuits would say that they are 
pushing the envelope or that they are just requiring the 
Federal Government to comply with the statute--and given the 
amount of money that is allocated from your meager budgets to 
deal with those issues, I think what we would like to do in 
this 108th session of Congress is to periodically get together 
and figure out how we cannot limit people's rights to file 
lawsuits, but create a policy that would so effectively deal 
with those issues that even the most ardent environmental group 
would see it unnecessary to file a lawsuit.
    We are not going to have an expanded budget. We are not 
going to have expanded personnel, and we may not probably be 
able to pay the people, Admiral Lautenbacher, what they are 
actually worth, but we don't want to lose them. So creating a 
policy that will more effectively deal with some of the 
problems that cause species to become endangered or fish stocks 
to plummet, I think would be a valuable use of our time.
    For example, what is a major cause for species decline? Is 
it habitat loss? Is it invasive species? What is causing that 
in the different areas and can that, then, be somehow corrected 
through Federal effort, through a voluntary program, Mr. 
Williams, like you have discussed with habitat restoration 
across the country, through voluntary efforts. So let us pool 
our meager resources with our unbounding intellect. I think we 
will prove to be successful, and it is your unbounding 
intellect that we are going to rely upon.
    [Laughter.]
    Mr. Gilchrest. Mr. Pallone?
    Mr. Pallone. I don't know if I want to follow that one, my 
unbounded intellect, Mr. Chairman. I don't know if I have that, 
but maybe the panel does.
    [Laughter.]
    Mr. Gilchrest. We would like you to bellow out your most 
passionate remarks, Mr. Pallone.
    Mr. Pallone. Thank you. I wanted to ask Mr. Williams about 
the Suarez circus polar bears. Last year, the Fish and Wildlife 
successfully secured the transfer of polar bears in the Puerto 
Rico-based Suarez Brothers Circus to more appropriate living 
conditions in the U.S. based on charges that their living 
conditions violated both the Marine Mammal Protection Act and 
the Animal Welfare Act, and the circus and the polar bears' 
trainers have since taken steps to contest the confiscation of 
the bears. They say they are ready to fight to get them back. 
There are even rumors that the circus has offered Fish and 
Wildlife Service a deal where they would donate money to the 
circus in exchange for the bears.
    Could you give the Subcommittee an update on the Suarez 
polar bear situation and comment on the validity of the 
suggestion to donate money to the circus in exchange for the 
bears' return, and also, what steps are being taken to ensure 
that the bears don't return to a circus?
    Mr. Williams. Thank you. As I am sure you are aware, the 
Service was involved in seizing those bears in conjunction with 
veterinarians and accredited zoos in the country, of bringing 
them back to the mainland. They are now in--they have been 
dispersed to three or four zoos.
    Mr. Pallone. One of them died, right?
    Mr. Williams. Unfortunately, one died in transport. The 
remaining bears are in three or four different zoos, accredited 
zoos, and obviously in much better living conditions than they 
were.
    I couldn't comment on--I don't think it would be 
appropriate to comment on any lawsuit that may have been filed 
against us. We don't normally make the kind of arrangements 
that you might have referred to, in terms of dollars for bears 
and so on. But I don't think I should go beyond that in terms 
of making any comments on the lawsuit.
    Mr. Pallone. Can I just ask you this. You are still opposed 
to their return to the circus, right? You are talking about any 
deal that might be made in the context of a lawsuit, but you 
are still opposed to their return, right?
    Mr. Williams. Well, certainly to their return to the kind 
of living conditions that they were found in, yes.
    Mr. Pallone. So it is possible that the Fish and Wildlife 
Service would return them if certain conditions were met?
    Mr. Williams. I am not saying that. That is conjecture. I 
put it this way. I don't see at this point any way that they 
would be returned. Now, the court system will do what the court 
system would, but that is certainly not our intention. Our 
intention was to bring them back and put them into more 
suitable living conditions.
    Mr. Pallone. Mr. Williams, I am not trying to be difficult. 
I appreciate your response. I think--could I ask this question. 
You don't want to comment on any potential deal because that 
would be something they would offer in the context of the 
lawsuit as a settlement. That is the reason you don't want to 
comment, essentially, that you can't because it would be in the 
context of the settlement and you don't really want to get into 
that, is that--
    Mr. Williams. I thank Marshall Jones for reminding me. 
There are also pending criminal charges involved and I don't 
want to comment on that case.
    Mr. Pallone. Well, I appreciate your saying that it is not 
your intention and you are not looking to return. Thank you.
    Mr. Chairman, I wanted to ask a couple questions as sort of 
a follow-up on your questions about the Endangered Species Act. 
I was glad to see that the President's budget recommended a 
modest increase for the listing account under the Endangered 
Species Act. However, my understanding is that the Fish and 
Wildlife Service currently has a backlog of more than 250 
species awaiting listing at a cost of more than $130 million, 
and to deal with this backlog, the Service needs about $25 
million per year over the next five or so years.
    So given this, Mr. Williams, can you explain why you are 
not requesting more money for listing under ESA and--well, why 
don't you answer that first, if you could.
    Mr. Williams. Sure. Well, as we put together the 2004 
budget, as any agency was involved in, we have to make some 
tough decisions on priorities, and knowing that budgets would 
be tight, looking at all the priorities of all the programs in 
the Service, the request of an additional $3.2 million is what 
we feel will be adequate to get us through Fiscal Year 2004 in 
terms of responding to existing court decisions, court 
deadlines, and settlement agreement deadlines. That is what we 
think we need to get through that and comply with court orders 
for the Fiscal Year 2004.
    Mr. Pallone. And that is for the listings, right?
    Mr. Williams. Yes, sir, and critical habitat designations.
    Mr. Pallone. I don't know if we will have a third round, 
but my time is done. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I don't know if 
Mr. Williams or our good friend, the Admiral, could respond to 
this. Probably many of my colleagues are not aware, Mr. 
Chairman, but the cleanest air is measured in my district. In 
fact, my district happens to have the cleanest air in all of 
America.
    Mr. Gilchrest. You know, I was at the South Pole about a 
month ago and they said the cleanest air was down there, so--
    Mr. Faleomavaega. No--
    Mr. Gilchrest. We will have to have a clean air contest.
    Mr. Faleomavaega. I think the South Pole is definitely not 
the answer, but my understanding is that the cleanest air 
measurement taken by NOAA is done in my district and I wanted 
to ask Mr. Williams and our good friend the Admiral, have any 
of you been there recently? We need a little renovation on this 
facility that we have in my district. Any--
    Admiral Lautenbacher. I have not been there yet. I would 
like to do that and I hope it will be on my list the next time 
I get to the Pacific.
    Mr. Faleomavaega. Please, Admiral.
    Admiral Lautenbacher. Thank you.
    Mr. Williams. And I would ditto the Admiral's comments.
    Mr. Faleomavaega. It is my understanding that the White 
House recently initiated an Oceans Commission, I guess for 
purposes of offering at a later point in time, at least quite 
soon, I understand, a report with a list of recommendations in 
terms of establishing an oceans policy. Is NOAA anticipating 
any major changes by way of our national policies toward what 
should be done as far as the oceans are concerned?
    I wanted to know and am curious if this budget proposal has 
any connection with what we may need to do as a nation as a 
matter of a national policy, if there may be changes, and I 
suspect there will be major changes made? I am just wondering 
if the Admiral could comment on that.
    Admiral Lautenbacher. I am very supportive of the concept 
and the purpose of the Oceans Commission. I have certainly been 
an advocate, saying it is a worthwhile endeavor to have 
citizens from our country sit down and talk about the oceans 
and the policies. I have supported it. We have testified before 
the Oceans Commission and I have allowed the rest of my 
organization to testify and answer their questions and we have 
provided whatever support they have asked for. So we have been 
engaged to the extent that we can, given that they are an 
independent body and working for the President and for 
Congress, for that matter.
    I do not have a good feel for what they will say in their 
report. As you are aware, they have delayed their final report 
until they can have another meeting in April and then they are 
going to decide when to get something out. But I am not 
expecting to see something--this is my speculation--until the 
end of the summer, early fall in terms of recommendations to 
look at.
    It will be difficult for me to project myself into their 
thinking, but listening to the deliberations, many of the 
members are very interested in ensuring that education about 
oceans, ocean literacy, ensuring the public knows what is going 
on, ensuring that we have a good research program, make sure it 
is connected to our operations. They are concerned about the 
NOAA organization.
    I have presented my reorganization plan that Congress 
approved and I am hoping that they will be supportive of the 
types of things we are doing to make NOAA more effective, and 
as I mentioned to the Chairman, the idea of looking at systems 
of systems and having a strategic management process to ensure 
that we do the right things with the money the taxpayers give 
us. So I am hoping that there will be some endorsements of 
things that we are doing at this point.
    Also, interagency activity. We have a National Oceans 
Research Leadership Council that is an interagency group to 
look at policies on a higher level. I think they are very 
interested in interagency mechanisms, and we may see some 
recommendations in that area.
    So those are the things I am looking for. I don't have a 
crystal ball as to exactly what they will say, though.
    Mr. Faleomavaega. I am not going to get into always the 
constant problems we have when a fish becomes the property of 
the Department of Commerce and becomes the Department of 
Agriculture. I have a very serious concern with the problems 
that we have with our fisheries programs. To the extent that I, 
at least in my understanding, if NOAA is part of that 
responsibility, we look at fisheries as a matter of 
conservation, environmental considerations, but then fisheries 
also as a matter of commercial need for the livelihood of those 
who participate in this very important industry.
    My district happens to be one of those that is totally 
dependent on the question of where fisheries come into play. I 
happen to have the largest tuna canning facility in the world, 
and in this process, in the problems with the free trade 
agreements, with the WTO and NAFTA, to the point now that the 
entire U.S. tuna fishing industry, the very existence is at 
stake to the extent that we have got these free trade 
agreements or countries are now asking for total free access of 
our markets to sell their canned tuna, but then right around 
they said, no, we have to pay 20 percent tariffs if we want to 
export our tuna to them. I find this very unfair.
    I do believe in fair trade, but it should be--I mean, I 
believe in free trade, but it should also be fair. There should 
be a sense of reciprocity so that our some 10,000 people whose 
livelihood depends on it, just as what my friend, Congressman 
Ortiz, has alluded to earlier about the problems now with the 
shrimp industry that has now gone to pot.
    I just wanted to ask if the Administration is committed to 
private sector development. To what extent are we then going to 
get into regulation and they say, you can't do this, you can't 
do that, but still allow foreign competition just to simply 
walk in the door and just say, come on in, we will buy your 
goods, supposedly as a benefit to the consumer but the death 
knell of people whose livelihood depends on it.
    And I wanted to ask on the issue of fisheries alone, and I 
don't know if these figures are accurate, Mr. Chairman, but a 
couple of years ago, we had to import $9 billion worth of fish 
from foreign countries because we don't produce enough of it 
domestically. My question is, why can't we produce fish 
domestically? I am not asking for $9 billion, maybe even $1 
billion, but we don't seem to have the policies and the laws 
such that some sense of protection is given to our fishing 
industry, the same way that we are protecting our farmers from 
going out of business. I don't call that competition. I call 
this a very, very unfair process.
    Mr. Gilchrest. Mr. Faleomavaega--
    Mr. Faleomavaega. I am sorry, my time is--
    Mr. Gilchrest. --we will come around for another round of 
questions.
    Mr. Faleomavaega. All right. Can you respond to that, 
Admiral? Is this administration really committed to private 
sector development as far as fisheries is concerned?
    Mr. Gilchrest. If I could just make a quick comment before 
the Admiral, you would probably need a half-a-dozen other 
Subcommittees to deal with the issues that you have just 
raised. I agree that we ought to just be able to do it in this 
Subcommittee, take all the jurisdiction from Ways and Means and 
Energy and Commerce and so on. But it is an issue that we will 
look at and I would like to sit down and talk to you, Mr. 
Faleomavaega, about all of those issues.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I will withdraw 
my question--
    Mr. Gilchrest. I will let Admiral Lautenbacher respond to 
the area of jurisdiction that he has as Undersecretary of NOAA. 
But I would like to work with you on all those issues to ensure 
that we look at this issue in a very comprehensive way.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Admiral Lautenbacher. I don't want to take too long, but 
let me just say, we are in the Department of Commerce, so I do 
care about, even though it is not my portfolio, I am around the 
people who deal with these issues. As you are well aware, 
Secretary Evans has stated many times his desire to create more 
jobs and create a sound private economy in the United States. 
So we are very supportive of that.
    He has also been supportive of free trade, but I think in a 
sense of fair play, you can look at the work that has gone on 
with the steel industry and the lumber industry that is going 
on right now, trying to make it fair, exactly what you are 
talking about. So he has ruled on both sides of this issue to 
try to make it fair. He is not trying--we are not trying to 
create industries that put fair trade that puts our people out 
of business unfairly.
    In terms of the NOAA issue, what we do is try to go on the 
international level into these organizations and ensure that 
they are trying--that we get them to follow the same prudent 
rules of conservative management, of management of resources, 
that we do so that the playing field is level and they can't 
come in and rape and pillage areas with illegal fishing 
practices, unsound fishing practices, and then compete against 
us.
    I spend a great deal of time--we just sent the Deputy 
Administrator to Vietnam to work on a compact with Southeast 
Asia to prevent some of these practices that we feel that are 
against our interests and against the world's interests in 
conservation. So we are very sensitive to it and we are going 
to work hard to help you with those issues, sir.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    The gentlelady from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman. I was 
listening very attentively to my colleague here from American 
Samoa when he said that he had the cleanest air in all the 
world. I was always under the impression Guam and the Northern 
Marianas was the place that had the cleanest air, but we will 
share.
    [Laughter.]
    Ms. Bordallo. My question is, noting that the 
Administration's budget proposed $1.3 million to continue the 
comprehensive conservation plans for each wildlife refuge, as 
required by the National Wildlife Refuge System Improvement Act 
of 1997, can you give us an update on where the Service is in 
terms of completing these plans and how many plans do you 
expect to complete in Fiscal Year 2004, given this proposed 
funding.
    Mr. Williams. I can answer that in general. The specifics, 
again, I apologize, but I will make sure it gets to this 
Committee and your office.
    We continue our efforts to, and actually request some 
additional dollars to accelerate efforts to complete the 
comprehensive conservation plans. Normally, I think it is safe 
to say that we are working through half a dozen to a dozen a 
year, depending on the complexity. I believe we have 15 years 
from the enactment of the Improvement Act, 1997, to complete 
all those CCPs.
    What I would offer to do for you and for the Committee is 
provide you a status report on where we are and the plans for 
the future, if that is OK.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Thank you, the gentlelady from Guam.
    Mr. Williams, there is some--I am not familiar with this, 
but there is some issue apparently in Florida dealing with 
manatees. Could you tell us the status of the potential Section 
7 consultation which may be necessary in order to build a boat 
dock because of its impact on manatees and the biological 
studies that show that boat docks--I would say boat docks have 
an impact on everything, especially because of what is docked 
there and the movement of propellers--but the biological 
information that shows that boat docks, and then probably 
boats, have an impact on manatees.
    How many species of manatees are there? Is there one 
manatee or are there are a couple of different kinds of 
manatees, and are any manatees on the endangered species list?
    Mr. Williams. With your indulgence, Mr. Chairman, if I 
could ask Marshall Jones to address that question.
    Mr. Gilchrest. Yes, Mr. Jones, please.
    Mr. Jones. Mr. Chairman, we will start with your last 
question first because it is the easier one. There are--the 
West Indian manatee is the species that is listed that occurs 
in the United States.
    Mr. Gilchrest. Which manatee came up to the Chesapeake Bay 
a couple of years ago?
    Mr. Jones. That is that same.
    Mr. Gilchrest. And he is endangered? So he was looking for 
a new homeland, I guess.
    Mr. Jones. Well, he must like the Chesapeake Bay, Mr. 
Chairman.
    Mr. Gilchrest. Has he been back?
    Mr. Jones. He has been back several times--
    Mr. Gilchrest. Really?
    Mr. Jones. --although I don't know that he has been back in 
recent years.
    Mr. Gilchrest. He leaves, though, because it gets cold 
here, right?
    Mr. Jones. That is correct, and it is typical of some 
manatees every year that they leave Florida waters and go both 
West along the Gulf and North up the Atlantic, but that one 
obviously was very unusual. We knew about him because he was 
radio collared by the U.S. Geological Survey that monitored 
him, and he went back and forth more than once. Several years 
in a row, he did the same thing and found his way back to 
Florida again. So if you can call a manatee a snowbird, he is 
one.
    Mr. Gilchrest. So that particular species of manatee is on 
the endangered list?
    Mr. Jones. Correct, and Mr. Chairman, there are other 
manatees. They are all, I believe, considered to be endangered. 
There is a South American manatee, a different species. There 
is a West African manatee. And then there is the--
    Mr. Gilchrest. So the Florida manatees are on the 
endangered list?
    Mr. Jones. That is correct.
    Mr. Gilchrest. And what is the status of this proposed 
Section 7 consultation and what size dock, if any, does it 
affect, and are you looking to reduce the number of docks 
because that will reduce the number of motor boat interactions 
with the manatees? I guess the obvious question that the 
manatees are endangered is because there is--what is the 
obvious answer to the cause for the reduction of the population 
of manatees?
    Mr. Jones. Well, Mr. Chairman, we don't know all the 
factors, but collisions with boats clearly are a significant 
mortality factor for manatees. There may be habitat issues. 
They are subject to cold weather, and that is why they 
congregate at warm springs and now manmade warm water sources, 
like the outflows from power plants.
    We have had a manatee protection program for many years and 
I was personally involved in that years ago.
    Mr. Gilchrest. Is that effective?
    Mr. Jones. Well, we certainly believe that we have made 
some progress, and, in fact, statistics over the last few years 
have indicated that the manatee population actually was 
increasing. But the number of boat mortalities also have been 
increasing. There is some new data just recently received about 
manatee--done through manatee population modeling that we are 
still evaluating to see, is the increase in manatees as large 
as we thought it was or not.
    Mr. Gilchrest. I see. Is the specific reason--can you give 
us some of the biological--is it the boat dock that is causing 
the problem with the manatee or is it the boat?
    Mr. Jones. No, sir, it is not the dock.
    Mr. Gilchrest. But the potential for a Section 7--are you 
thinking about a Section 7 consultation to build a boat dock?
    Mr. Jones. That is correct. In fact--
    Mr. Gilchrest. What if you are going to build a boat dock 
for a canoe or a sailboat?
    Mr. Jones. It depends on where the dock is. But in general, 
Mr. Chairman, we and the State of Florida were each sued by 
Save the Manatee Club and environmental organizations--
    Mr. Gilchrest. I see.
    Mr. Jones. --and as a result of the settlement of that 
lawsuit, part of that settlement was we agreed for now, at 
least, that we will require a Section 7 consultation--
    Mr. Gilchrest. I see.
    Mr. Jones. --for every proposed new boat dock if it is in 
an area that may affect manatees.
    Mr. Gilchrest. I see. OK.
    Mr. Jones. Obviously, it is the boats, not the docks, but 
it is the docks that--the number of docks directly correlated 
to the number of boats operating in any area.
    Mr. Gilchrest. I will just conclude with this. This is 
probably an unlikely solution for the protection of manatees, 
but the Great Barrier Reef off the northern coast of Australia, 
when they went in to plan that in a similar way that the 
planning went into sanctuaries in Key West and other areas, 
they looked at the whole ecosystem from the land out to where 
different species would roam, and in creating a management 
program for the Great Barrier Reef for commercial traffic, for 
commercial fishing, recreational fishing, tourists, you name 
it, they created a blue highway where they knew species 
wandered and migrated and spawned and that blue highway, which 
was an understanding of the habitat necessary for the life 
cycle of these species, was in some instances declared off 
limits to certain types of boating traffic, certain types of 
activity. And while it was controversial in the beginning, it 
gradually became a very effective tool so humans could recreate 
over here and the natural species could live over there.
    I was going to make a comment also to Fish and Wildlife 
about the main reason for species becoming listed, habitat loss 
and invasive species, and it used to be a whole host of other 
things, from hunting to toxic chemicals. But when you think 
about these habitat areas, and I am not going to ask you to 
answer this now because I would like to have a continued 
conversation, I guess you probably think about corridors 
covering large areas, both for animal species and for plant 
species, where those are the corridors for the wildlife, and 
outside those corridors, then, you can put your shopping 
plazas, sort of balance the activity between what is necessary 
in the natural world--I guess, actually, we are a part of the 
natural world, but what is necessary for us.
    But I will stop now and look forward to working with you 
over the next couple of years. We have a number of questions to 
submit to you, but I think maybe we can have breakfast and go 
over those questions rather than have your staff do it, because 
it takes a long time to be reviewed by everybody in your 
agencies and we don't seem to ever get those answers back. So 
maybe if we could have breakfast or dinner at the Chinese 
restaurant up here, we could get to the bottom of these things.
    I will yield to Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I just wanted to ask 
Mr. Williams one question, and I had a couple for Admiral 
Lautenbacher.
    With regard to endangered species again, Mr. Williams, on 
the recovery aspect, there are more than 200 currently listed 
species that are in serious danger of extinction in the next 
several years, in large part due to lack of funding for 
recovery activities. So again, would you explain why you are 
not requesting more funding for recovery, and maybe you can 
provide the Subcommittee with a list of these species.
    Mr. Williams. We certainly, to answer your last question, 
we certainly will do that and can do that.
    The request, it kind of reminds me of Admiral 
Lautenbacher's response to one of his previous questions, and 
we are in a similar situation. Our request for recovery dollars 
was actually above the President's request, 2003 request. When 
the 2003 enacted budget came out, it actually looks like a 
decrease. So as we were putting our budget together prior to, 
obviously, prior to knowledge of what was going to be enacted, 
we did focus some additional dollars there for recovery 
efforts.
    Mr. Pallone. OK. With regard to NOAA, Admiral, we 
understand that NOAA has a lot of missions, but I am troubled 
that NOAA has been cut, or I should say the National Oceans 
Service has been cut by nearly $84 million below last year's 
appropriation. Key conservation programs such as coral reefs, 
coastal zone management grants, non-point source pollution, 
coastal ocean science, national estuary and research reserves, 
and marine protected areas have been level funded or cut 
compared to Fiscal Year 2003. Can you please explain again the 
Administration's rationale for this deemphasis which is 
demonstrated by these cuts in the National Ocean Service?
    Admiral Lautenbacher. The issue is the same thing that Mr. 
Williams just mentioned. When we build our budget, 
unfortunately, it is built on the last year's Presidential 
request because--actually, I am trying to build right now a 
Fiscal Year 2005 budget, not knowing what is going to happen in 
2004. So we have a delicate tightrope to see how can we 
allocate resources, balance them against the priorities that 
Congress has suggested and the priorities that the 
Administration has pushed forward the year before.
    And so there are areas in NOS where we have asked for more 
money, but they do, in fact, look like a decrease because there 
was more money added from the Congressional bill. But there are 
areas in NOS where we are, in fact, absolutely higher in 
dollars. I will give you the charting example. My original 
testimony to you was going to say that we asked for, I think, a 
$2 million--$2-point-something million increase for charting, 
and it turned out that after the bill is over, I can come to 
you and say we are asking for $7 million--
    Mr. Pallone. OK.
    Admiral Lautenbacher. --because we had $5 million--this is 
an example where we had some money cut in the bill. We have 
this unfortunate timing issue--
    Mr. Pallone. I understand.
    Admiral Lautenbacher. --and I would like to get this closer 
together. I have made suggestions--
    Mr. Pallone. Maybe look at it again in the context of 
appropriations.
    Admiral Lautenbacher. But we are absolutely committed. 
There is a long list of needs. I think we all agree on national 
needs in the Ocean Service and our wet side that I would 
certainly love to be able to put more money against, and I am 
always working hard to try to get funding to meet the needs of 
the country.
    Mr. Pallone. Let me ask you about the non-point source 
pollution program, because you asked for $10 million to 
implement that. But I wanted to say, what administrative 
actions is NOAA presently considering to address those States 
failing to develop Federally approved non-point source 
pollution plans pursuant to Section 217 of the CZMA? There was 
talk about penalties a few months ago, and I just wondered if 
you could answer that.
    Admiral Lautenbacher. Well, we have been working hard to 
try to get all the States qualified with qualified plans so 
that penalties will not be necessary. We at one point used to 
have sort of one-third/one-third/one-third, one-third 
completely certified, one-third provisionally certified, and 
another third working. We now have almost two-thirds that are--
well, one-third completely certified, but 21 States that are 
now close to being fully certified. We believe by the end of 
this year we can get another nine or ten fully certified.
    So we are hoping that through concerted action, there will 
be a smaller pool of States that would be subject to penalties, 
and we are also working with EPA, who has a larger share, you 
might say, of the resources to put against this problem to try 
to encourage States and the local authorities to provide the 
last bits and pieces they need to do this. I would prefer not 
to provide a penalty, but I obviously have to live with the 
law. But we are trying to work hard not to have to go to a 
penalty phase.
    Mr. Pallone. OK, thank you. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Mr. Faleomavaega, any further questions?
    Mr. Faleomavaega. Mr. Chairman, just an observation. I 
thank Admiral Lautenbacher and Mr. Williams for their testimony 
this afternoon. But my observation, Mr. Chairman, I may be 
wrong, but the eve of the situation that we do not yet know in 
terms of the war that is now pending, it seems that all the 
numbers are going to have to be readjusted down the line 
somewhere, the entire national budget. I may be wrong in this, 
and this, I suspect, will also have a definite impact on the 
proposed budget for NOAA as well as with the national 
fisheries. Just an observation, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega. We feel your 
apprehension on that one.
    Admiral Lautenbacher, Mr. Williams and Mr. Jones, thank you 
so much for your testimony this afternoon. We do have a number 
of other questions, but we won't bring you in here for another 
hearing for several weeks, anyway, I guess. But at some point 
in the next month or so, maybe we can meet for breakfast or 
lunch or dinner and any member of the Subcommittee that would 
want to come by for an informal chat about these issues, I 
think that would be mutually beneficial.
    We can make it unanimous consent that the record remain 
open for 20 days. This hearing is adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

    [Responses to questions submitted for the record by the 
U.S. Fish and Wildlife Service follow:]

    Answers to questions submitted by the Subcommittee on Fisheries 
                   Conservation, Wildlife and Oceans

    1. What is the current number of species listed under the 
Endangered Species Act? What is the number of candidate species?
    There are 1262 domestic species on the list of threatened and 
endangered species: 1235 of them are U.S. Fish and Wildlife Service 
(Service) species. There are 257 candidate species.

    2. How many species are currently being reviewed for listing?
    There are 38 species proposed for listing. We have court orders to 
propose or complete petition findings on an additional 8 species. The 
Service is also continually evaluating its candidates and other species 
to determine if they warrant emergency listing.

    3. What is the value of critical habitat designation? How many 
acres have already been designated for listed species?
    Conservation of habitat is vitally important to successful recovery 
and delisting of species.
    However, as my predecessor, Director Jamie Clark, testified before 
the Senate Committee on Environment and Public Works on May 27, 1999, 
the designation of critical habitat under the provisions of the 
Endangered Species Act provides little additional protection to most 
listed species while consuming significant amounts of scarce 
conservation resources.
    We do not have a tally of acres of designated or proposed critical 
habitat because it involves more than just adding up all the proposed 
and designated acres. To obtain an accurate figure, we would need to 
take into account overlapping acres--both designated and proposed for 
designation, throughout the country.

    4. In Director Williams's testimony, he notes that $3.2 million is 
requested to deal with litigation driven listing decisions. How many 
court cases does this involve and how was this figure calculated?
    The Service has requested $12.3 million for the listing program for 
Fiscal Year 2004. This request is a $3.2 million increase over the 
Fiscal Year 2003 requested level--the largest increase ever requested 
for the listing program. This increase will go exclusively to court-
ordered critical habitat designations. The requested increase includes 
a total of $3,831,498 for critical habitat for already listed species. 
The increased funding will allow the Service to meet its anticipated 
court orders for the designation of critical habitat for already listed 
species. Other listing activities will be decreased by $645,498. This 
decrease is a result of the need to provide additional funding to make 
certain that the Service can meet all of its court-ordered deadlines 
for critical habitat for already listed species. The Service expects in 
Fiscal Year 2004 to work on complying with court orders and settlement 
agreements to designate critical habitat for 43 species and court 
ordered listing actions for 20 species.

    5. How many Safe Harbor Agreements are now in place? How many are 
anticipated in Fiscal Year 2004?
    There are currently 16 Safe Harbor Agreements in place. We 
anticipate permitting 12 Safe Harbor Agreements in Fiscal Year 2004.

    6. In terms of the Save the Manatee Club lawsuit, the Service 
intends to require a Section 7 consultation and a Biological Opinion 
for the construction of hundreds, perhaps thousands, of boat docks in 
the State of Florida? What is the estimate of the annual number of boat 
docks and what is the cost to implement this program?
    We are currently conducting consultations on all watercraft access 
activities that may affect manatees in peninsular Florida (coastline 
and navigable waterways of the State of Florida from the mouth of the 
St. Mary's River on the Atlantic Coast to the mouth of the Aucilla 
River on the Gulf of Mexico Coast) consistent with the regulations 
found in 50 C.F.R. Part 402. While we cannot predict the number of 
future activities, we believe it is likely to be similar to recent 
numbers. For example, during 2001, a total of 3,625 new boat slips 
(note that one dock may contain multiple slips) were permitted in 
Florida, and between January 2 and June 30, 2002, an additional 1,408 
boat slips were permitted; of these, an estimated 2,809 slips (56 
percent) were located in southwest Florida (USFWS, unpublished data). 
In addition, the Service reviews approximately 30 marine events (e.g., 
high speed races and parades and other events) annually in Florida in 
association with U.S. Coast Guard permits.
    Section 7 consultations for manatees are conducted through our Vero 
Beach and Jacksonville Field Offices. So far, for Fiscal Year 2003, the 
Service has allocated approximately $400,000 for these consultations.

    7. Could the Service provide the Subcommittee with a list of the 
literature and scientific analysis that justifies the conclusion that 
boat docks adversely affect the safety of manatees?
    Section 7 of the ESA imposes certain requirements on federal 
agencies. Federal agencies must consult on actions that they believe 
may affect listed species or designated critical habitat. During the 
section 7 consultation process, the federal agency must consider the 
manner in which the agency's action may affect any listed species or 
critical habitat and an analysis of any cumulative effects. The effects 
of the action include direct and indirect effects, together with the 
effects of other activities that are interdependent with that action. 
In National Wildlife Federation v. Coleman, 529 F.2d 359 (5th Cir.), 
cert. denied, 429 U.S. 979 (1976), the court ruled that indirect 
effects of development resulting from the proposed construction of 
highway interchanges had to be considered as impacts of a proposed 
federal highway project, even though the private development had not 
been planned at the time the highway project was proposed. Further, the 
Fifth Circuit's holding in Coleman was followed in the Tenth Circuit. 
Riverside Irrigation District v. Andrews, 758 F.2d 508 (10th Cir. 
1985). In that case, the court held that an indirect effect that was 
more than 100 miles from the project site had to be considered. Under 
section 7 of the ESA, indirect effects are those effects that are 
caused by the proposed action, are later in time, and are reasonably 
certain to occur throughout the life of the project.
    We completed our final EIS for a proposed rule to authorize 
incidental take of manatees from watercraft access and operation in 
Florida under the Marine Mammal Protection Act, and have attached a 
copy of the literature cited section for your reference. (See 
Attachment 1). A significant portion of the EIS is devoted to 
discussing the relationship between watercraft use and incidental take 
of manatees. Specifically, Ackerman et al. (1995) demonstrated that a 
positive correlation exists between watercraft use of Florida's 
waterways, access facilities, and watercraft-related incidental take. 
The evidence of watercraft-related incidental take of manatees is based 
on probabilities and trends and a thorough assessment of the action, 
the effects of the specific action on manatees, and any conservation 
measures that may minimize these effects. As the absolute number of 
access structures increase, so does the incidence (or probability) of 
the occurrence of watercraft related incidental take of manatees. 
Incidental take of manatees is reasonably certain to occur as 
additional watercraft access structures are added to Florida's 
waterways, if appropriate measures are not in place.
    Authorizing watercraft access activities (building of docks, 
marinas, boat ramps; conducting boat races; etc.) by Federal agencies 
in manatee-inhabited areas indirectly affects manatees by increasing 
the likelihood of manatee mortality, injury, or harassment resulting 
from interaction or collisions with boats associated with the permitted 
facility. For example, the Florida Marine Research Institute (FMRI) 
database now documents 1,184 living individuals scarred from collisions 
with boats. Most of these manatees (1,153, or 97 percent) have more 
than one scar pattern, indicating multiple strikes with boats. 
Carcasses examined at necropsy also bear healed scars of multiple past 
strikes by boats; one extreme case, recently noted by the FMRI, had 
evidence of more than 50 past boat collisions (O'Shea et al. 2001). 
Placement of boat access points has the potential to concentrate 
boating activities to that particular vicinity based on the use of the 
waterways. If this area is frequented by manatees, the likelihood of 
boat collisions with manatees is increased proportional to the number 
of boats using the area, given that the boats may be operated in a 
manner and at a speed that could result in collisions with manatees. 
(Ackerman et al. 1995) Simply put, more boats in areas used by manatees 
will increase the likelihood of boat strikes.

    8. What is the current number and acreage covered by Habitat 
Conservation Plans? What is the estimated cost to the Service and to 
the recipient for completing a HCP?
    As of March 31, 2003, we have issued permits for 416 Habitat 
Conservation Plans (HCP) affecting 38,388,495 acres.
    The estimated costs to the Service and the permit recipient of 
completing an HCP vary dramatically. The number of species that are 
covered by the permit, the size of the area covered, the number and 
range of stakeholders involved, the types of covered activities, and 
the necessary level of environmental documentation are all among the 
factors that affect the complexity of any HCP effort and its likely 
cost. We lack the information necessary to estimate the total costs of 
permit applicants in developing and finalizing an HCP; however, the 
grants we have awarded through our Cooperative Endangered Species 
Conservation Fund - HCP Planning Assistance Grants Program provide a 
rough idea of the scope and range of costs to permittees. In 2002, we 
awarded 24 HCP Planning Assistance Grants, for an average grant amount 
of about $275,000; the range of awards was from a low of $60,000 to a 
high of $1,066,505. These amounts underestimate the total costs to the 
permit applicants, both because of section 6's cost-share requirements 
and because many permit applicants have already undertaken significant 
work towards the HCP before applying for a Planning Assistance Grants.
    We also do not have the information needed to estimate the costs to 
the Service of completing a typical HCP. For the same reasons described 
above for applicants, each HCP varies, and the Service's workload for 
each also varies significantly. Moreover, we do not allocate funds on 
an HCP-by-HCP basis, and as of yet we have not tracked expenditures on 
each particular HCP; without this information, we cannot provide an 
accurate estimate.

    9. How many species are now covered by recovery plans? How many 
species have been declared recovered? What is the estimated cost to 
recover all of the domestic species currently listed in the United 
States?
    Of the 1,254 U.S. species listed at the end of Fiscal Year 2002, 
1,000 species (80 percent) are covered by an approved recovery plan. 
Over the years, 11 U.S. species have been delisted because they are 
considered recovered. These are the Aleutian Canada goose, the American 
alligator, the American peregrine falcon, the Arctic peregrine falcon, 
the east coast population of the brown pelican, the gray whale, the 
Palau fantail flycatcher, the Palau ground dove, the Palau owl, Robbins 
cinquefoil, and the Rydberg milkvetch. Several more species have 
achieved their recovery goals, and the Service is preparing proposed or 
final rules to delist them. Additional species have improved in status 
to the point of nearly meeting their delisting criteria. In our 
assessments conducted to prepare the Fiscal Year 2002 Recovery Report 
to Congress, a report on the status of U.S. species listed as 
threatened or endangered under the ESA, the Service considered 314 (25 
percent) of the 1,254 listed species to be stable or improving in 
status since 1996.
    Recovery plans include an estimate of the costs to recover the 
species. However, we have not compiled this information into a single 
estimate of the costs to recover all species. Also, because some 
recovery plans were developed many years ago, the figures may no longer 
be reasonable estimates of the costs to recover the species. The 
Service has begun development of a database to identify recovery tasks 
identified in recovery plans and to track their implementation. The 
database will include cost estimates and other useful information. In 
addition, the Service is beginning development of guidance on the 
estimation of recovery costs to improve the quality and consistency of 
these estimates. We will provide this information to the Committee once 
it is completed.
    The Service has also not calculated how much it would cost to 
recover all of the domestic species currently listed in the U.S. The 
scientific community has studied the cost of recovery in more detail. 
For instance, a paper published in Bioscience (The Endangered Species 
Act: Dollars and Sense? Miller et. al., February 2002) suggests that an 
increase of $300 million per year above current spending would result 
in improved levels of recovery for many more species. The Service 
neither supports nor refutes this estimate. The Service's Fiscal Year 
2004 budget request includes $62 million to be used for funding the 
highest priority recovery actions.

    10. What is the current number of priority projects listed in the 
capital and equipment maintenance backlog? What is the total dollar 
amount of the maintenance backlog?
    The National Wildlife Refuge System's (NWRS) Condition Assessment 
Program was established in Fiscal Year 2001 to systematically assess 
the condition of refuge system's real property. The condition of all 
NWRS property with replacement costs at more than $50,000 will be 
assessed every 5 years. Refuge system maintenance databases have been 
modified to meet Department of the Interior (Department) standards and 
data requirements for property condition assessments. The 5-year 
program to complete comprehensive conditions assessments for all field 
stations is presently on target. To date, 40 percent of all facilities 
have had comprehensive condition assessments completed through the 
field inspection stage. Facility Condition Index (FCI), which is the 
ratio of deferred maintenance needs to replacement costs will 
ultimately be used to rank and verify facility maintenance needs at 
field stations and provides information for strategic Departmental 
planning within the NWRS.
    There are 9,159 projects identified and included in the Service 
Assets Maintenance Management System (SAMMS) that may be funded through 
deferred maintenance: 8,396 projects have deferred maintenance 
components; 863 projects suitable from funding from the Construction 
budget have deferred maintenance components. Comprehensive Condition 
Assessments are still underway to evaluate all field facilities. As 
noted above, these assessments require 5 years to fully complete and 
are currently in their third year.
    The Refuge System has a diverse equipment fleet that includes about 
4,000 transportation vehicles and about 4,000 items of agricultural and 
construction equipment. Since equipment repair and replacement is not 
considered deferred maintenance, there is no backlog figure available 
for equipment.
    The Service regularly produces deferred maintenance and 
construction plans to ensure that the highest priority projects are 
funded each year.
    The Service's Fiscal Year 2004 budget request includes $75 million 
for deferred maintenance, including $7 million for heavy equipment 
replacement, and $13 million for refuge construction for the highest 
priority needs.

    11. How much has the Bush Administration requested for refuge 
maintenance funds in the past three years? How does this compare with 
the prior four years and eight years of the Clinton Administration?
    Refuge Maintenance budget history for the requested time period is 
displayed in the table below:

[GRAPHIC] [TIFF OMITTED] T5772.001


    12. How large is the invasive species problem in the National 
Wildlife Refuge System? What are the top five invasive species that you 
must confront?
    A formal survey of managers, administrators and biologists on 
National Wildlife Refuges led by researchers at Colorado State 
University, determined that 80 percent of the refuges have identified 
invasive species problems. The problems are caused by more than 670 
nonnative plant species, non-indigenous animals and emerging diseases. 
Management actions to control invasive species have been taken on over 
300 separate refuges and we have identified other invasive species 
projects that exceed $150 million within the NWRS. The magnitude of the 
problem varies from site to site, but in all cases refuge-managed 
natural resources are being adversely affected.
    Since different geographical regions are affected by different 
species it is extremely difficult to determine the ``top five'' 
invasive species affecting National Wildlife Refuges. Among the most 
insidious plant invaders on refuges are salt cedar, leafy spurge, 
perennial pepperweed, Canada thistle, Brazilian pepper tree, purple 
loosestrife, Australian pine, Chinese tallow trees, old world climbing 
fern, and melaleuca. Exotic/nonindigenous animals affecting refuge 
resources include tilapia, Norway rats, Asian carp, nutria, Asian swamp 
eels, brown tree snake, feral goats, and wild pigs. In addition, 
diseases such as the West Nile Virus have created a threat to wildlife 
as well as human health. Many of the species that are creating problems 
on refuges have also been identified by other agencies as issues that 
need to be addressed. The multi-agency National Invasive Species 
Council has identified salt cedar, leafy spurge and yellow star 
thistle, Asian carp, brown tree snake and emerald ash borer as some of 
the highest priority invasive species for all federal agencies. If 
required to identify only five of the species as our highest priorities 
for action, we would likely include salt cedar (Tamarisk), leafy 
spurge, melaleuca, perennial pepperweed and Canada thistle based on 
information regarding impacts to native species and their habitats and 
the magnitude of the problems caused by these species throughout the 
NWRS.

    13. How will the $800,000 request for nutria eradication in 
Maryland be spent?
    The Service will utilize the $ 800,000 in accordance with the 
Nutria Control Project Plans. The project is a partnership of 27 
federal, state, and private partners with a management team comprised 
of Maryland Cooperative Fish and Wildlife Research Unit (USGS), 
Maryland Department of Natural Resources, University of Maryland 
Eastern Shore (UMES), and the U.S. Fish and Wildlife Service 
(Blackwater NWR & the Chesapeake Bay Field Office). Funding will be 
dedicated exclusively to this pilot eradication effort and will fund 
the salaries of the 14 trappers, a trapper supervisor and technicians 
as appropriate, and the procurement of equipment necessary to 
accelerate and expand the eradication effort level of intensity and its 
geographical extent. Intensive harvest will continue at Blackwater NWR, 
Tudor Farms, and Fishing Bay State Wildlife Management Area. Expanded 
eradication efforts will focus on public and private lands where marsh 
restoration activities are being implemented by the Corps of Engineers.

[GRAPHIC] [TIFF OMITTED] T5772.002


    14. How many individuals now volunteer their time in the National 
Wildlife Refuge System? What is the dollar value of their labors?
    In Fiscal Year 2002, a total of 34,408 volunteers provided their 
time, talents and skills to the National Wildlife Refuge System. Their 
contributions are valued at $12.2 million.

    15. What is the Service proposing for the Midway Atoll National 
Wildlife Refuge in Fiscal Year 2004?
    The Fiscal Year 2004 President's Budget includes an increase of 
$1.0 million to address critical operations needs at Midway Atoll NWR, 
which would increase the base operations budget to $1.5 million. The 
Service's Five-Year Deferred Maintenance Plan also includes $460,000 in 
Fiscal Year 2004 to address critical health and safety deficiencies at 
Midway Atoll NWR.
    The requested increase will be directed towards the highest 
priority refuge operations and maintenance needs. Operations funding 
will provide fuel, transportation, equipment and supplies to support 
existing staff. It will also be used to address the highest priority 
refuge maintenance needs at Midway Atoll NWR.
    The $3.5 million provided in the Fiscal Year 2003 Transportation 
bill (P.L. 108-7) will be used to cover Fiscal Year 2003 airfield and 
related infrastructure costs once the interagency agreement between 
Department of Transportation (DOT) and the Service is signed.
    The Service continues to work with other stakeholders, including 
the Department of Transportation, to develop a long-term operations and 
maintenance funding strategy for the airfield and supporting 
infrastructure at Midway Atoll NWR. Fiscal Year 2003 Appropriations 
report language prohibited the Service from covering airfield and 
related support infrastructure expenses from within its budget, beyond 
the requirements associated with refuge operations and maintaining a 
reasonable level of visitor access.

    16. There are many communities, especially those in the Northeast 
and Midwest, that have experienced increasing, significant and 
economically damaging conflicts with the growing numbers of Canada 
geese that have become ``resident'' by failing to migrate to nest. The 
negative economic impact at some sites, including golf courses, parks 
and beaches has reached thousands, sometimes tens of thousands of 
dollars each year at each site. Some communities and individuals have 
begun to develop efficient and cost effective public private 
partnerships to control the population growth of Canada geese in their 
area using their own staff or trained volunteers to treat goose eggs. 
Unfortunately, the long application processing periods of your agency 
kept many of these communities from implementing their program last 
year because permits were not processed before nesting season began in 
late March or early April.
    Even more distressing, the Hadley Regional office is now telling 
applicants that there is a six month backlog of applications which 
means those entities that wish to treat eggs this spring will not be 
able to begin because they will be unable to get the required approval 
from your agency. Last year thousands of additional geese were added to 
this problem because localities were told by your agency that they 
applied ``too late'' even when they applied months in advance. This 
year, potentially thousands more geese will be added to this number. 
Communities in Massachusetts, Connecticut, New York, Pennsylvania and 
Virginia, and others are all either waiting for or have been 
discouraged from even applying for these permits.
    What can the agency do, considering the negative consequences of 
allowing additional geese to be added to the resident population, to 
ensure that every community, property owner or commercial operation 
that applies for a permit this spring, with a two week or more window 
before nesting begins, has the application processed and given due 
consideration?
    The Service is aware that the communities in the Northeast are 
experiencing increasing, significant, and economically damaging 
conflicts with resident Canada geese. We have taken several measures to 
be responsive to the growing need to address Canada goose management 
locally. For instance, in 1999, we issued regulations for a special 
Canada goose permit to provide state wildlife agencies the ability to 
manage and control resident population Canada geese. These permits can 
authorize addling of eggs from March 11 through August 31. Fourteen 
states have taken advantage of these special permits, including 
Delaware and New York in the northeast.
    In addition, the Service published a Draft Environmental Impact 
Statement (DEIS) to address resident Canada goose management. The 
preferred alternative, if adopted, would allow state wildlife agencies 
(or their agents) to conduct or authorize direct control of resident 
geese including the take of birds, nests and eggs, and provide states 
needed flexibility. Depending on a state's selection of control 
strategies, the number of Service-issued permits necessary to address 
nuisance geese is expected to decrease significantly.
    While we are completing the Final EIS and associated regulations, 
we have implemented a number of actions to help streamline the 
permitting process and facilitate timely issuance of Canada goose 
permits, including the following.
    Of the Service Regions issuing Canada goose egg addling permits, 
the Northeast Regional Permit Office processes the greatest number. 
That Region has taken several measures recently to streamline the 
permitting process. Among other things, they recently implemented a 
streamlined biological review process to reduce processing time. Each 
year, prior to the nesting season, staff biologists will assess 
populations and document compliance with National Environmental Policy 
Act. Completing and documenting the biological review programmatically 
in advance of the nesting season will facilitate processing of most 
addling permits. In addition, the scope of issued permits has been 
broadened to accommodate the needs of entire municipalities, as well as 
county park agencies, to addle Canada geese eggs. The Region also has 
begun mailing permit renewal forms in September each year to encourage 
more timely submission of renewal requests for the following season.
    The Northeast Region has already issued more than 350 addling 
permits for the 2003 nesting season, including all applications 
received by January 31. While our regulations advise applicants to 
submit applications 60 days in advance, we are making every effort to 
process addling applications within 30 days of receipt. The Service 
processed nearly 2000 depredation permit requests last year, over half 
of which were in the Northeast Region. We will continue to implement 
measures to facilitate timely processing of permits while ensuring 
compliance with the Migratory Bird Treaty Act and other applicable laws 
and regulations.

    17. One significant criticism of the process of approving permits 
is that the agency requires the same application and consideration of 
applicants requesting authority to addle or oil eggs as for other 
``depredation'' options. While the agency may wish to give analysis to 
requests for lethal takes, the agency rarely if ever, denies a permit 
for addling nests. Because, by definition, Canada geese which nest in 
the United States, are not part of the migratory flocks that FWS has a 
strong interest in protecting, and because an analysis of other control 
methods requires additional scrutiny, why doesn't FWS separate the non-
lethal egg addling depredation permit from other options and expedite 
the process for property owners requesting only egg addling or oiling.
    Recognizing the limited period during which egg addling can be 
conducted, the Service already separates Canada goose egg addling 
permits from applications for other types of depredation permits and 
assigns them priority for processing.

    18. When communities try to solve their Canada geese nuisance 
problems in urban and suburban communities, a significant controversy 
arises in the community when there is a suggestion to round up the 
geese during the molt. What can the agency do to promote effective 
solutions for non-controversial population stabilization methods for 
Canada geese like egg addling or oiling that build, not destroy 
communities?
    In conjunction with an overall management program egg addling or 
oiling can be an effective and relatively non-controversial means of 
managing local resident Canada goose populations, and we support 
community efforts to address local depredation problems. We will 
continue to seek and implement measures to streamline the application 
process and expedite processing of permits.

    19. We understand that the agency has been aware for a number of 
years that the regulations in place, designed to protect growing 
numbers of Canada geese, are draconian and unnecessary for resident 
flocks given their extreme proliferation and unnatural commitment to 
residing year round on one site. The agency has been in the process of 
revising regulations related to the management of Canada geese for over 
three years. The final rule is expected to require that states become 
the regulators with an unfunded mandate. Several states have objected 
to this additional burden in the proposed rule and may sue the agency. 
This will surely delay your agency from accomplishing any reform. Why 
not implement reform for the system today to streamline the application 
process and relieve your workload for addling/oiling permit 
applications and place on a separate track the more contentious issues.
    The process of revising the regulations relative to the management 
of resident Canada geese is a complex issue and process. The associated 
DEIS on Resident Canada Goose Management is a comprehensive 
programmatic plan intended to guide and direct resident Canada goose 
population control and management activities in the conterminous United 
States. As such, it requires extensive Flyway, state and public 
participation. The objective of the DEIS and any ultimate proposal is 
to provide a regulatory mechanism that will allow state and local 
agencies, other federal agencies, and groups and individuals to respond 
to damage complaints or damages by resident Canada geese. Any strategy 
should be more effective than the current system, and should be 
environmentally-sound, cost-effective, and flexible enough to meet the 
variety of management needs found throughout the Flyways. Further, the 
management strategy should not threaten viable resident Canada goose 
populations, as determined by each Flyway Council, and must be 
developed in accordance with the mission of the Service.
    We believe that the preferred alternative meets these objectives. 
However, we are aware that some states may view the strategy 
unfavorably, or with uncertainty. Our analysis indicates that depending 
on the states'' selection of management strategies, workload could vary 
widely under the preferred strategy. In participating states, decisions 
regarding resident Canada goose management activities would fall to the 
state. In those nonparticipating states, most workloads regarding 
resident Canada geese would be largely unaffected. In no case does this 
constitute an unfunded federal mandate, as state participation would be 
voluntary and based on their own decision as to whether they believe 
this is the approach they want to adopt.
    We believe the ``State Empowerment'' alternative provides states 
the most flexibility to deal with resident Canada goose damage 
management activities. States are provided with a menu of available 
management options ranging from specific depredation orders dealing 
with airports, agriculture, public health, and nests and eggs, to 
increased hunting opportunities both inside and outside the Treaty 
frameworks. Thus, states are able to choose and implement only those 
specific programs they are either comfortable with, have experience 
with, or believe to be the best available option to deal with goose 
conflicts and populations in their respective states.
    Further, there is no federal requirement in any of these management 
alternatives for the state to issue permits or subpermits to those 
allowed to conduct management activities. If a state wishes to keep 
detailed records of those parties allowed to conduct management 
activities or issue permits, it may do so. However, if a state merely 
wishes to grant, through an order of their choosing, a certain group of 
entities or individuals the authority to conduct resident goose damage 
management activities, it may also do so. The only federal 
requirements, other than overall program restrictions, are to monitor 
the spring breeding population and annually report the number of geese 
(adults, gosling, nests, and eggs) taken within the state. These 
requirements are necessary in order to adequately assess population 
status and the effectiveness of management activities.

    20. Why has the administration requested no money for Canada geese 
depredation?
    The Service is aware that damage complaints to personal and public 
property, agricultural damage, and concerns related to human health and 
safety caused by populations of Canada geese have been increasing over 
the past few years. Some of these problems are attributed to increasing 
populations of Canada geese, while others are more closely related to 
goose distribution issues. Given our priorities, we continue to try and 
work within available resources to meet these increasing public needs. 
Through cooperative relationships with our state and federal partners, 
we are working extremely hard to develop integrated management 
strategies for nationwide Canada goose management while continuing to 
strive towards state and Flyway established management goals and 
objectives for the various populations. Once management strategies are 
fully developed, we will work with all of the affected parties for full 
implementation.

    21. What is the status of management plans for light geese and 
double crested cormorants?
    Light geese: In October 2001, the Service made a DEIS on light 
goose management available for public comment. The following four 
alternatives were analyzed.
        A. No Action.
        B. (PREFERRED ALTERNATIVE) Modify harvest regulation options 
        and refuge management.
        C. Implement direct light goose population control on 
        wintering and migration areas in the U.S.
        D. Seek direct light goose population control on breeding 
        grounds in Canada.
    The public comment period on the draft document closed on January 
25, 2002. Public comments on the Draft EIS were submitted by 486 
individuals, agencies, and organizations. Approximately 63 percent of 
comments supported implementation of light goose population control. 
Most supporters of control favored alternative B. However, some Flyway 
Councils and several state agencies suggested that a new alternative be 
developed that includes aspects of Alternatives B, C, and D above. In 
addition, it was suggested that methods of take should be revised to 
include (among other methods) the adoption of baiting regulations 
during the conservation order that are similar to dove baiting 
regulations. The Service will include analysis of a new alternative in 
the Final EIS that includes aspects of alternatives B, C, and D above. 
For this alternative, a two-phase approach will be developed that will 
continue to use regulations to increase harvest of light geese (e.g., a 
conservation order) and, if needed, a second phase would provide for 
direct control of the population by the agency.
    It is anticipated that a Final EIS and subsequent final rule will 
be published sometime this summer. If either the current preferred 
alternative, or the new alternative, are adopted, state agencies will 
be provided with regulatory options that will maintain increased 
harvest of light geese during the 2003-2004 regular season, and a 
conservation order during spring 2004 and beyond. Adoption of the 
preferred alternative would also allow Atlantic Flyway states to 
implement new regulations to increase harvest of greater snow geese. 
New actions are not currently being proposed for the Pacific Flyway. 
However, inclusion of the Pacific Flyway may become necessary if 
habitat damage becomes evident in the western Arctic, or if additional 
harvest pressure is needed for birds that breed in the central Arctic 
and winter in the Pacific Flyway.
    Cormorants: The DEIS on double-crested cormorant management was 
completed in December 2001. The proposed rule, which is the regulatory 
implementation of the preferred alternative in the DEIS was published 
in the Federal Register on March, 17, 2003. Following a 60-day public 
comment period on the proposed rule, the final rule and Final EIS are 
planned for completion in the fall of 2003. Our preferred alternative 
would authorize state fish and wildlife agencies, APHIS - Wildlife 
Services, and Tribes to control double-crested cormorants without a 
Service permit where necessary to protect public resources (fish, 
wildlife, plants, and their habitats) in 24 states.

    22. What is the status of efforts to reduce the exploding 
population of light geese?
    From 1955-1998, the winter index (a partial count of the entire 
population) of light geese in the mid-continent region increased from 
approximately 693,000 to nearly 3.2 million birds. In February 1999, 
new regulations were published that authorized new methods of take 
(unplugged shotguns, electronic calls) and a conservation order for 
light geese. Among other changes, the conservation order allowed take 
of light geese after the closure of regular hunting seasons on March 
10. In the 5 years prior to implementation of the new regulations, the 
average harvest of light geese in the U.S. portions of the Central and 
Mississippi Flyways was approximately 488,000 birds per year. New 
regulations resulted in an increase in the harvest of mid-continent 
light geese to over 1.1 million during the 1998-1999 regular season and 
spring 1999 conservation order, combined. In the subsequent three 
years, the total annual harvest has ranged from 900,000 to 1.4 million 
birds. Inclusion of harvest in Canada increases the range in harvest 
during 2000-2002 from 1.0 to over 1.5 million birds.
    This effort to increase harvest clearly has had an effect on the 
light goose population. Following the peak in the winter index of 3.2 
million birds in 1998, the population experienced 3 successive years of 
decline to 2.6 million birds in 2001. However, favorable nesting 
conditions and good production of young resulted in an increase to 2.9 
million birds in 2002. The increase would have been even higher had it 
not been for the increased harvest level. These statistics show the 
complexity of managing a wildlife population at a continental level. 
Population modeling indicates that an annual harvest of 1.4 million 
birds should achieve the goal of reducing the population by 50 percent. 
Although the target level of harvest may not be reached every year, we 
believe that implementation of new harvest regulations during the past 
4 years has been successful and that more drastic measures of direct 
population control may not be necessary in the immediate future.

    23. Has the critical habitat of the Hudson Bay region been spared 
further destruction from light geese?
    Extensive grazing and grubbing of above and belowground plant 
material by light geese causes the removal of the vegetative mat, which 
protects underlying sediments, and results in the eventual 
desertification of saltmarsh habitat. Under such conditions there may 
be little or no chance of plant recovery within 25-50 years, or more. 
Of the 135,000 acres of coastal salt marsh habitat in the Hudson Bay 
Lowlands, 35 percent is considered to be destroyed, 30 percent is 
damaged, and 35 percent is overgrazed. Due to the remoteness and 
expense of conducting research in the arctic, no studies have generated 
quantitative estimates of yearly habitat loss. However, comparison of 
infrared satellite photos from 1984 and 1993 suggests that vegetation 
decline in La Perouse Bay alone has been approximately 393 acres per 
year. Observations by biologists indicate that habitat degradation and 
loss is occurring at other sites in eastern and central arctic and 
subarctic regions.
    Although the number of light geese has been reduced through 
management action, large numbers of geese continue to occupy arctic and 
subarctic breeding areas. Therefore, damage to habitats will continue 
to occur, but likely at a reduced rate. Achievement of the goal of a 50 
percent reduction in the mid-continent light goose population should 
result in decreased grazing and grubbing pressure on remaining 
habitats. However, long-term vegetation studies will be needed in order 
to monitor habitat response to light goose management actions. 
Information from such studies should be used in an adaptive management 
approach to help us better understand goose-plant relationships and 
determine the optimum size of the light goose population.

    24. Why has the D. C. Booth National Fish Hatchery in South Dakota 
been designated as an historic hatchery and what does that mean?
    The D.C. Booth Historic National Fish Hatchery in Spearfish, South 
Dakota, was established in 1896 and is one of the oldest remaining Fish 
Hatcheries in the country. The facility includes a high number of 
preserved historic structures and is listed as a historic district on 
the National Register of Historic Places. With a large and growing 
collection of historic fisheries material, the Service designated D.C. 
Booth as an historic hatchery in 1989 ``to protect and preserve fishery 
records and artifacts for educational, research, and historic purposes, 
and provide interpretive and educational programs for the public.''
    With the addition of a 10,000 square foot controlled environment 
building in 1995, D.C. Booth provides the Service with a museum 
collection facility that meets Department of the Interior directives 
and standards for the preservation of heritage and cultural resources, 
and houses the largest collection of historic fisheries conservation 
material in this country. Operation of the site is shared through a 
series of partnerships with the South Dakota Department of Game, Fish 
and Parks; the City of Spearfish, South Dakota; the American Fisheries 
Society; and the Booth Society, the oldest and largest ``Friends'' 
group in the Fisheries Program. Using the collection and historic site 
for interpretation and educational purposes, D.C. Booth shares the 
history and values of fisheries conservation with 150,000 annual 
visitors. In addition, D.C. Booth's unique collection of historical 
documents and other reference materials, much of which is provided by 
other Service facilities and would otherwise be lost, is made available 
to meet a growing number of research requests from federal, state, 
university, and private entities each year relating to hatchery 
operations, fish culture and techniques, and other fisheries science 
and conservation topics.

    25. What is the backlog of maintenance projects at our National 
Fish Hatchery System? What is the average age of these hatcheries?
    The National Fish Hatchery System (NFHS) has been conducting 
condition assessments of its field stations for the past two years, 
completing 25 assessments (32 percent) out of its 79 field sites. These 
assessments have been certified by the National Condition Assessment 
coordinator. The NFHS will continue to work with the Department, the 
Service's Division of Refuges and Engineering, and its regional and 
field coordinators in implementing two significant improvements in the 
management of the Service's facility information: condition assessments 
and Service Assets Maintenance Management System (SAMMS).
    There are 1,426 identified deferred maintenance (rehabilitation and 
repair) projects included in the Service Assets Maintenance Management 
System (SAMMS). Of these 1,426 deferred maintenance projects, 643 
projects estimated at $181 million involve critical water management 
assets and are considered highest priority, i.e., those assets that 
directly influence the quality or quantity of water delivered and 
discharged, or assets that determine the actual rearing or holding 
environment of the fish or other aquatic species being held.
    The Service's Fiscal Year 2004 budget request includes $17 million 
for the highest priority maintenance needs, including a increase of $3 
million for deferred maintenance over the Fiscal Year 2003 request.
    The average age of the NFHS's 86 field stations (which include 69 
National Fish Hatcheries, 7 Fish Technology Centers, 9 Fish Health 
Centers, and 1 Historic NFH) is 55 years old, with 66 percent of them 
over 30 years old.

    26. How much is requested for hatchery maintenance in Fiscal Year 
2004?
    In Fiscal Year 2004, a total of $17.215 million is requested for 
hatchery maintenance, a significant increase of $3 million over the 
Fiscal Year 2003 request.

    27. Why are there no funds requested for the Cooperative 
Conservation Initiative in 2004?
    Actually, the 2004 request includes a total of $113 million for a 
second year of the Cooperative Conservation Initiative (CCI), which 
reflects Secretary Norton's emphasis on building partnerships for the 
conservation of natural resources and provides expanded opportunities 
for land managers to work with landowners and others to participate in 
creative conservation partnerships. Of this total, over $70 million is 
targeted to Service programs.
    Revised from last year's proposal, the initiative builds on 
existing conservation partnership programs that have successfully 
established productive relationships with local communities and 
citizens. Nearly half of the CCI, or $54 million, will be implemented 
through the challenge cost share programs of the Department's three 
land management agencies. The remaining programs include the Service's 
Partners for Fish and Wildlife Program, the Joint Venture Program, and 
the Coastal Program, as well as the Park Service Public Lands 
Volunteers Program.
[GRAPHIC] [TIFF OMITTED] T5772.003


    28. Please provide the total number of conservation projects, the 
dollar amount appropriated, private matching funds, number of affected 
range states and updated population figures on African elephants, Asian 
elephants, rhinoceros and tigers, great apes and Neotropical Migratory 
Birds?
    Attached are two charts that provide the requested information. The 
first displays the number of grants awarded, the range countries 
affected, the dollar amount appropriated, and matching funds, including 
the amount matched with in-kind services for the African Elephant 
Conservation Act, Asian Elephant Conservation Act, Rhinoceros-Tiger 
Conservation Act, Great Apes Conservation Act and the Neotropical 
Migratory Bird Conservation Act. (See Attachment 2). The second 
provides population figures for African elephants, Asian elephants, 
rhinoceros and tigers, and great apes. (See Attachment 3).
    With respect to Neotropical Migratory Birds, about half of the 341 
species of neotropical migratory birds are known to have declining 
populations. In addition, the Service has identified 62 Neotropical 
migrants on its list of ``Birds of Conservation Concern'' including the 
Swainson's hawk, Red Knot, wood thrush, and Cerulean warbler.

    29. The Administration has requested $3 million for the Neotropical 
Migratory Bird Conservation Account. What is the justification for this 
figure? Are neotropical birds in greater peril of extinction than 
rhinos, tigers or certain great ape species?
    The Neotropical grants program has identified a significant unmet 
need, with demand for these funds far exceeding the supply, partially 
because those species did not benefit from a sustained conservation 
program in the past directed at neotropical migratory birds. 
Conservation activities are needed throughout the Western Hemisphere 
for more than three hundred species, and a budget of $3 million, 
requested through the Multinational Species Conservation Fund, would 
allow the Service to address the highest priority projects to conserve 
neotropical birds. About half of these birds have declining 
populations, and some are threatened with extinction. The Service has 
identified 62 Neotropical migrants on its list of ``Birds of 
Conservation Concern,'' those that are likely to become candidates for 
listing under the Endangered Species Act. Some examples include 
Swainson's hawk, Red Knot, wood thrush, and Cerulean warbler.

    30. How much additional funding do neotropical migratory birds 
receive under other Fish and Wildlife Service programs?
    The Service does not track funding data in this fashion. However, 
other Service programs can benefit neotropical migratory birds but are 
not specifically designed to fund critical conservation needs for these 
species, and almost all do not extend conservation activities to the 
full range of the species in Latin America. Nevertheless, other Service 
programs benefit neotropical migratory birds, waterfowl and many other 
species of wildlife, including the North American Wetlands Conservation 
Fund (U.S., Canada, and Mexico), Partners for Fish & Wildlife, Coastal 
Program, Endangered Species, Habitat Conservation, National Wildlife 
Refuge System, Migratory Bird Management, Law Enforcement, and State 
Wildlife Grants.
    The Service's Wildlife Without Borders--Latin America and the 
Caribbean and Wildlife Without Borders--Mexico programs could also 
potentially benefit neotropical migratory birds beyond U.S. borders 
through training, educational opportunities, capacity building and 
field projects.

    31. How many permits will be reviewed and issued by the 
International Affairs office in Fiscal Year 2004?
    During Fiscal Year 2004, approximately 6,000 permits will be 
reviewed and, if past trends are any indication, 90 to 95 percent of 
these will be issued. These permits include import or export of 
internationally protected plant and animal species for purposes of 
species management and scientific research to conserve populations in 
the wild, as well as to ensure that all trade is conducted in a legal 
and sustainable manner. They are issued under a number of wildlife 
conservation laws and treaties. In most instances, we issue one permit 
when a species is protected under more than one law and treaty.

    32. How many polar bears have been imported from approved 
populations in Canada?
    Between April 1997 (when regulations authorizing these imports went 
into effect) and December 31, 2002, the Service issued import permits 
and collected issuance fees for 504 polar bear trophies sport hunted by 
U.S. citizens in Canada from approved populations. This includes pre-
Amendment trophies (bears taken prior to the enactment of the Marine 
Mammal Protection Act Amendments of 1994.)

    33. Does the Service expect to approve additional Canadian polar 
bear populations in Fiscal Year 2004?
    In response to new information from Canada on the Gulf of Boothia 
population, and a request to approve this population, the Service is 
currently conducting a review of whether the Gulf of Boothia polar bear 
population should be added to the list of populations approved for the 
import of sport-hunted polar bears by U.S. citizens.
    In order to ensure that our review of the population is based on 
the most current information and accurately reflects Canada's 
management program, we have requested additional information from the 
Canadian Wildlife Service. This request seeks information on 
management, quotas, and population models used for the polar bear 
population in the Gulf of Boothia, as well as on Canada's overall polar 
bear management program. If we determine that the new information 
warrants a change in the status of the Gulf of Boothia polar bear 
population, we will initiate a proposed rule making, including a 
Federal Register notice with a request for public comments, regarding 
the approval for import of sport-hunted trophies from this population. 
We anticipate that a decision on this population will be completed 
during late Fiscal Year 2003 or early Fiscal Year 2004.

    34. Please describe the construction of a hangar at the Anchorage 
International Airport? Why is it necessary and why is the cost of 
construction the responsibility of the U.S. Fish and Wildlife Service?
    The Department of the Interior's Office of Aircraft Services'' 
(OAS) mission is to maintain and operate Government-owned aircraft 
operated by Departmental bureaus, such as the Service. OAS is located 
next to the Ted Stevens Anchorage International Airport (AIA) on a 
Service-owned 11-acre site at the Lake Hood float plane base. Outdated 
construction and safety concerns severely affect the existing hangar/
aircraft maintenance building. It is deficient in several areas, 
including soil and groundwater contamination, asbestos, no storage 
separation for fuels and other flammable materials, faulty wiring, 
incompatible uses, and an open-flame heating system. It is not energy 
efficient. The OAS cannot maintain all functions on a smaller site 
without constructing a new building for administration, hangar space, 
storage and related site improvements. If construction is not 
completed, administrative support of aircraft operations, aircraft 
parking and secure storage will be lost, which will severely hinder 
efficiency. The new facilities will substantially reduce critical 
mission deferred maintenance needs such as encapsulating asbestos, 
separating the storage of fuel and other flammable materials, replacing 
faulty wiring, maintaining the open-flame heating system, and 
completing other corrective maintenance tasks. The new facility will 
improve OAS operating efficiency by eliminating the need to relocate 
functions lost by the AIA expansion. In addition, the safety risks to 
OAS pilots, staff and passengers will be reduced. Because the hangar is 
on Service property, the funding is being requested through the 
Service's budget.

    35. Please update the Subcommittee on the status of the visitors 
center at the Chincoteague National Wildlife Refuge?
    The construction of the Herbert H. Bateman Educational and 
Administrative Center on the Chincoteague National Wildlife Refuge is 
slightly behind schedule; however, both the construction of the 
buildings and the fabrication of the exhibits are proceeding without 
major difficulties. The Administrative Building and the Educational 
Building are expected to be completed in May and June of this year, 
respectively. The exhibits will be installed in August and September 
with a grand opening planned in October 2003.

    36. Why has the Big Muddy National Wildlife Refuge in Missouri been 
listed as the top land acquisition priority?
    The Land Acquisition Priority System (LAPS) is designed to: (1) 
document land acquisition needs and opportunities nationwide; (2) 
prioritize land acquisition projects submitted by the regions; and (3) 
serve as the starting point for the annual land acquisition budget 
request. The LAPS is a dynamic ranking process comprised of a project 
summary and four components that are each associated with Service trust 
resources. The components are: Fisheries and Aquatic Resources; 
Endangered and Threatened Species; Bird Conservation; and Ecosystem 
Conservation.
    Each of the components is worth a maximum of 200 points and the 
project summary is worth up to 50 points, for a total maximum score of 
850 points. Each project is scored in every component to yield a 
cumulative score. The same questions are used for each project to 
provide consistency. Also, the criteria are biologically based and 
create a biological profile for the project. The Big Muddy NWR has a 
LAPS ranking of 686 out of a possible maximum of 800, this is the 
highest of all projects currently in LAPS. This ranking is composed of 
a score of 165 for fish and aquatic resources; 171 for endangered and 
threatened species; 180 for bird conservation and 170 for ecosystem 
conservation. Also, the project supports and complements the Missouri 
Department of Conservation's 10-year fisheries strategic plan for the 
Missouri River.
    The pre-settlement Missouri River was subject to large seasonal 
variations in flows which coursed through a 1,500 feet to one-mile-wide 
braided channel that was constantly eroding and shifting. These dynamic 
conditions resulted in a diversity of riverine and floodplain habitats 
including sheltered backwaters, sloughs and chutes, oxbow lakes, 
sandbars, gravel bars, mud flats, timbered islands, deep pools, shallow 
water areas, marshes, seasonally flooded bottomland forests, and wet 
prairies.
    Now, due to extensive human development of the river's water supply 
and floodplain, most of this once rich diversity is gone. More than 90 
percent of the original floodplain forests, wetlands and prairies have 
been converted to agricultural lands. Hydrology has also been altered 
and the floodplain isolated from the river through the construction of 
levees and other flood control structures.
    Degradation and removal of remaining riverine and riparian habitats 
seriously threatens many of the Missouri River's native and unique fish 
populations. Past alterations and ongoing impacts to riverine habitats 
also threaten migration and breeding habitat for waterfowl, shorebirds, 
and other migratory birds.
    The combination of drastically depleted habitats, a continuing 
threat to the remaining habitats, and the species richness and 
diversity of remaining habitats result in the highest LAPS score of all 
Service acquisition projects.
    A Final EIS for this project was published in February 1999. The 
selected alternative in the Final EIS involves acquisition of 43,372 
acres from willing sellers along the 800,000 acre Missouri River 
floodplain from Kansas City to St. Louis, Missouri and the lower 10 
miles of major tributaries. This brings project authorizations up to a 
total of 60,000 acres. Additions could be located in any of the 20 
counties that lie along this stretch of river. The purpose of these 
refuge additions is to preserve and restore natural river floodplain, 
manage fish and wildlife habitats, and provide for compatible public 
recreational use.

    37. At the Key West National Wildlife Refuge, the Service proposes 
to spend $1.4 million to acquire seven acres of land. Why is the price 
so expensive? Please describe the characteristics and ownership of this 
property?
    The property is Ballast Key, a 20 acre island that is the last 
inholding within Key West NWR. It is situated in close proximity to the 
resort area of Key West. The property was appraised at $5.3 million in 
fee title for the 20 acres. It is an improved property with two 
dwellings, owned by an 84-year-old man who wishes to retain a life-use 
reservation in the property. If appropriate, the $1.4 million will 
enable the Service to acquire about seven acres or approximately one-
third of the property in Fiscal Year 2004. The remaining acreage would 
be acquired in ensuing years Acquiring this island is critical for the 
Refuge since it will complete the refuge and its purchase will ensure 
that the refuge's purpose and mission of protecting habitat for 
wintering populations of terns, frigate birds, white crowned pigeons, 
ospreys and great white heron, as well as nesting Atlantic green and 
loggerhead sea turtles is met.

    38. Please describe the 1,091 acres that will be acquired for the 
Blackwater National Wildlife Refuge?
    The 1,091-acre tract that is proposed to be acquired is in two 
ownerships and within the approved boundary of the Blackwater National 
Wildlife Refuge and would support the refuge's purpose of protecting 
high quality habitat for the American bald eagle, Delmarva fox squirrel 
and other endangered species, along with nesting and wintering habitat 
for migratory waterfowl, colonial water birds, shorebirds, and 
songbirds. The tract is a combination of high-quality palustrine 
forested wetlands that are dominated by large, very mature loblolly 
pine, swamp white oak, red oaks, willow oak, red maple, sweet gum; and 
pristine emergent marshes of three square miles of bulrush and salt 
marsh hay that adjoin the existing refuge property. Some portions of 
the tract have been developed with moist soil impoundments that are 
currently managed for waterfowl, and these areas and the surrounding 
marshes support several thousand ducks and geese and many species of 
wading birds each year. The woodlands also support Delmarva fox 
squirrels and nesting bald eagles. Other endangered species include the 
swamp pink, and many state listed species of amphibians and reptiles. 
However, the single most important aspect of the tract is for the 
future management of forest interior dwelling songbird species that are 
highly area-sensitive and are most vulnerable to forest loss, 
fragmentation, and overall habitat degradation. Consequently, this is 
the one group of migratory bird species that Blackwater NWR chose to 
target during development of its draft Comprehensive Conservation Plan 
(CCP).
    During the CCP process, we identified the few remaining large, 
contiguously forested areas that currently adjoin the refuge that would 
meet this minimum patch size, and determined that it would be possible 
to ultimately create seven mature forest cores within the refuge's 
approved planning boundary through reforestation, strategic land 
acquisition, regrowth of cut over areas previously acquired, timber 
stand improvement, and regeneration cuts. The most effective strategy 
for increasing the current number of forest cores was land acquisition 
or easements. Contact was made with the owners of the 1,091-acre tract 
since this tract is the highest priority for protection and exceeds the 
size requirements, composition, and other criteria for a forest core 
with a minimum of 865 acres.

    39. Why has the allocation for the National Wildlife Refuge Fund 
been further decreased from 51 to 49 percent?
    The 2 percent reduction in the estimated payments to counties for 
2004 is primarily due to the rise in the estimated full entitlement 
payment to $35,000,000 in Fiscal Year 2004 versus an estimated full 
entitlement payment of $34,000,000 in Fiscal Year 2003. The 
appropriations and the net receipts available to make the payments to 
counties are projected to be about the same in Fiscal Year 2004. 
However, estimated full entitlement payments have increased by 
$1,000,000 due to acquisition of additional lands for the Refuge System 
and the reappraisal of about 175 units of the National Wildlife Refuge 
System.

    40. Why does the Administration not support or request full funding 
for the National Wildlife Refuge Fund?
    The Service will combine $2.9 million in receipts with the request 
of $14.4 million to provide $17.3 million, or almost 50 percent of the 
entitlement level, in revenue sharing to counties.
    Given a number of other priorities, the Administration was unable 
to include additional funding in the 2004 request for this program. The 
Service notes, however, that billions of dollars trickle down to local 
community tax bases through outdoor recreation programs, many centered 
on the National Wildlife Refuge System. During 2001, for example, 23 
million people fished, 13 million people hunted, and 66 million people 
participated in at least one type of wildlife-watching activity 
including observing, feeding or photographing fish and other wildlife. 
Along the way they spent $108 billion, or 1.1 percent of the GDP. This 
included spending not just on sporting equipment, but also lodging, 
transportation and food purchases, important to the economies of many 
rural areas.
    41. The Administration has requested $50 million for the North 
American Wetlands Conservation Fund. How many acres of wetlands in 
Canada, Mexico and the United States will be acquired with those funds?
    Based on the last five years of program accomplishments, $50 
million in appropriations will result in the following acres acquired, 
restored, and created habitat acres:

[GRAPHIC] [TIFF OMITTED] T5772.004


    42. When will an Assistant Director be named for the Federal Aid 
Program? Secretary Norton made this commitment on January 30, 2003 and 
the Subcommittee is anxious for this person to be appointed?
    The Service has obtained approval to fill the Assistant Director, 
Wildlife and Sport Fish Restoration Programs. The Director is currently 
considering the options available to fill the position and plans to 
make a decision in the near future.

    43. Why has the amount of money allocated under the Sport Fish 
Restoration Program been projected to increase by $6 million?
    The money allocated for the Sport Fish Restoration Program is 
projected to rise due to estimated increases in excise tax collections 
from motorboat gasoline. These receipts are deposited into the Aquatic 
Resources Trust Fund for subsequent distribution to the states through 
the Sport Fish Restoration Account.

    44. How many people are now engaged in sport fishing activities?
    The most current estimate is that there are 34.1 million U.S. 
citizens 16 years old and older who participate in sport fishing. 
Approximately 28.4 million participate in freshwater fishing and 9.1 
million participate in saltwater fishing. These estimates were reported 
in the 2001 National Survey of Fishing, Hunting, and Wildlife-
Associated Recreation that was recently completed by the Service in 
conjunction with the U.S. Census Bureau.

    45. How many individuals will buy a hunting license in the current 
fiscal year?
    Based on trends in previous years, we estimate that approximately 
15 million individuals will purchase a hunting license in the current 
fiscal year.

    46. What is the impact of the growing number of foreign made arrows 
that are beginning to flood the United States market without paying the 
required excise tax?
    The financial impact of untaxed foreign-made arrows entering the 
United States is unclear. Neither the volume nor the value of these 
arrows is known from which estimates could be generated.
    Excise taxes currently collected from bow and arrow manufacturers, 
producers, and importers are a major source of revenue for Wildlife 
Restoration programs. These funds are largely distributed to states by 
formula for grants that support wildlife conservation and hunter 
education and safety programs. While data is not available to 
separately identify revenues generated by arrows as a separate product, 
in Fiscal Year 2002, excise taxes on bows and arrows combined to 
contribute over $19 million out of total Wildlife Restoration receipts 
of $223 million.

    47. How many new law enforcement agents will be hired in Fiscal 
Year 2004?
    At the President's Budget request level, the Service plans to fill 
18 special agent vacancies in Fiscal Year 2004, which would bring the 
total force to 241.

    48. How many duck stamps were purchased in Fiscal Year 2002?
    The sale of Migratory Bird Hunting and Conservation Stamps (Duck 
Stamps) are tracked on a June 30 fiscal year not a federal fiscal year, 
so the following totals reflect stamp sales between July 1, 2001 and 
June 30, 2002. During this 12 month period there were 1,694,739 duck 
stamps sold. Therefore, at a cost of $15 per stamp, there was 
$25,421,085 raised during that period for the Migratory Bird 
Conservation Commission.
    a. What is the projection for the current fiscal year?
    Based on a review of past sales, the number of waterfowl hunters 
nationally, and input from experts we expect that sale of duck stamps 
for the period of July 1, 2002 until June 30, 2003 to remain level.

    49. How many additional refuge or hatcheries will seek approval to 
become part of the Recreational Fee Demonstration Program in Fiscal 
Year 2004?
    We estimate that no more than 10 sites will seek to join the fee 
demonstration program in Fiscal Year 2004. A lot depends on whether the 
program is extended or made permanent. It is doubtful that many sites 
will seek approval for an expiring program.
    The last re-authorization of the fee demonstration program, in 
October 2000, allowed agencies to include more than 100 sites per 
agency. At that time, the Service had 91 sites approved for the fee 
demonstration program. Since that time, we have added 18 sites, for a 
total of 109 sites.

    50. Please describe the types of projects that have been completed 
at the local facilities under the Recreational Fee Demonstration 
Program?
    Service-managed sites have accomplished a wide variety of visitor 
service enhancement projects, resource protection projects, and 
maintenance projects with fee demonstration dollars. Examples include 
major maintenance projects such as those at J. N. ``Ding'' Darling NWR, 
in Florida, where the refuge first upgraded its septic system and a few 
years later connected with the municipal sewer system. Other 
maintenance projects include general road and trail maintenance, 
building repairs, painting, safety equipment checks and upgrades, etc.
    Some sites made significant visitor service improvements through 
sign and interpretive panel installations, replacements and upgrades. 
Most notable among these is Chincoteague NWR, in Virginia, which is 
completing a multi-year project to install new interpretive panels on 
the Refuge. Another visitor service amenity that fee demonstration 
dollars funded was the acquisition of a boat to transport students and 
teachers from the Texas mainland to Matagorda Island NWR as part of an 
environmental education effort.
    With 2003 being the Centennial year of the National Wildlife Refuge 
System, fee demonstration dollars also enhanced Centennial celebrations 
across the country. Some refuges used part of their collections to 
purchase banners and new signage for special Centennial-related events. 
Monies went to purchase time capsules for each refuge and Centennial 
exhibits for use at special events year-round. These dollars even 
helped pay for the kiosk and spotting scopes at Pelican Island NWR, our 
very first national wildlife refuge.
    Other visitor service improvements include printing of 
environmental education materials, development and printing of 
brochures and other publications, landscape improvements, etc. Our 
annual Progress Reports to Congress contain more detailed lists of 
accomplishments. These reports may be found on-line at: http://
www.doi.gov/nrl/Recfees/RECFEESHOME.html

    51. In terms of the acquisition of the 3,382 acres for the Alaska 
Peninsula National Wildlife Refuge, please describe for the 
Subcommittee the following:
    a. What is the status of the proposed acquisition? Is there an 
agreement in place?
    The Regional Office has made a fair market value purchase offer to 
corporation representatives, who plan to present the offer to their 
Board at the end of August; a purchase agreement has not yet been 
signed. In addition, an appraisal has been conducted (in accordance 
with the offer).
    b. What is the basis for and what is included in the $750,000 
figure?
    Actual acquisition costs will not be available until the land is 
appraised. However, based on previous land sales in the Pavlof Bay 
area, approximately $750,000 will be required to purchase the smaller 
tract, totaling 3,382 acres, on the northeast side of Pavlof Bay and to 
pay for contract costs in conjunction with the acquisition. Purchase of 
the remaining 4,120 acres on the northwest side of Pavlof Bay would 
necessitate a separate transaction.
    c. What is the nature of the interest that is to be acquired? Is it 
a fee estate or an easement? Is it just the surface estate or does it 
include the subsurface as well?
    The acquisition will be for surface fee title. Non-development 
easements have such a low value in this area that they are generally 
unattractive to landowners. The purchase would not include the 
subsurface estate which is held by the Aleut Regional Corporation.
    d. Do the acreage and dollar figures reflect the entire 
transaction, i.e., are other lands or interests to be acquire from the 
same owner (Shumagin Native Corporation) through other means?
    The acreage and dollar figures included in this request only 
include a portion of Shumagin's total holdings on Pavlov Bay. As noted 
above in the answer to paragraph b., the Service intends to acquire the 
remaining 4,120 acres on the northwest side of Pavlof Bay. Land 
conservation organizations have shown considerable interest in this 
area and have acquired and donated (or intend to donate) a total of 
51,298 acres within the Pavlof Unit. It is possible that these 
organizations will negotiate additional purchases in the area.
    e. Does the Service intend to acquire the remaining 4120 acres 
owned by the Shumagin Native Corporation or any other Native 
Corporation lands in the same vicinity?
    As noted above, the Service does intend to acquire the remaining 
4,120 acres on the northwest side of Pavlof Bay. This acquisition would 
complete refuge ownership along the shoreline of Pavlof Bay and would 
safeguard the rights of area residents to use these lands for 
subsistence hunting and fishing.

    52. The Marine Mammal Rescue Assistance Act of 2000 authorized $1.0 
million for USFWS for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program for marine mammal species under its 
jurisdiction. Has the Agency requested any funds under this authority? 
If not, why?
    The Service has not requested any funds under the John H. Prescott 
Marine Mammal Rescue Assistance Grant Program. The Service supports the 
authority created by the Marine Mammal Rescue Assistance Act of 2000 to 
provide assistance to eligible marine mammal stranding network 
participants. Stranding network participants carry out activities--
including rescue and rehabilitation of stranded marine mammals, and 
collection of data from living and dead stranded marine mammals--that 
are essential to the conservation and management of marine mammal 
species under our jurisdiction. Much of the work performed by these 
organizations can not be done by the Service, which makes their 
contributions even more important. Some of these organizations have 
expressed to us their interest in obtaining grants to assist in their 
work, however, due to many competing priorities and limited budgets, 
the Service has not yet requested funds for the program.

    53. Have any marine mammal strandings occurred for species under 
the USFWS's jurisdiction? How has the USFWS responded to these 
strandings? Where did the funding come from?
    Strandings of marine mammal species under Service jurisdiction have 
occurred. The Service has jurisdiction for manatees, dugongs, and 
marine sea otters, walruses, and polar bears.
    Regarding sirenians (manatees and dugongs), the Service, its 
recovery program partners, permittees, and other federal agencies have 
responded to strandings. Response efforts in Florida, Puerto Rico, and 
the southeastern United States have been well documented. The Service 
began a manatee carcass salvage program in 1974, a program that 
continues today. Current efforts are coordinated through the State of 
Florida, other states, and the Commonwealth of Puerto Rico. Since 1974, 
salvage efforts have documented over 4,000 manatee deaths in this 
region, including over 1,200 attributable to human activities. In 
addition to salvage efforts, the Service coordinates a manatee rescue, 
rehabilitation, and release program. Over 600 manatees have been 
rescued since 1973. Manatees are also known to have stranded in the 
U.S. Virgin Islands and at the U.S. Navy's Guantanamo naval facility. 
The Service is not involved in stranding response for dugongs. We note 
that dugongs have reportedly stranded at the U.S. Navy's Okinawa naval 
facility, although these events have not been thoroughly documented.
    Funding for responding to sirenian stranding events comes from a 
variety of sources. The Service provides some funding in support of 
manatee rescue program activities, supports research programs that rely 
on live and dead stranded animals (including funding to better assess 
the effects of boating activities on manatees, the effects of cold 
weather, disease processes, etc.), and has provided funding to offset 
costs associated with unusual mortality events. Service funding for 
these efforts is from the Ecological Services base budgets of field 
offices and the regional office in the Southeast region. Funding 
support for these initiatives is also provided by the State of Florida, 
the United States Geological Survey (USGS), non-government 
organizations, and other entities.
    Southern sea otters often strand in California (approximately 180 
events last year). Local otter stranding networks respond to these 
events. Participants in the stranding networks include non-government 
organizations, California Department of Fish and Game, and USGS. The 
Service also responds to stranding events. However, because the Service 
field office that is nearest to the southern sea otter population is 
located at the extreme southern end of the population's range, our 
participation is minimal. Funding for Service participation is provided 
in the field office's base budget. The majority of expenditures for sea 
otter stranding response is through the budgets of the stranding 
network participants. We note that Monterey Bay Aquarium is the primary 
recipient of live stranded otters and works to rehabilitate the animals 
and return them to the wild, and that USGS maintains the stranding 
database.
    Regarding species under our jurisdiction in Alaska, stranding 
events are detected and responded to infrequently (sea otters), or not 
at all (walrus and polar bears). Stranding episodes of sea otters occur 
approximately 6 times each year, primarily in south central Alaska, and 
sometimes in the southeast region of the State. The Alaska Sea Life 
Center in Seward has a rescue and rehabilitation permit from the 
Service, and they take responsibility for sea otter stranding events, 
including the expense.

       Answers to questions submitted by Congressman Ken Calvert

    54. What is the purpose of informal consulting with the Service if, 
after a year of discussion, negotiation and changes of property 
designed to accommodate Service requirements, the rules change? 
Agreement is reached to design property development, plans are prepared 
and ready for formal consultation then the rules change due to change 
in staff. What is the Service doing to insure that uniform, best 
practices are used by all its staff?
    The informal consultation process fulfills two important functions: 
(1) it assists action agencies and their applicants in determining 
whether formal consultation is necessary; and (2) allows for exploring 
modifications to the proposed action that would avoid all adverse 
effects to listed species or critical habitat such that formal 
consultation would not be required.
    The Service uses a variety of training and oversight approaches to 
insure that uniform, best practices are used by all staff conducting 
section 7 consultations. Our National Conservation Training Center 
conducts 4 to 6 sessions of basic training in section 7 consultation 
each year; cumulatively, this training has reached 680 Service 
employees and 169 employees from other federal agencies, state/Tribal/
local governments, or representatives of the private sector. Our 
headquarters office, in coordination with our regional offices, has 
conducted national section 7 workshops in 1999, 2000, 2001, and 2003; 
at these workshops we discuss a wide array of issues with the specific 
purpose of improving national consistency in delivery of the section 7 
program. Many of our Regional Offices also conduct their own periodic 
training and workshops for their field and regional staff involved in 
section 7 consultations. In addition, each month the headquarters staff 
and Regional Office section 7 coordinators conduct a section 7 
conference call to enhance consistency in the consultation program. All 
consultation decision documents are approved by Field Office 
Supervisors to further promote consistency and if the decision finds 
that a proposed action is likely to jeopardize the continued existence 
of any listed species the document must also be approved by the 
Regional Director.

    55. The Department of the Interior is aware that approximately 50 
percent of the endangered species are in the State of California, and 
is also well aware of the shortage of Carlsbad office staff. Is it 
possible for the Department of Interior to detail staff from other, 
less environmentally impacted offices to the Carlsbad office to address 
under staffing issues which adversely affect constituents who are 
applying for permits in order to comply with the Endangered Species 
Act?
    As of March 31, 2003, there are 268 listed threatened and 
endangered species protected by the Endangered Species Act in the State 
of California, or roughly 21 percent of the total number of U.S. listed 
species. Of those 268 species, 104, or 8 percent of the national total, 
occur within the geographic area covered by the Carlsbad Fish and 
Wildlife Office.
    The Service's consultation appropriation is allocated through a 
process designed to ensure that each Region receives a minimum 
capability allocation of $200,000 plus an amount determined by a 
formula that reflects the Region's proportion of the national workload. 
The workload factors are based primarily on how many listed species 
occur within each Region, with adjustments for complexity factors such 
as migratory or wide-ranging species. This allocation process results 
in a significant portion of the appropriations for consultation going 
to the Pacific Region. In Fiscal Year 2002, the Pacific Region received 
$18.8 million from the consultation sub-activity (41 percent of the 
national total). The Carlsbad Fish and Wildlife Office received $3.18 
million from the consultation subactivity (7 percent of the national 
total).
    As a result of this workload-based allocation of consultation 
funding, there are not other, less-impacted offices that could serve as 
a source of under-utilized staff who could be detailed to the Carlsbad 
Fish and Wildlife Office. Instead, each of our Ecological Services 
field offices is equally impacted, given their expected workload and 
our available resources. Because of their high absolute consultation 
workload (and despite their correspondingly high share of the 
consultation allocation), the impacts to our Carlsbad Fish and Wildlife 
Office (and several other similarly large field offices) are more 
apparent; however, a significant reallocation of resources from our 
other offices to Carlsbad would only shift the impact and make it 
disproportionately high in another area.
    Furthermore, while the use of details can have significant merit in 
many circumstances, many of the regional habitat conservation planning 
efforts and complex section 7 consultations faced by the Carlsbad Fish 
and Wildlife Office do not easily lend themselves to short-term and 
temporary increases in staffing. These efforts require long-term staff 
commitments to build relationships with the local jurisdictions in 
developing habitat conservation plans. Complex section 7 consultations 
also require scientific knowledge on the biology of endangered and 
threatened species affected by a project, and this knowledge is often 
built over time by biologists working in the office. Regardless, we 
will continue to explore and expand our efforts to detail staff from 
other offices to assist in addressing the significant workload faced by 
Carlsbad (and several other offices) when appropriate.

    Answers to questions submitted by Congressman Frank Pallone, Jr.

Endangered Species Funding

    1. The President's budget recommends a modest increase for the FWS 
listing account under the ESA. However, my understanding is that FWS 
currently has a backlog of more than 250 species awaiting listing at a 
cost of more than 130 million dollars. To deal with this backlog, FWS 
needs about $25 million per year over the next five or so years. Given 
this, why is the FWS not requesting more money for listing under ESA?
    The President's budget request for the Endangered Species listing 
program is the largest increase ever requested for this element of the 
Endangered Species program. This element, which includes funding for 
the Service to act on petitions, listing determination and critical 
habitat designations, was developed, as were all other aspects of the 
budget, in recognition of the need to control domestic spending, and in 
light of all the priorities of the Service, the Department and other 
government agencies.
    Also, would you be able to provide the subcommittee with:
    a. A list of species you intend to list this year.
    [GRAPHIC] [TIFF OMITTED] T5772.005
    

    b. A year-by-year accounting of the species listed since the Bush 
Administration took office.
    Below are tables listing the species that were listed as threatened 
or endangered for 2001-2002.
[GRAPHIC] [TIFF OMITTED] T5772.006


    c. The entire list of outstanding species that cannot currently be 
listed under ESA due to lack of funds?
    Attached is a list of all of the candidate species from the 
Service's Threatened and Endangered Species System (TESS). (See 
Attachment 4). However, even once the listing for these species has 
been proposed, changes in circumstances affecting the species, or new 
information that is received during the public comment period, may lead 
the Service to determine that the species should not be listed. 
Therefore, it cannot accurately be concluded that all or any given 
percentage of these would actually be listed even if funding were 
available to immediately initiate the listing process for all candidate 
species.

    2. I also understand that there may be more than 200 currently 
listed species that are in serious danger of extinction in the next 
several years in large part due to lack of funding for recovery 
activities. Given this, can you explain why you are not requesting more 
funding for recovery? Also, can you provide the subcommittee with a 
list of these species?
    Every 2 years, the Service is required to report to Congress on the 
status of species listed as threatened and endangered. We are now 
developing the Fiscal Year 2002 Recovery Report to Congress. In our 
initial assessments conducted to prepare this Report, we have 
identified 216 (17 percent) of the 1,254 listed species as 
``declining'' or known to be decreasing in numbers or whose threats to 
their continued existence are increasing in the wild since 1996. (See 
Attachment 5). We emphasize that these are our preliminary findings, 
which may be refined with further review as we finalize the Report.
    The Service is directing considerable resources towards halting the 
decline of species most at risk of extinction and the 1,000 other 
listed threatened and endangered species. For Fiscal Year 2004, the 
Service has requested a $2 million increase over the Fiscal Year 2003 
request for the recovery program, in part to stabilize high priority 
declining species. However, the Service also has many statutory 
obligations under the ESA and other laws, as well as many on-going 
commitments towards existing recovery efforts that limit our ability to 
direct more resources towards these species. Wherever possible, 
endangered species funding is leveraged with the limited discretionary 
funding available from other Service programs and our partners to 
achieve the greatest improvements in the status of rare endangered 
species.

    3. There have been reports that ESA recovery money is often 
siphoned off to pay for consultation activities. Is this the case? If 
so, this siphoning of funds would suggest a funding shortfall in the 
consultation as well as recovery budgets. Why is the FWS not requesting 
additional funding for the consultation budget rather than siphoning 
off desperately needed recovery funds?
    The allocation of staff resources within the Service's Endangered 
Species program was recently reviewed by the General Accounting Office. 
The results of the GAO's review are summarized in their report 
``Endangered Species Program: Information on How Funds Are Allocated 
and What Activities Are Emphasized'' (GAO-02-581), issued in June 2002. 
We would be pleased to provide you with our response to the GAO report.
    While the GAO review raised valid concerns that there may be 
inaccuracies in how Endangered Species Program activities are charged 
to budgetary elements, we do not believe that the fieldwork performed 
was sufficient to conclude that spending on endangered species 
activities is materially different than how Congress intended. In 
addition, the Department's efforts to implement Activity Based Costing 
by Fiscal Year 2004 will help ensure that endangered species activities 
are accurately charged to budgetary elements. Throughout the ABC 
workload tracking process, the Service will be reviewing its processes 
for recording time charges and taking necessary steps to ensure that 
the Endangered Species Program is adhering to reprogramming policies.

National Wildlife Refuges

    1. The Wildlife Refuge System has a demonstrated annual need of at 
least $300 million more for operations and maintenance than it now 
receives. Why is the Administration only asking for a $34 million 
increase?
    The National Wildlife Refuge System documents needs as a planning 
tool for future budget requests, and doesn't anticipate fulfilling all 
or even most of those needs in any given year. Annual funding requests 
are carefully balanced against these priorities and those of other 
bureaus within the Department and other federal agencies. The National 
Wildlife Refuge System has experienced healthy funding growth in recent 
years that has enabled the System to address many important needs and 
leverage partner contributions.

    2. I am concerned that the request for refuge land acquisition has 
been substantially decreased by $58 million, or a 59% decline below 
Fiscal Year 2002. A recent report identified a $3 billion backlog of 
needed acquisitions in the Refuge System. Considering the significant 
need in the field, what is the rationale for this request?
    The federal side of the Land and Water Conservation Fund has made 
an outstanding contribution to protecting America's land over the past 
38 years. The Service does not have an exact forecast on what the land 
acquisition picture will look like in the future. The current reality 
is that we are faced with increasing pressure associated with 
socioeconomic factors such as urban sprawl, recreational development 
and general population growth. With these factors in mind it is very 
difficult to gauge whether the pace of land acquisition has crested or 
it is still on the rise. However, this request reflects a more limited 
federal land acquisition program with increased emphasis on 
conservation partnerships. This request also reflects an emphasis on 
the need to balance land acquisition against maintaining lands already 
under our jurisdiction. The amounts included in the budget will be used 
to fund high priority projects that are important in the Service's 
program to protect the Nation's wildlife. The Administration is 
dedicated to protecting and passing on to future generations of 
Americans our important recreational and scenic lands, wildlife 
habitats, improved waterways, and cultural resources.

    3. What is the Administration's total estimate of operation and 
maintenance backlog for the National Wildlife Refuge System? Does the 
backlog include projects traditionally within the construction 
accounts, including roads and parking lots? If not, please estimate the 
cost of this backlog as well.
    The NWRSs Condition Assessment Program was established in Fiscal 
Year 2001 to systematically assess the condition of refuge system's 
real property. The condition of all NWRS property with replacement 
costs at more than $50,000 will be assessed every 5 years. Refuge 
system maintenance databases have been modified to meet DOI standards 
and data requirements for property condition assessments. The 5-year 
program to complete comprehensive conditions assessments for all field 
stations is presently on target. To date, 40 percent of all facilities 
have had comprehensive condition assessments completed through the 
field inspection stage. The Facility Condition Index (FCI), which is 
the ratio of deferred maintenance needs to replacement costs, will 
ultimately be used to rank and verify facility maintenance needs at 
field stations and provides information for DOI strategic planning 
within the NWRS.
    Due to changes in government-wide accounting rules, a Department 
wide initiative to implement new software to track facility maintenance 
activities, new information being generated by condition assessments, 
and new Department wide strategic planning efforts; data management on 
NWRS funding is in a state of transition. Total funding for management 
of the NWRS are described below and segmented based on the most 
appropriate budget source for particular aspects. All information is 
portrayed as of the beginning of Fiscal Year 2003; projects funded in 
Fiscal Year 2003 and requested in Fiscal Year 2004 are still included 
in the datasets.
    1) Projects most suitable for Refuge Operations budgets: The Refuge 
Operating Needs System in past years included facility improvement 
projects, but it has been streamlined to include only staffing and 
mission critical projects. Projects are prioritized into Tier 1, 
highest priority needs, and Tier 2, important but not as urgent needs, 
as summarized in the table below.

[GRAPHIC] [TIFF OMITTED] T5772.007


    2) Facility maintenance projects most suitable for funding from 
Refuge Maintenance, Construction, or Refuge Roads (Transportation 
Department) budgets: Using the latest methodology for calculating 
deferred maintenance, as of the beginning of Fiscal Year 2003 the 
Refuge System has 9,159 projects that contribute to the deferred 
maintenance for fixed facility assets. The total amount of maintenance 
is still tentative as Comprehensive Condition Assessments are still 
underway to evaluate all field facilities, and data from a nationwide 
inventory of Refuge Roads has not yet been fully incorporated into 
datasets. These assessments, which require 5 years to complete, are 
currently in their third year.
    The 9,159 projects referenced above have a maintenance component; 
however, the projects may also have capital improvement components as 
well. The tables below segment needs into projects best suited for 
funding from Refuge Maintenance (generally less than $500,000 in cost 
per project), Construction (more complex projects generally over 
$500,000 in cost per project), and Refuge Roads (public roads and 
related projects funded through the Transportation Department under the 
Transportation Efficiency Act for the 21st Century). Lines for Refuge 
Maintenance and Construction projects exclude projects that would be 
eligible for Refuge Roads funding.

[GRAPHIC] [TIFF OMITTED] T5772.008


    3) Equipment and vehicle fleet: The Refuge System has a diverse 
equipment fleet that includes about 4,000 transportation vehicles and 
about 4,000 items of agricultural and construction equipment. Since 
equipment repair and replacement are no longer categorized as deferred 
maintenance, there is no backlog figure available for equipment and 
vehicles.
    4) Projects that are 100 percent capital improvement: To satisfy 
public demand for visitor amenities and to meet needs for habitat 
management purposes, new facilities such as roads, trails, water 
management facilities, maintenance buildings, restrooms, boat ramps, 
and other visitor facilities have been identified through completion of 
Comprehensive Conservation Plans or other means. These projects are 
summarized below under the categories of small construction (projects 
generally less than $500,000 in cost suitable for funding from annual 
budgets) and large construction (projects generally over $500,000 in 
cost that would be funded from the multi-year Construction budget). 
Large construction projects are further subdivided between visitor 
centers and other facilities because the total amount of need is 
heavily influenced by the amount of funding identified for visitor 
centers.

[GRAPHIC] [TIFF OMITTED] T5772.009


    In light of these backlogs, how can the refuge system meet its 
mission for the 21st Century without adequate resources for both 
operations and maintenance and land acquisition?
    The President's Budget provides adequate resources to address the 
Services high priority needs, as well as plan for the future of the 
System to ensure the System meets its mission in the 21st century.
    The Refuge System is working to identify highest priority needs and 
focus on them. We actively recruit volunteers and outside partners to 
work with us in our various efforts. We also strive to plan facility 
development in a manner that calls for development of modest facilities 
that can be economically managed once they are built. Land acquisition 
priorities call for finishing existing refuges rather than starting new 
refuges. Collectively, these efforts allow us to meet highest priority 
needs and appropriately plan for the future.

Migratory Bird Treaty Act Concerns

    1. Last week the USFWS proposed to allow the depredation of double 
crested cormorants in 24 states without the permit required under the 
Migratory Bird Treaty Act. The fundamental justification for 
depredation is that cormorants eat fish; therefore fewer cormorants 
will mean more fish. I am concerned that piscivorous birds are being 
wrongly blamed for fisheries declines without scientific basis. Does 
the FWS anticipate depredation for other fish-eating bird species such 
as eagles or ospreys? What criteria will the Fish and Wildlife Service 
consult if another piscivorous bird species emerges as an alleged 
threat to fish populations? Has the Fish and Wildlife Service ever 
issued a similar depredation order for another non-game bird species 
listed under the MBTA?
    The fundamental justification for the depredation order is not that 
cormorants eat fish, but that cormorants can have detrimental impacts 
on a variety of public resources (including fish, other birds, and 
vegetation) and that the agencies who have trust responsibility for 
these resources or their protection need to be given increased 
regulatory flexibility, with Service oversight, in the management of 
cormorants. Service has never blamed piscivorous birds for fisheries 
declines, but has stated that localized impacts do occur, a position 
which is fully supported by the available science. We have not 
experienced many problems with depredation by eagles or osprey. All 
requests are dealt with according to regulations found in 50 C.F.R. 
Sec. 21.41, which governs the issuance of depredation permits for 
migratory birds. The Service has established depredation orders for 
other non-game birds (blackbirds, cowbirds, grackles, crows, and 
magpies; certain sparrows and finches; purple gallinules; and jays) for 
the protection of agricultural resources. In 2001, the Service issued a 
conservation order for mid-continent light geese to protect public 
resources--specifically, habitat.

    2. I have heard that the Department of the Interior is considering 
promulgating rules or regulations that would allow federal agencies to 
incidentally take migratory birds under the Migratory Bird Treaty Act. 
The FWS is instrumental in protecting these birds under the MBTA, and I 
feel that allowing any sort of incidental take will lead to higher 
mortality rates if agencies no longer have the incentive to implement 
preventative strategies. Are there plans to allow federal agencies 
incidental take of migratory birds under the MBTA? If so, will you 
please submit this to us in writing? Is this rulemaking part of the 
Fish and Wildlife Services activities to implement E.O. 13186?
    In accordance with Executive Order (EO) 13186, the Service is 
currently in the process of drafting Memorandums of Understanding (MOU) 
with 15 federal agencies whose activities may affect migratory birds. 
Several of these are close to being finalized. Subsequent to completing 
with a particular agency a MOU that meets conservation standards, 
establishes appropriate processes to minimize and mitigate for take, 
and promotes the conservation of migratory bird populations consistent 
with the EO, the Service will issue special purpose permits under 50 
CFR Sec. 21.27 to address actions specified in the MOU. These permits 
should not result in a higher mortality rate of migratory birds but 
should actually have the opposite effect. We believe that requiring 
agencies to address migratory bird conservation, while implementing 
actions to meet their mission, will help ensure that migratory birds 
concerns are more adequately addressed than at present. Issuing these 
permits should also decrease the potential for litigation brought 
against other federal agencies by private interests under the 
Administrative Procedures Act. No rulemaking relative to implementation 
of EO 13186 is currently proposed by the Service.

    3. In a Federal Register Notice dated January 24, 2003, the 
Administration asked for public comment on proposed changes in the 
Endangered Species Act that would allow the EPA to grant itself 
exemption from Section 7, which requires consultation with FWS or NOAA 
Fisheries on pesticide registrations that may impact endangered 
species. Considering that in the past ten years the EPA has failed to 
complete a single Section 7 consultation on a pesticide it has 
registered, despite repeated formal requests from FWS, why is the EPA a 
good candidate for exclusion from consultation requirements?
    On January 24, 2003, the Service, the National Marine Fisheries 
Service (NOAA Fisheries), and the Environmental Protection Agency (EPA) 
jointly published an advance notice of proposed rulemaking (ANPR) which 
announced our intention to promulgate ``counterpart regulations'' under 
the Endangered Species Act. These counterpart regulations would address 
ways to better integrate EPA's requirements for pesticide registration 
under the Federal Insecticide, Fungicide and Rodenticide Act with the 
ESA consultation requirements, with the goal of more effective and 
efficient consultations on EPA's pesticide registrations. None of the 
possibilities considered in the ANPR would allow EPA to grant itself 
exemption from section 7 of the ESA.
    One approach we are considering is a modification of the informal 
consultation procedures for EPA pesticide registrations. Under the 
current regulations, agencies that determine that their proposed 
actions may affect, but are not likely to adversely affect, listed 
species or designated critical habitat must obtain written concurrence 
from the Service and NOAA Fisheries, as appropriate for the species 
affected, before informal consultation can be concluded. In the ANPR, 
we asked the public to comment on whether we should pursue, through 
counterpart regulations or some other means, two potential approaches 
to conducting pesticide consultations: (1) if EPA determines that a 
pesticide registration is not likely to adversely affect listed species 
or designated critical habitat, then no further consultation is 
required; and (2) if EPA determines that a pesticide registration is 
not likely to adversely affect listed species or designated critical 
habitat, EPA would continue to consult with the Services but EPA would 
not need to obtain their written concurrence to satisfy EPA's section 7 
requirements. Either approach would make better use of EPA's scientific 
and technical capabilities while allowing the Services to focus their 
resources on consultations for pesticide registrations that are likely 
to adversely affect listed species or their designated critical 
habitat.
    The ANPR asks the public to comment on these and other possible 
revisions to the consultation process for pesticide registrations. We 
are considering the public comments that we have received, and expect 
to propose any counterpart regulations this spring. The primary goal of 
these counterpart regulations will be to improve the efficiency and 
effectiveness of section 7 consultations on pesticide registrations, 
while also improving the public's understanding of EPA's 
responsibilities under FIFRA and the ESA. While the counterpart 
regulations may involve minor changes in how the requirements of 
section 7 are met, we will not propose any exemption from these 
requirements; for example, even if we propose that EPA does not need 
Service concurrence on a not likely to adversely affect determination, 
this determination would still be subject to the same standards and 
requirements of other not likely to adversely affect determinations, 
and will be subject to the citizen suit provision of the ESA and 
possible judicial review.

          Answers to questions submitted by Delegate Bordallo

    1. Is the Fish and Wildlife Service maintaining their effort to 
control for and mitigate against the brown tree snake in Guam? 
Specifically, how much funding, if any, is included for this purpose in 
the requested Fiscal Year 2004 budget for the Fish and Wildlife 
Service? And how will this funding be used to control and eradicate the 
brown tree snake in Guam?
    The Fish and Wildlife Service will maintain its efforts to control 
for and mitigate against the brown tree snake (BTS) in Guam. From 1999 
through 2002, the Service, through the Aquatic Nuisance Species (ANS) 
Program, has allocated between $100,000 and $175,000 per year for 
activities to control BTS. The Service has allocated $170,000, through 
base funding, for BTS control in 2003 and includes a comparable level 
of funding in the Fiscal Year 2004 President's Budget. The funding will 
be used to continue and build upon the Service efforts outlined below.
    BTS Prevention Activities on Guam. The Service supports efforts on 
Guam conducted by APHIS--Wildlife Services to inspect shipments of 
household goods being shipped from Guam to the mainland U.S. and other 
areas.
    BTS Control Efforts on Guam. The Service is working in partnership 
with other agencies to construct a ``typhoon proof'' snake barrier 
around a forested site, 54-hectares in size, on Anderson Air Force 
Base, Guam. The project is a multi-agency (territorial and federal) 
effort to begin restoration of endangered species on Guam. Funding for 
this effort has come from multiple sources within the Department of the 
Interior.
    Implement ANS Task Force Responsibilities. The Service is 
designated Chair and provides staff support to the ANS Task Force's BTS 
Control Committee as an essential element to the success of this broad 
interjurisdictional effort. A cooperative Plan developed by the 
Committee continues to serve as the basis for cooperative action by 
federal agencies and Pacific jurisdictions and for establishing funding 
requirements. This plan was supplemented by the 1999 report from the 
DOI Office of Insular Affairs on ``Integrated Pest Management 
Approaches to Preventing the Dispersal of the Brown Tree Snake and 
Controlling Snakes in Other Situations.''

    2. Can you please provide an update on the recovery program for 
endangered species on Guam, particularly for the Mariana fruit bat, 
Mariana crow, and the Micronesian kingfisher?
    The Mariana fruit bat was listed as endangered in 1984. A recovery 
plan for this species was finalized in 1990. A graduate student from 
the University of Guam has been funded to study the movement patterns 
and foraging behavior of Mariana fruit bats on Guam. This study will 
help to assess habitat use of the Guam population and further 
management efforts for the species. The 1990 recovery plan for the 
Mariana fruit bat describes tasks in three categories: Category 1-18 
tasks to minimize mortality; Category 2 - 9 tasks to determine 
ecological requirements of fruit bats; and Category 3 - 4 tasks at 13 
locations to secure and protect essential forest ecosystems. Of the 31 
tasks identified in the 1990 recovery plan, 21 are ongoing or have been 
completed.
    In Category 1, 12 of the 18 tasks are underway or ongoing and these 
six tasks are outstanding:
    <bullet> Determine the identity and origin of imported fruit bats 
through standard monitoring of imported bats or the use of 
electrophoretic tests and comparison with museum specimens.
    <bullet> Establish appropriate regulations on the fruit bat import 
trade into Guam to prevent confusion with protected Guam bats.
    <bullet> Develop and implement a multi-agency anti-poaching 
strategy which defines roles and responsibilities of all involved 
agencies.
    <bullet> Meet periodically to review effectiveness and refine 
anti-poaching strategies.
    <bullet> Guam police department law enforcement efforts.
    <bullet> Determine the extent of predation on fruit bats by 
snakes.
    In Category 2, five of the nine tasks have been addressed or are 
underway and these four tasks are outstanding:
    <bullet> LDetermine the phenology of bat foods.
    <bullet> LGather and analyze information on the breeding biology of 
Mariana fruit bats.
    <bullet> LDetermine factors limiting reproductive success.
    <bullet> LDetermine incidence and causes of infant mortality.
    In Category 3, the four tasks have been addressed at locations 
mostly on Federal land, and baseline surveys have been undertaken over 
most of the island.
    The Mariana crow was listed as endangered in 1984. A recovery team, 
including a Guam representative, was formed several years ago to help 
plan and implement a recovery program for the species on Guam and Rota. 
The team recently submitted a draft revised recovery plan for the 
species which is being reviewed in the Service's Pacific Regional 
Office in Portland, Oregon. The Guam Division of Aquatic and Wildlife 
Resources (DAWR), using federal funds, has been translocating chicks 
and eggs from Rota, raising them in captivity, and releasing them in 
northern Guam over the last several years to increase the population on 
Guam. Guam DAWR also continues to monitor the remaining crows and 
protect crow nests from brown treesnake predation.
    The Micronesian Kingfisher was listed as endangered in 1984. A 
recovery committee, including a Guam representative, was recently 
formed to develop and implement a recovery program for the species. 
Currently, the recovery plan for the kingfisher is being revised and 
plans are underway to bring kingfishers back to Guam for captive 
breeding. When adequate numbers are available, the Guam Division of 
Aquatic and Wildlife Resources hopes to begin reestablishing 
kingfishers on the island.

    3. What is the status of the critical habitat proposed for Guam? 
Does the Fish and Wildlife Service have a timetable for their 
designation process, particularly noting their delay decision and 
extension of the public comment period last month due to Supertyphoon 
Pongsona?
    On April 3, 2000, the Marianas Audubon Society and the Center for 
Biological Diversity filed a suit to challenge the Service's 1994 
withdrawal of critical habitat for six Guam species, the Mariana fruit 
bat (Pteropus mariannus mariannus), little Mariana fruit bat (Pteropus 
tokudae), Guam Micronesian kingfisher (Halcyon cinnamomina 
cinnamomina), Mariana crow (Corvus kubaryi), Guam broadbill (Myiagra 
freycineti), and Guam subspecies of bridled white-eye (Zosterops 
conspicillatus conspicillatus). On September 7, 2000, the Service filed 
a motion to voluntarily remand the withdrawal and not prudent decision. 
This motion set a deadline of June 3, 2003, for the Service to 
determine prudency and designate final critical habitat (proposed 
critical habitat for these species was published on December 5, 2002), 
if prudent, for these six species. On June 13, 2003 the District Court 
of Guam, acting on a motion by the Government of Guam, extended the 
deadline for submission of the Guam critical habitat final designation 
and set a status conference for October 7, 2003.
                                 ______
                                 
                                 [GRAPHIC] [TIFF OMITTED] T5772.010
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.011
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.012
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.013
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.014
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.015
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.016
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.017
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.018
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.019
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.020
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.021
                                 

                                 [GRAPHIC] [TIFF OMITTED] T5772.022
                                 

    [Responses to questions submitted for the record by the 
National Oceanic and Atmospheric Administration follow:]

    Questions for the Record from the Honorable Wayne T. Gilchrest, 
 Chairman, Subcommittee on Fisheries Conservation, Wildlife and Oceans

                      NOAA's FY '04 Budget Request

                             march 19, 2003

General Fisheries Management Questions for Vice Admiral Conrad 
        Lautenbacher, Jr.

    1. Question: How much funding is being proposed for cooperative 
research programs for FY '04? Has NMFS identified regional or fishery 
specific priorities for this money?
    Answer: NOAA's FY 2004 budget request includes $9.5 million for 
cooperative research. This amount includes $2.75 million for the 
national cooperative research program, $3.75 million for northeast 
cooperative research and $3.0 million for southeast cooperative 
research.
    NOAA Fisheries is in the process of identifying priorities to be 
addressed by cooperative research. This approach varies from region to 
region ranging from bottom-up planning among scientists and the fishing 
industry to a formalized solicitation selection. In addition, a number 
of projects unfunded in FY 2003 will likely be a component of the FY 
2004 cooperative research programs:
    <bullet> Yellowtail flounder tagging study (northeast)
    <bullet> Study of mixing rates of Atlantic herring stock 
components in the Gulf of Maine-Georges Bank region (northeast)
    <bullet> Cooperative research on the development of gear 
modifications and fishing practices to reduce turtle takes in the U.S. 
Atlantic pelagic longline fisheries (southeast)
    <bullet> Assessment of lobster trap-fishing habitat impacts in the 
northwestern Hawaiian islands (Pacific Islands Region)
    <bullet> Central California groundfish ecology survey (southwest)
    <bullet> Characterizing the habitat of adult Pacific salmonids 
(southwest)
    <bullet> Fixed gear survey of sablefish in Oregon (northwest)
    <bullet> Feasibility of acoustic surveys to estimate distribution 
and abundance of pelagic west coast rockfishes (northwest)
    <bullet> Pre-recruit survey of Pacific whiting (northwest)
    <bullet> Measures to eliminate seabird injuries and mortalities 
from interactions with trawl nets and cables (Alaska)
    <bullet> Cooperative studies of essential fish habitat and mobile 
fishing gear effects in the Aleutian Islands (Alaska)
    <bullet> Augmentation of annual red king crab survey in the 
Eastern Bering Sea (Alaska)

    2. Question: The FY '03 appropriation includes funding of $17 
million for increased stock assessments, particularly off the west 
coast. How does the FY '04 request compare with this level of funding?
    Answer: NOAA's FY 2004 budget request includes a total of $14.9 
million for increased stock assessments, this is $3 million dollars 
over the FY 2003 request. NOAA's request proposes continuation of 
priority investments in fishery stock assessments, including charter 
vessel days-at-sea to support regionally-identified priority surveys, 
advanced sampling technology, and programmatic needs in applied fishery 
oceanography studies. NOAA's investments in fishery science 
infrastructure and staff resources will improve the comprehensiveness, 
timeliness, quality, and communication of state-of-the-art assessments 
as outlined in the Stock Assessment Improvement Plan. The additional 
$5.0 million provided in FY '03 by Congress over what was requested in 
FY 2003 will enable NOAA to accelerate projects not expected to start 
until FY 2004. NOAA will also continue its high priority stock 
assessments from FY 2003.

    3. Question: Can you give us an update on the agency's progress in 
deploying new fishery research vessels? How much is in the FY '04 
request for these new vessels?
    Answer: NOAA awarded a contract for a new fishery research vessel 
with contract options for three additional vessels on January 1, 2001. 
The shipyard that was awarded the contract, VT Halter Marine, Inc., 
subsequently encountered financial difficulties and was briefly under 
bankruptcy court protection. The financial issues have since been 
resolved and the company has emerged from bankruptcy. Significant 
progress has been made on construction of the first vessel, OSCAR 
DYSON, with delivery to NOAA expected to occur August 31, 2004. With 
funding provided in our FY 2002 and FY 2003 appropriations, NOAA plans 
to award the contract option for construction of the second vessel in 
August 2003. The expected delivery date for the second vessel is 
September 2006.
    Due in part to uncertainty about the financial status of the 
shipyard during formulation of the FY 2004 budget, and to allow 
adequate progress on FSV I and II, the Fiscal Year 2004 President's 
Budget does not include a request for funds for the third fishery 
survey vessel. NOAA has until January 31, 2005 to exercise the option 
to build FSV III under the existing contract with VT Halter Marine. The 
FSV contract options are written so that the options can be awarded 
when the funds become available and until expiration of the option.

    4. Question: The increase in the FY '03 funding for stock 
assessments will be a substantial increase. Will the agency be 
contracting with private or university vessels to do some of this 
fishery survey work?
    Answer: Out of an estimated total of 5453 days at sea, NOAA 
Fisheries plans to charter approximately 3553 or almost 65% of its 
total vessel needs for FY 2003. Academic and private charter ships are 
used to the maximum extent possible to conduct NOAA Fisheries survey 
work.

    5. Question: Included in the FY '03 appropriation is $100 million 
for fisheries disasters. Can you tell us how quickly the money will get 
to the affected fishermen and will the funding go through the states or 
will NMFS administer the money?
    Answer: NOAA is working to provide these funds to the states as 
expeditiously as possible and in accordance with the applicable 
statutory and regulatory requirements. Funds intended for fishermen in 
Alaska and Hawaii, as well as shrimp and blue crab fishermen, will be 
administered through the applicable states. Administrative and 
logistical matters, such as eligibility and the specific method of 
paying funds, will be resolved by the states. The actual timing for the 
receipt of funds by the individual fishermen will be dependent on these 
procedures and schedules established by the states.

    6. Question: How much funding is included in the FY '04 request for 
gear research? Will the agency be working cooperatively with the 
fishing industry to develop cleaner gear that also will work to catch 
fish?
    Answer: NOAA Fisheries is currently conducting gear research in 
each of its five regional science centers. Some examples of the types 
of projects NOAA Fisheries is spearheading include gear modifications 
to reduce bycatch of:
    <bullet> Turtles and red snapper in Atlantic Ocean and Gulf of 
Mexico otter trawl fisheries
    <bullet> Halibut, cod, and pollock in Alaska groundfish trawl 
fisheries
    <bullet> Turtles and non-target finfish in Atlantic pelagic 
longline fisheries
    <bullet> Seabirds and turtles in Hawaii pelagic longline fisheries
    Within the $2.8 million request for reducing bycatch is a request 
for $0.6 million to expand and improve bycatch reduction research and 
testing. This testing will be achieved through cooperative research 
activities. Research and testing (including independent monitoring), 
using leased vessels to test bycatch reduction devices, will address 
innovative methods to reduce bycatch. The vessels will be leased to 
follow the experimental protocols developed by this initiative, while 
gaining insight into the effectiveness of the bycatch reduction devices 
through the use of the technologies by the fishermen who work these 
fisheries.

    7. Question: NMFS has recently released a national plan on bycatch. 
Can you give the Subcommittee more details on what will be done in FY 
'04 and how much funding is available for these activities?
    Answer: The 1996 Magnuson-Stevens Act amendments imposed a 
significant new requirement in National Standard 9 that conservation 
and management measures shall, to the extent practicable, (A) minimize 
bycatch and (B) to the extent bycatch cannot be avoided, minimize the 
mortality of such bycatch. There is great concern that harvesting and 
then discarding catch in most fisheries has a detrimental effect on the 
marine ecosystem and on the condition of the targeted species. The 
national bycatch goal, as set forth in the NOAA Fisheries National 
Bycatch Strategy is ``to implement conservation and management measures 
for living marine resources that will minimize, to the extent 
practicable, bycatch and mortality of bycatch that cannot be avoided.'' 
This includes meeting the current bycatch reduction requirements of 
relevant statutes including National standard 9 of the Magnuson-Stevens 
Act, Section 118 of the MMPA, and the take prohibitions of the ESA.
    Currently, NOAA Fisheries spends $35.3 million on bycatch related 
activities, including all observer data collection effort. The FY 2004 
budget requests an increase of $2.8 million specifically for reducing 
bycatch. This initiative has three components:
    (1) Within the $2.8 million, $0.2 million will be used to enhance 
and coordinate technical expertise to respond to bycatch issues. NOAA 
Fisheries believes bycatch reduction can be enhanced and better 
coordinated utilizing national bycatch reduction expertise of gear 
specialists, fishery and protected species experts, socio-economic 
specialists, and outreach experts. These specialists will be located 
across the country and will examine bycatch reduction pertaining to 
both fisheries gear needs (i.e., conservation engineering) and 
protected species and marine mammal interactions. This group will 
examine existing bycatch reduction methods, evaluate their 
effectiveness, and design and test new methods.
    (2) Additional funds ($0.6 million) for public/private bycatch 
reduction research and testing would expand and improve cooperative 
research activities in three fisheries per year. Research and testing 
(including independent monitoring), using leased vessels to test 
bycatch reduction devices, will address innovative methods to reduce 
bycatch. The vessels will be leased to follow the experimental 
protocols developed by this initiative, while gaining insight into the 
effectiveness of the bycatch reduction devices through the use of the 
technologies by the fishermen who work these fisheries.
    (3) Additional funds ($2.0 million) to expand the number of bycatch 
observers would provide for approximately 2,000 additional observer sea 
days to enhance NOAA Fisheries efforts to expand and modernize 
fisheries observer programs for the collection of bycatch data from 
commercial and recreational fishing vessels. The improved data will 
allow better assessment of impacts of fishing activities on living 
marine resources--finfish, shellfish, marine invertebrates, marine 
mammals, sea turtles, and seabirds.
    Fisheries change from year to year due to a variety of 
environmental, economic, and management conditions; their effects on 
non-target or undersized finfish and protected species can change 
annually as a consequence. Bycatch levels need to be monitored 
throughout the range of the fisheries to quantify the removal of 
protected species and discarded finfish and to identify alternate 
fishing practices to reduce bycatch.
    Fisheries requiring increased observer coverage and the focus of 
the requested 2000 additional observer days under the bycatch 
initiative include:
    <bullet> Mid-Atlantic and New England scallop dredge fisheries. 
Bycatch of incidental take of ESA-listed sea turtles and regulated 
groundfish species;
    <bullet> West Coast groundfish open access fishery. Bycatch of 
overfished finfish in the open access components of the fishery;
    <bullet> Mid-Atlantic haul seine, purse seine, pound net, stop 
net, gill net and pot fisheries. Significant incidental take of 
protected species, such as marine mammals and sea turtles;
    <bullet> Gulf of Mexico and Atlantic shrimp otter trawl fishery. 
Bycatch of juvenile red snapper and other commercially valuable 
finfish, as well as sea turtles;
    <bullet> Alaska halibut longline fishery. Bycatch of seabirds;
    <bullet> California, American Samoa, and Guam pelagic longline 
fisheries. Bycatch of Pacific sea turtle populations;
    <bullet> Atlantic recreational charterboat and headboat fisheries. 
Bycatch of finfish, sea turtles, marine mammals, and/or seabirds;
    <bullet> Alaska gillnet and purse seine fisheries. Incidental take 
of marine mammals and seabirds;
    <bullet> Atlantic and Gulf of Mexico reef and bottom longline and 
bandit rig fisheries. Bycatch of non-target and undersize finfish;
    <bullet> Hawaii bottomfish fishery. Interactions with Hawaiian 
monk seals, a critically endangered species; and
    <bullet> Atlantic and Gulf of Mexico reef and bottom longline and 
bandit rig fisheries. Bycatch of non-target and undersize finfish.

    8. Question: What is the latest on the new TEDs requirement? Is 
there any funding for helping the shrimp industry to finance this new 
gear requirement since they are currently facing an economic crisis?
    Answer: The new TED requirements to enhance the effectiveness of 
TEDs in reducing sea turtle deaths that result from trawling in the 
southeastern United States were published in the Federal Register on 
February 21, 2003. The rule took effect in state and federal waters on 
April 15, 2003 in the Atlantic and will take effect on August 21, 2003 
in the Gulf of Mexico. Fishermen have until those dates to complete 
what, for most, are minor modifications to increase the size of the TED 
escape openings through which turtles exit. The main effect of the new 
rule is that shrimpers will have to ensure that the openings on their 
TEDs are large enough to release large sea turtles--up to the size of 
large loggerhead turtles in inshore waters (bays and sounds inside the 
COLREGS lines), and up to the size of leatherback turtles in offshore 
waters of the Gulf and Atlantic and inshore waters of Georgia and South 
Carolina. These turtles are too large to escape through the minimum 
escape opening sizes required in the previous regulations. The new 
requirements are expected to reduce deaths of loggerhead turtles--a 
threatened species--by tens of thousands each year and will reduce 
deaths of leatherback turtles--an endangered species--by thousands each 
year. NOAA Fisheries is consulting with the Department of State 
regarding how the new rule will affect the implementation of P.L. 101-
162 which, in part, requires foreign nations to have sea turtle 
conservation programs in place comparable to the U.S. The use of TEDs 
has been an integral part of these conservation programs. Global use of 
the larger opening TEDs will greatly enhance the conservation and 
recovery of threatened and endangered sea turtles.
    Congress has appropriated $35 million to aid the southeast United 
States shrimp fishery. NOAA Fisheries is working with the states and 
industry to distribute this money. Additionally, a substantial number 
of fishermen in the Atlantic (up to 70% in some areas) and some in the 
Gulf (up to 15% in some areas) already have TEDs that comply with the 
new regulations and won't have to make any changes. Most of the rest 
will only have to make modifications to the escape hole and flap on 
their existing TEDs. The modification consists of removing the webbing 
flap that covers the escape opening, cutting away additional meshes to 
enlarge the escape opening, and installing a new, larger flap over the 
escape opening. Fishermen can make the modification in under thirty 
minutes, with less than $25 of material costs, or spend an estimated 
$45 to have the modification done at a net shop. The regulations also 
increase the minimum size of the TED grid (the hardware portion of the 
TED). Because larger TED grids perform better at excluding debris and 
retaining shrimp, most fishermen use TED grids that exceed the minimum 
required sizes already. The regulatory change is expected to affect few 
to no fishermen in the Atlantic and only a small percentage of the 
fishermen in the Gulf.

    9. Question: Has FDA been cooperative in increasing inspections for 
illegal antibiotics which have been found in some shrimp imports and 
are they working cooperatively with NMFS in these activities?
    Answer: NOAA Fisheries has had a long, collegial working 
relationship with FDA. We have had numerous Memorandums of 
Understanding (MOUs) and Interagency Agreements with FDA, or with other 
federal agencies involving FDA's participation, dealing with such 
matters as seafood safety and inspection operations, research, 
inspecting animal feed ingredients (fish meal), providing funds to 
determine the effects of fish consumption on human mercury toxicity, 
transferring funds to assist their agency in their molluscan shellfish 
food safety assistance project and other funds to partially support the 
ISSC office in Columbia, SC, and joint funding with FDA, USDA, and DOD 
to support the National Advisory Committee for the Microbiological 
Criteria for Foods. Aside from these MOUs, we have further collaborated 
with FDA on numerous other fishery related food safety issues.
    Specifically for chloramphenicol analysis, the principal, NOAA 
Fisheries'' National Seafood Inspection Laboratory (NSIL) has been in 
contact with FDA relative to assisting that Agency in performing 
chloramphenicol analysis. Discussions between NOAA Fisheries and FDA 
have resulted in FDA's provisional approval of methods for sample 
submission, custody, routing, and accounting and documentation 
procedures necessary to maintain the regulatory chain of custody and 
tracking required for import collections. Further, FDA expects to fund 
4,800 analyses on a reimbursable basis in the amount of approximately 
$200K. An interagency agreement toward that end is currently being 
negotiated. Two other NOAA facilities--NOAA Fisheries Northwest 
Fisheries Science Center, and the NOAA National Ocean Services Coastal 
Center for Environmental Health and Biomolecular Research--also may 
provide assistance to FDA in performing laboratory analysis. FDA has 
expressed an interest in assessing these two facilities Mass 
Spectrometry capabilities to confirm rapid screening methods. NOAA 
expects to follow up with FDA in this regard.

    10. Question: During our hearings on the reauthorization of the 
Magnuson-Stevens Act, it became apparent that the agency was spending a 
large amount of manpower and funds defending lawsuits. What steps has 
the agency taken through this budget request to address this problem?
    Answer: NOAA Fisheries is undertaking the necessary changes to 
improve the efficiency and effectiveness of its operations and increase 
compliance with all procedural requirements. As a critical component of 
this improved compliance, NOAA Fisheries is using the National 
Environmental Policy Act (NEPA) as a structured, analytical framework 
within which to make informed decisions integrating environmental, 
social, and economic factors. NOAA Fisheries is taking a number of 
actions to front-load the NEPA process through the active participation 
of all regional, science center, and Council staff in key 
responsibilities (e.g., sustainable fisheries, protected resources 
habitat, economics, legal review) at the early stages of fishery 
management action development--a ``no-surprises'' approach. A 
headquarters Environmental Policy Coordinator and regional coordinators 
(National Environmental Policy Act Coordination Officer) have been 
hired to ensure national and regional consistency, provide advice on 
integrating statutes, and remain current on national policy issues 
related to environmental compliance.

    11. Question: It appears that NEPA compliance has been the target 
of a number of lawsuits. What does this budget request do to ensure 
that NEPA compliance is addressed? Has the agency looked at how the 
Magnuson-Stevens Act and NEPA contradict and/or how the process 
timelines can be coordinated? Will there be any suggestions on this 
issue when the Administration sends its Magnuson-Stevens Act 
reauthorization to the Hill?
    Answer: The FY 2004 budget request contains an $8 million dollar 
request (a $3 million increase over FY 2003) specifically for the 
purpose of improving compliance with NEPA. These funds would be used 
primarily for increasing our NEPA specialists within our regional 
offices. Remaining funds would be used for support of the Regional 
Fishery Management Councils who assist us in NEPA implementation.
    In developing the Regulatory Streamlining Project ($1.5 million 
requested in FY 2004), NOAA Fisheries reviewed how all process 
timelines can be coordinated. NOAA Fisheries believes that the solution 
to the coordination problems that have been experienced is to establish 
a process under which NEPA and other related environmental impact 
review requirements are fully completed as early as possible for 
proposed Regional Fishery Management Council actions and well before 
such actions are the subject of formal Regional Fishery Management 
Council recommendations to the Secretary of Commerce. Accordingly, 
frontloading the completion of the NEPA process into the Operational 
Guidelines that govern both the Regional Fishery Management Council's 
and NOAA's analysis, review, and consideration of proposed Regional 
Fishery Management Council actions is a major component of the 
Regulatory Streamlining Project.
    NOAA Fisheries does not believe changes to Magnuson-Stevens Act 
related to this issue are necessary. Rather, NOAA Fisheries is placing 
emphasis on effectively implementing the Regulatory Streamlining 
Project in conjunction with an increase in NEPA efforts--and that 
should avoid the need for any legislative changes regarding this 
matter.

    12. Question: What is the latest on the Advisory Committee on 
Marine Protected Areas?
    Answer: Secretary of Commerce Donald Evans notified thirty nominees 
of their selection as candidates for the Marine Protected Areas Federal 
Advisory Committee on January 3, 2003. All thirty have indicated their 
desire to serve. The first meeting was held on June 24-25, 2003 in the 
Department of Commerce Auditorium.

    13. Question: The Appropriations Committee has required the Agency 
to submit an annual report on the use of Pacific salmon funds along the 
west coast and how the use of those funds has recovered listed salmon 
populations. The Resources Committee would like the Agency to provide 
it with that information as well. Can the Agency cite for us today any 
specific actions taken by the Agency that have helped recover salmon 
stocks?
    Answer: NOAA Fisheries has taken numerous actions under the 
Endangered Species Act (ESA) to protect and restore the twenty-six 
populations of Pacific salmon that have been listed as threatened or 
endangered under the ESA. The agency is implementing changes needed to 
protect and recover these fish, including those necessary to address 
human impacts from habitat destruction, dams, hatcheries, and harvest. 
NOAA Fisheries has sought to reduce or eliminate threats to the species 
as the first step towards recovery. NOAA Fisheries has also sought to 
minimize the impacts to affected parties and to fulfill its treaty 
obligations with treaty Indian tribes. A small sample of the many 
actions NOAA Fisheries has taken to date are given below. All of these 
examples have led to improved salmon survival and will aid in future 
recovery of the runs.
    Pacific Coastal Salmon Recovery Fund (PCSRF)--Over the past three 
years, NOAA Fisheries has provided over $250 million through the PCSRF 
to the states and tribes for over 2200 ``on-the-ground'' salmon 
recovery projects that contribute to the restoration and conservation 
of healthy and sustainable Pacific salmonid populations and the 
habitats upon which they depend. The PCSRF supplements state, tribal 
and federal programs to implement salmon recovery efforts and fosters 
state-local-tribal-federal collaboration and engagement in recovery 
programs. The majority of the PCSRF funds have been used for salmon 
habitat restoration projects in ESA listed salmon habitat. A Report to 
Congress on the PCSRF was recently transmitted to Congress.
    Endangered Species Act Section 7 Consultations--NOAA Fisheries 
conducts several hundred ESA consultations each year on habitat, 
harvest, hatchery and hydropower activities on the West Coast to ensure 
Federal activities don't harm salmon recovery efforts. These 
consultations are an essential component of our progress towards 
restoration of Pacific salmon populations and their habitat and have 
been instrumental in minimizing or eliminating the effects of federally 
permitted or funded activities on ESA listed salmonids. Major 
consultations include the Federal Columbia River Power System 
consultation where hydropower actions affect 12 ESA listed salmonid 
populations, and programmatic consultation covering fifteen categories 
of permit actions regulated by the Corps of Engineers.
    Habitat Conservation Plans--NOAA Fisheries has completed ten major 
Habitat Conservation Plans (HCPs) related to forest land operations, 
hydropower operations, and withdrawal of water for residential, 
municipal, industrial and agricultural use. These HCPs provide for the 
protection of listed species while allowing the activities to continue 
in modified form.
    Harvest and Hatcheries--NOAA Fisheries has worked with states, 
treaty Indian tribes, Fishery Management Councils, and international 
forums to minimize harvest impacts to ESA listed stocks, while 
maximizing the harvest of unlisted hatchery produced salmon in tribal, 
commercial and recreational fisheries. These efforts have been taken in 
a variety of forms from development and ratification of the U.S./Canada 
Pacific Salmon Treaty to development of tribal and state resource 
management plans under the ESA 4(d) rules for threatened species.
    Research and Monitoring--NOAA Fisheries has developed an extensive 
research and monitoring program that is carried out by the Northwest 
and Southwest Fisheries Science Centers. A variety of projects are 
being conducted on such tasks as evaluating the efficacy of different 
habitat restoration techniques, the use and importance of estuaries for 
juvenile salmon, the growth and survival of salmon in the Columbia 
River plume and ocean environments, the passage of fish through dams 
and migration through the Columbia and Snake Rivers, and the role of 
salmon carcasses in providing nutrients for juvenile fish production.
    Recovery Planning--NOAA Fisheries has organized the twenty-six ESA 
listed populations into eight recovery areas or ``domains'': Puget 
Sound; Willamette/Lower Columbia; Interior Columbia; Oregon Coast; 
Southern Oregon/Northern California; North-Central California Coast; 
South- Central California; and California Central Valley. For each 
domain, NOAA Fisheries is developing a Recovery Plan that addresses all 
listed salmon and steelhead populations within that domain. NOAA 
Fisheries is working with local entities to develop sub-basin plans 
that are the building blocks for these Recovery plans. Technical 
Recovery Teams (TRT), comprised of NOAA Fisheries scientists as well as 
technical experts from other entities, are conducting technical 
analyses related to recovery goals and scenarios (Recovery Planning 
Phase I). TRTs have now been established for seven recovery domains, 
and the remaining will be appointed shortly. For the Interior Columbia 
domain, NOAA Fisheries released interim recovery planning targets in 
the spring of 2002.
    There is no single factor responsible for the decline in runs of 
Pacific salmon and steelhead, and there is no single solution for their 
restoration. The recovery of salmon runs will be a cooperative effort 
involving hundreds of affected parties and federal, state, local and 
tribal governments. NOAA Fisheries is working with many partners to 
take the incremental steps needed to recover salmon, and those actions 
are reducing the probability of extinction and leading to increased 
runs throughout the West Coast.
General Marine Mammal Management Questions

    14. Question: What is NOAA doing to address the late release or 
non-release of funds for specific Congressional grant projects?
    NOAA's handling of the funds for Congressional grant projects has 
unnecessarily turned what should be a 3 month process to a 9-15 month 
process causing many grantees to miss critical research seasons. FY 
2002 funding for specific Congressional projects was held up for many 
grantees and many still haven't received funds as of January 2003.
    Answer: NOAA has examined its grants process as part of its 
comprehensive Program Review. Sixty-eight Program Review Team 
recommendations emerged from last year's program review. Among them was 
the critical need to adopt ``cycle time standards'' for allocating 
financial resources. The challenge was to make sure program funding 
arrived in a timely manner. Based on recommendations of the Program 
Review, NOAA has streamlined its grants process in order to provide 
funds to grantees in a more timely manner. Our ultimate goal is to have 
a cycle time of approximately 80 to 100 days from receipt of funds to 
award for non-competitive grants.

    15. Question: The Prescott Grant program was designed to give 
stranding network facilities much needed funds for research and 
construction programs, as well as funds for mass stranding events, to 
support their efforts in recovering and rehabilitating stranded marine 
mammals.
    In the solicitation for applications released by NOAA, it states 
the Agency's decision to combine the FY 2003 and 2004 grant cycle. This 
by itself is not a bad idea, but what disturbs the Committee is the 
ruling made by the Agency that facilities will only be eligible to 
apply for up to two grants instead of four grants in the two year 
cycle.
    Facilities have the potential of losing up to $200,000 in grant 
funding based on this ruling. Congress had to argue with the Agency 
about Congress's intent to allow facilities to apply for up to two 
grants per facility per year.
    Why did the Agency determine that in a two year combined funding 
cycle facilities could only apply for two grants instead of four, when 
in a regular two year cycle facilities would have the chance to apply 
for four grants?
    Answer: In order to adequately fund the more than 100 stranding 
network members with the limited funds available per cycle 
(approximately $4 million), NOAA Fisheries must limit the number of 
grants per institution per funding cycle. In 2001 and 2002, only two 
grants were allowed per institution because it was a combined funding 
cycle (approximately $8 million). This year is also a combined cycle 
(2003 and 2004), thus we are once again allowing two grants per 
institution.
    The Prescott Grant Program limited the number of awards in the 
combined 2003 and 2004 grant cycle to two per stranding network 
participant to ensure that the greatest number of applicants could 
receive assistance. In determining who should receive funding, the 
Program (according to statute) must ensure that funds are equitably 
distributed across the stranding regions, as well as to existing 
facilities with established records in the marine mammal stranding 
networks. In order to allow smaller organizations with limited federal 
grants experience to compete fairly with the larger for-profit and 
university participants, the Program determined that limiting the 
number of awards per participant was appropriate for this funding 
cycle. There was no limitation on the number of proposals a participant 
could submit. The 2005 solicitation for proposals will be published in 
April 2004. Before publication, policies regarding the number of awards 
per network participant per year will be reviewed to ensure that they 
meet the Program's goals, funding priorities, and Congressional intent.

    16. Question: Another issue that has been raised by stranding 
network facilities concerns the release of grant funding. After NMFS 
approves a grant the facility is required to go through an additional 
paper work process with the Treasury Department to get their funding 
released. Concerns have been raised relating to the lack of 
compatibility of the Treasury Department's computer system with Word 
Perfect or Word systems used by the stranding facilities. Can you 
explain the process a facility goes through with the Treasury 
Department and why the Agency is required to use the Treasury 
Department when releasing funds?
    Answer: The Federal Financial Assistance Management Improvement Act 
(P.L.106-107) required all Federal Agencies to reduce the number of 
grantee payment systems. After passage of P.L. 106-107 the number of 
payment systems was systematically reduced to three systems. One of 
these systems, the Automated Standard Application for Payments (ASAP), 
managed by the Department of Treasury, was selected by the Department 
of Commerce as its grantee payment system. A grantee must fill out 
standard enrollment paper work found at the Dept of Treasury's website 
and the Commerce Administrative Management System (CAMS) website. All 
forms can be downloaded from those sites. Once a recipient is in the 
ASAP and CAMS systems, they do not have to re-enroll with every grant 
they receive. ASAP offers two options for payment: 1) the Voice 
Response System (VRS) via telephone or 2) electronically via the 
computer. Although NOAA has no control over Treasury's payment system, 
NOAA tries to help applicants with the process and directs recipients 
to Treasury to ensure they follow up with Treasury as soon as possible 
for enrollment so they can begin to draw down funds. NOAA cannot 
formally request recipients to start their financial enrollment 
paperwork until NOAA completes a thorough review of the administrative 
and financial capabilities of the organization. NOAA is improving it 
grants processing by establishing a grants on-line system and has made 
other improvements through its ``Quick Wins'' efforts, such as 
improving the compatibility of databases between NOAA's finance office 
and the program offices to reduce processing time.

    17. Question: How much funding is included in the Agency's base 
funds for marine mammal research?
    Answer: Funds considered as base funds for marine mammal research 
totals $16 million. Total NOAA funding on marine mammal research is 
nearly $42 million. Protected species research focuses on marine 
species population abundance, distribution and trends, marine ecosystem 
dynamics and the impacts of human activities on marine mammals and 
other protected marine species. NOAA Fisheries conducts studies on 
large whales, porpoises, seals, sea lions, salmon, and sea turtles. 
NOAA uses this information to develop conservation and recovery plans 
in fulfillment of its Marine Mammal Protection Act and Endangered 
Species Act responsibilities. Scientists conduct research programs 
nationwide in NOAA research laboratories and provide fundamental 
information required by Federal, state and industry decision-makers for 
conservation and management purposes. The base funding for marine 
mammal research includes funding for marine mammal projects in several 
Program, Project, and Activities (PPA) lines. For example, of the 
$7,120K allocated to the Marine Mammal Protection line, $5,200K is used 
for marine mammal research. The remainder of these funds supports 
management and administrative activities, primarily the implementation 
of sections 117 (Stock Assessment) and 118 (Fishery Interactions) of 
the MMPA.
    Of the $3,500K allocated to the Endangered Species--Marine Mammals, 
Sea Turtles and Other Species line, $2,700K supports marine mammal 
research. All of the funds allocated to Hawaiian Monk seals ($825K), 
Steller sea lions--Endangered Species Act ($850K), and Recovery of 
Endangered Whales ($1,000K) support marine mammal research.
    Approximately $2,700K of the funds allocated to the ETP Tuna/
Dolphin lines ($2,950K) supports related research.

    18. Question: How much is appropriated annually to the agency for 
marine mammal research?
    Answer: The amount varies from year to year. Total NOAA funding on 
marine mammal research is nearly $42 million. Funds considered as base 
funds for marine mammal research totals $16 million. NOAA Fisheries 
received the following funds totaling $25.95 million for research in FY 
2003:
    Program, Project, and Activities(PPAs) that support research in 
part:
    <bullet> Marine Mammal Protection: Ice Seals ($250K): New item--
all of this will likely support research.
    <bullet> Marine Mammal Protection--Joint Alaska Harbor Seal 
Research ($900K): $450K of this supports research (SeaLife Center).
    <bullet> Marine Mammal Research--manatee--New College ($250K): New 
item--all of this will likely support research.
    <bullet> Protected Species Management--Southern Resident orca 
($750K): All of this supports research.
    <bullet> Steller Sea Lion Recovery Plan ($5,000K): About $4,800K 
of this is used for research.
    <bullet> Steller Sea Lion External entities (i.e., Alaska SeaLife, 
State of Alaska, NPFMC, etc) ($13,500K): About $12,700K is used for 
research or research management.
    <bullet> Endangered Species Act--Right Whale activities 
($10,000K): About $4,000K supports research.
    <bullet> Bottlenose Dolphin Research ($2,000K): all of this 
supports research.
    <bullet> Protected Species Management--California sea lions 
($750K): all of this supports research

    19. Question: Is there coordination between marine mammal 
researchers and resource managers to focus funds on management 
priorities?
    Answer: Yes, there is close coordination among marine mammal 
scientists, managers, and policy advisors to make sure that effective, 
efficient research activities address the highest priority needs. From 
1992 through 1999, this coordination took place in the form of an 
annual meeting of senior marine mammal staff from science centers, 
regional offices and headquarters to discuss proposed research and 
priorities. Since 2000, the coordination is more informal, with 
extensive communication between science centers and regional offices, 
and periodic communication with NOAA Headquarters' senior staff.

    20. Question: What type of marine mammal research is done by the 
Agency?
    Answer: Most research addresses the abundance and trends of marine 
mammal populations and the impacts of human activities, particularly 
commercial fisheries, upon marine mammals. The latter generally 
consists of observer programs. NOAA Fisheries also conducts research 
into ecological relationships, health assessments, and the effects of 
specific agents (pollutants or disease agents) on marine mammals, 
population genetics, and the effects of anthropogenic noise on marine 
mammals. Indirect research activity includes investigations into 
fishing gear and practices that would reduce bycatch of marine mammals 
or technological approaches to avoid ship strikes.

    21. Question: Is the Agency conducting any research on the effects 
of sound or sonar on marine mammals? If so, how much is spent annually 
and what is the extent of the research? If not, why?
    Answer: The program has had a budget of $200,000 per year for each 
of the last three fiscal years. These funds have been used to support 
workshops (Acoustic Resonance, Auditory Brainstem Response, Temporary 
Threshold Shift), an NRC panel on ocean noise, the development of 
acoustic criteria (noise standards) for the agency, research on whale 
calls, and the creation of a computer program for calculating safety 
zones around sound sources (for issuance of MMPA authorizations).

    22. Question: How is the Agency working to ensure that valid 
scientific research regarding the effects of sonar on marine mammals is 
properly permitted?
    Answer: All scientific research permit applications undergo a 
rigorous review, especially those involving marine mammals and 
acoustics. In addition to a review of the merits (assisted by the 
Marine Mammal Commission), environmental impacts are also considered 
during the NEPA and ESA Section 7 (for listed species) analyses. Only 
those permits that meet the issuance criteria of the MMPA, including 
the standard for ``bona fide'' scientific research, are issued.

    23. Question: The research conducted by Dr. Peter Tyack, a 
researcher with Woods Hole Oceanographic Institution, was permitted by 
the Agency, but halted by the court due to its interpretation that NEPA 
requirements were not met by the Agency when issuing amendments 1 and 3 
to the permit. How is the Agency addressing this issue and how will the 
Agency work to ensure this doesn't happen again and in the meantime 
facilitate permitting of this much needed scientific research?
    Answer: The Agency has addressed this issue administratively by 
issuing a new scientific research permit to Dr. Tyack. The permit was 
issued on Tuesday, June 3, 2003, thereby allowing the initial portion 
of the research to proceed in the Gulf of Mexico on schedule (beginning 
in early June, 2003). Dr. Tyack is now authorized for a five-year 
period to take various cetacean species including endangered whales for 
scientific purposes to study the biology, foraging ecology, 
communication, and behavior of these animals, with a focus on their 
responses to anthropogenic sounds. The Agency has analyzed the 
potential impacts of this research in an Environmental Assessment (EA), 
thereby fulfilling its obligations under the National Environmental 
Policy Act (NEPA). Based on the outcome of the litigation the Agency 
has determined that all future marine mammal scientific research 
permits that involve active acoustics will be analyzed in an EA or an 
Environmental Impact Statement. In the longer term, based on available 
resources, NOAA Fisheries intends to complete programmatic NEPA 
document(s) and programmatic Section 7 consultations to reduce the time 
needed to process these types of applications.

    24. Question: How many fisheries have interactions with marine 
mammal stocks?
    Answer: NOAA Fisheries monitors interactions between marine mammals 
and fisheries through various observer and stranding programs around 
the country. In its annual List of Fisheries, a requirement of Section 
118 of the Marine Mammal Protection Act (MMPA), NOAA Fisheries 
categorizes all U.S. commercial fisheries based on whether they have 
frequent, occasional, or a remote likelihood of no known incidental 
mortality and serious injury of marine mammals--Category I, II, and III 
fisheries, respectively.
    Six fisheries are currently considered Category I fisheries, while 
thirty-three fisheries are currently considered Category II. 
Approximately 200 fisheries are classified as Category III. NOAA 
Fisheries is proposing changes to some classifications in the 2003 List 
of Fisheries.

    25. Question: How many of these fisheries have observers? How many 
fisheries need observer coverage? Who pays for these observers?
    Answer: To date, observer programs are the best way to obtain 
accurate information about the level of marine mammal and other bycatch 
occurring in fisheries. Section 118 of the MMPA provides that only 
owners of vessels engaged in a Category I or II fishery are required to 
take on board an observer if requested to do so. By definition, these 
fisheries have the highest levels of incidental mortality and serious 
injury of marine mammals; thus, NOAA Fisheries prioritizes observer 
coverage within Category I and II fisheries based on standards and 
priorities listed in Section 118 of the MMPA.
    Approximately one-third of Category I and II fisheries have had 
some level of observer coverage in the past five years. Our goal is a 
level of observer coverage or other monitoring effort that yields an 
accurate representation of the bycatch occurring in the fishery
    Observer programs are funded through industry, federal, and state 
programs depending on the region, fisheries, and resources affected.

    26. Question: How does the Agency coordinate data collected by 
marine mammal observers and commercial fishery observers?
    Answer: All observers are trained in the identification of marine 
mammals and other species and collect data on a range of conservation 
and management issues, including species composition of the catch, 
weights of fish caught, and bycatch of finfish, marine mammals, sea 
turtles, and other protected species. Observers fill out and submit 
forms to NOAA Fisheries that report on all of the above information.
    Given the nature of marine mammal and other protected species 
bycatch, however, sampling methods for observer programs primarily 
devoted to monitoring marine mammal bycatch may vary from those 
primarily devoted to monitoring finfish bycatch. For example, because 
protected species bycatch events tend to be rarer than finfish bycatch 
events, marine mammal observer programs may require different levels of 
coverage and allocation of observers to vessels operating in distinct 
locations in order to obtain an accurate depiction of the occurrence of 
marine mammal bycatch.

    27. Question: Do marine mammal observers collect fishery bycatch 
data in addition to marine mammal data?
    Answer: Yes (see response to Q26). Observers are able to record a 
range of information about each fishing trip. In addition to recording 
marine mammal takes, observers note related factors such as gear 
<plus-minus>characteristics, fishing methods, environmental conditions, 
and the presence of birds, and all species caught or interacting with 
gear. Observers take biological samples and photographs to positively 
identify species of mammals, birds, and fish.

    28. Question: Can the Agency use fishery data collected from marine 
mammal observers and marine mammal data collected from commercial 
fishery observers or are separate data collection protocols applied?
    Answer: In most cases, observers collect information on all catch 
and bycatch (fish, marine mammals, sea birds, sea turtles). (See 
responses to Q26 and Q27.) NOAA Fisheries created its National Observer 
Program specifically to ensure that observer programs were collecting 
data related to the full range of marine resource issues. Nonetheless, 
different data collection protocols are applied in terms of sampling 
designs for observer coverage in order to account for the differences 
in the nature and occurrence of marine mammal/other protected species 
bycatch versus finfish bycatch.

    29. Question: The Administration's draft bill to reauthorize the 
MMPA includes a provision that would allow the Secretary of Commerce to 
conduct a voluntary fishing gear buyback program. The Secretary has 
similar authorities under the Magnuson-Stevens Act. Why is a separate 
authority necessary?
    Answer: The provisions in the Administration's MMPA reauthorization 
bill would enable NOAA Fisheries to focus on new ways to address the 
problem of incidental mortality and serious injury of marine mammals in 
commercial fisheries. The Magnuson-Stevens Act does not address the 
issue of marine mammal bycatch; rather, it deals with ``fish'' bycatch, 
defined as ``finfish, mollusks, crustaceans, and all other forms of 
marine animal and plant life other than marine mammals and birds.'' 
Thus, a separate authority under the MMPA would help focus increased 
attention on finding creative solutions to the problem of marine mammal 
bycatch, something that is not currently authorized under the Magnuson-
Stevens Act.

    30. Question: The Agency has stated that by definition, 
insignificant levels of marine mammal deaths due to commercial fishery 
interactions means that total mortality or rate of death is no more 
than 10% of the maximum number of marine mammals that could die from 
human-caused mortality. What is the scientific rationale for ``no more 
than 10%?'' How was it developed and how is it applied to fisheries 
with marine mammal interactions?
    Answer: Although NOAA Fisheries proposed a rule to define 
insignificant levels of incidental mortality and serious injury as 10% 
or less of a stock's Potential Biological Removal (PBR) levels, that 
definition was not included in the final rule. NOAA Fisheries has used 
this as a working definition for purposes of Stock Assessment Reports 
under Section 117 of the MMPA until a regulatory definition is 
finalized. NOAA Fisheries is preparing to initiate a notice-and-comment 
rulemaking to define the phrase, ``insignificant levels of incidental 
mortality and serious injury approaching a zero mortality and serious 
injury rate,'' based on continued analysis over the past several years.
    In accordance with Section 114 of the MMPA, the Marine Mammal 
Commission suggested that a negligible impact could be considered one 
that (1) would no longer be detectable after a year of reproduction or 
(2) would delay recovery of a threatened or endangered species by no 
more than 10% over the expected recovery if the incidental mortality 
did not occur. Although a clear link between negligible impact and 
insignificant levels of mortality is not made within the MMPA or its 
legislative history, there is an indirect reference in the legislative 
history accompanying the 1988 amendments that suggests an insignificant 
level of incidental mortality would have a negligible impact on the 
population. Using simulation analyses, NOAA Fisheries scientists found 
that mortality limited to 10% of a stock's PBR would delay recovery by 
no more than 10% and, for a population already at its carrying 
capacity, such a level of mortality would allow it to equilibrate 
within 95% of the carrying capacity (excluding fishery-related 
mortality). This was the scientific basis for the definition in the 
proposed rule in 1995 and the working definition for purposes of Stock 
Assessment Reports. However, later simulations suggested that 10% of 
PBR may be too restrictive in some cases. Based on these simulations 
and comments received on the definition in the proposed rule, NOAA 
Fisheries excluded this provision from the final rule. We have 
continued to evaluate and formulate definitions that are most 
appropriate in interpreting the intent of this standard.

    31. Question: The bottlenose dolphin take reduction team (TRT) will 
reconvene in a few weeks. Has NMFS finalized the stock assessment for 
the TRT to use in its deliberations? If not, the TRT will have to 
continue its deliberations using 8 year old data which may not be 
reflective of the current bottlenose dolphin population. The Agency in 
the past has told the Committee that data over 5 years old is not 
reliable. Why hasn't the Agency processed this data to have it 
available for the TRT?
    Answer: Yes, NOAA Fisheries provided updated bottlenose dolphin 
abundance estimates to the TRT at its last meeting during the first 
week of April 2003. The updated estimates were based on surveys 
conducted in Winter and Summer 2002.
    NOAA Fisheries supplemented bottlenose abundance data with data 
that were less than five years old for the TRT to review and consider 
for its first series of meetings. At the time of convening the TRT, the 
abundance data provided represented the best available science and 
allowed the TRT to begin to address the high levels of incidental 
mortality of bottlenose dolphins occurring in several Atlantic 
fisheries. Based on concerns from members of the TRT, NOAA Fisheries 
had the data independently reviewed, and the independent review 
resulted in the same conclusion. Ultimately, NOAA Fisheries would like 
to provide updated abundance analyses on a regular basis; however, 
given resource constraints to date, it has not always been possible.
Aquaculture/Hatcheries

    32. Question: How much is requested for Aquaculture activities? 
What types of activities are funded through these activities?
    Answer: NOAA Fisheries has approximately $2.0 million in base 
funding for aquaculture. This funding does not include Pacific Coastal 
Salmon Recovery Funding or Columbia River Hatchery funds. NOAA 
Fisheries has ongoing research on fish culture and stock enhancement 
techniques at the Northeast Fisheries Science Center's Milford 
Laboratory and the Northwest Fisheries Science Center's Manchester 
Research Station. The FY 2004 budget provides the NOAA's Fisheries 
Finance Program with $19 million in loan authority for aquaculture 
financing and NOAA Research has $2.6 million available for aquaculture 
research in the FY 2004 request.

    33. Question: What is the current policy on the use of hatchery 
raised fish for supplementation and/or restoration programs? How much 
money is being used by NOAA for grants for private supplementation 
programs?
    Answer: The current NOAA Fisheries policy for the use of hatchery 
fish for supplementation and/or restoration programs is to allow the 
use of hatchery fish for these purposes on a limited and experimental 
basis. No funding appropriated to NOAA Fisheries is used for private 
supplementation programs.
    34. Question: How much money is in the FY '04 request for hatchery 
programs? Can you give us a detailed list of all of the NOAA-funded 
hatchery operations and the funding levels for each hatchery? What 
types of fish are grown at each of these hatcheries?
    Answer: The FY 2004 request includes $11.457 million for operation 
and maintenance costs at Columbia River salmon and steelhead 
hatcheries. This funding is intended to support the operation and 
maintenance costs for about 18 hatchery facilities that are to produce 
about 60 million juvenile salmonids each year consisting of coho 
salmon, spring chinook salmon, fall chinook salmon, steelhead, and 
Reddish Lake sockeye salmon. The funding needs by facility vary due to 
annual adjustments to production targets, mass marking costs, 
inflationary costs, new/additional upgrade and maintenance costs, but 
are approximately $4.1 million for Washington Department of Fish and 
Wildlife for Klickitat Hatchery, Washougal Hatchery, Skamania Hatchery, 
Kalama Falls Hatchery, Toutle River Hatchery, Elochoman Hatchery, and 
Ringold Hatcheries; $3.7 million to Oregon Department of Fish and 
Wildlife for OxBow/Herman Creek Hatchery, Cascade Hatchery, Bonneville 
Hatchery, Big Creek Hatchery, Sandy Hatchery, and Clackamas Hatchery; 
$3.2 million to U.S. Fish and Wildlife Service for Spring Creek/ Big 
White Salmon National Fish Hatchery, Little White Salmon/Willard 
National Fish Hatchery, Carson National Fish Hatchery, Eagle Creek 
National Fish Hatchery; and $0.2 million to the Yakama Indian Tribe for 
Acclimation Ponds.
    35. Question: What statutory authorities give NOAA the authority to 
operate hatcheries and how do these activities differ from the U.S. 
Fish and Wildlife Service authorities?
    Answer: The primary statutory authority to operate hatcheries is 
the Mitchell Act. Appropriations through this Act allow NOAA Fisheries 
to distribute funds to the U.S. Fish and Wildlife Service and the 
states for the operation of Mitchell Act mitigation hatcheries in the 
Columbia Basin. The U.S. Fish and Wildlife Service, states, and Tribes 
also operate other Pacific Northwest hatcheries, but under separate 
legislative authorities.

    Questions for the Record from the Honorable Frank Pallone, Jr., 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                      NOAA's FY '04 Budget Request
                             march 19, 2003

    1. Question: Our nation's fisheries continue to have serious 
problems. In New England, the West Coast or many other areas of the 
country, fisheries disasters have become the norm, not the exception. 
In FY 03, NMFS asked for a total of $12 million for fisheries stock 
assessments. Recognizing a greater need, Congress appropriated $17 
million in FY 03. But, as I understand it, the actual need is closer to 
$26 million.
    Why has NMFS only sought an additional $3 million for stock 
assessment work when the status of a significant majority of fish 
stocks remains either unknown, depleted, or overfished?
    Answer: NOAA's FY 2004 request includes a total of $14.9 million 
for improving and expanding stock assessments. This request provides a 
tremendous investment to address the fisheries data collection needs of 
the agency.

    2. Question: I am pleased to see that there has been an increased 
request in the budget for fishery observers and reduction of bycatch. 
Some of this increase is necessary to address court orders imposed on 
NMFS through litigation or settlement.
    How will you allocate the budget increase in these two sections 
among regions and fisheries to fulfill court orders but also fulfill 
your duties, thereby preventing continuing litigation in other 
fisheries?
    Answer: NOAA is requesting $2.8 million in increased funding to 
reduce bycatch during marine fishing operations in federally managed 
waters. This funding will assist NOAA Fisheries in meeting the criteria 
of National Standard 9 of the Magnuson-Stevens Act, which states that 
``Conservation and management measures shall, minimize bycatch and to 
the extent bycatch cannot be avoided, minimize the mortality of such 
bycatch.'' Reducing bycatch will more efficiently utilize the harvest 
of America's living marine resources. This initiative has several 
components:
    Bycatch Observers--($2.0 million) This request will provide for 
approximately 2,000 observer sea days to enhance NOAA Fisheries efforts 
to expand and modernize fisheries observer programs for the collection 
of bycatch data from commercial and recreational fishing vessels. The 
improved data will allow better assessment of impacts of fishing 
activities on living marine resources--finfish, shellfish, marine 
invertebrates, marine mammals, sea turtles, and seabirds.
    Fisheries change from year to year due to a variety of 
environmental, economic, and management conditions; their effects on 
non-target or undersized finfish and protected species can change 
annually as a consequence. Bycatch levels need to be monitored 
throughout the range of the fisheries to quantify the removal of 
protected species and discarded finfish and to identify alternate 
fishing practices to reduce bycatch.
    The projected distribution of these funds would be:
    <bullet> Alaska Fisheries Science Center $300,000
    <bullet> Alaska Regional Office $175,000
    <bullet> Southeast Fisheries Science Center $75,000
    <bullet> Northeast Fisheries Science Center $700,000
    <bullet> Pacific Islands Regional Office $50,000
    <bullet> Southwest Regional Office $425,000
    <bullet> Northwest Fisheries Science Center $175,000
    <bullet> National Observer Program $100,000
    Fisheries requiring increased observer coverage under the bycatch 
initiative include:
    <bullet> Mid-Atlantic and New England scallop dredge fisheries. 
Bycatch of incidental take of ESA-listed sea turtles and regulated 
groundfish species;
    <bullet> West Coast groundfish open access fishery. Bycatch of 
overfished finfish in the open access components of the fishery;
    <bullet> Mid-Atlantic haul seine, purse seine, pound net, stop 
net, gill net and pot fisheries. Significant incidental take of 
protected species, such as marine mammals and sea turtles;
    <bullet> Gulf of Mexico and Atlantic shrimp otter trawl fishery. 
Bycatch of juvenile red snapper and other commercially valuable 
finfish, as well as sea turtles;
    <bullet> Alaska halibut longline fishery. Bycatch of seabirds;
    <bullet> California, American Samoa, and Guam pelagic longline 
fisheries. Bycatch of Pacific sea turtle populations;
    <bullet> Atlantic recreational charterboat and headboat fisheries. 
Bycatch of finfish, sea turtles, marine mammals, and/or seabirds;
    <bullet> Alaska gillnet and purse seine fisheries. Incidental take 
of marine mammals and seabirds;
    <bullet> Atlantic and Gulf of Mexico reef and bottom longline and 
bandit rig fisheries. Bycatch of non-target and undersize finfish;
    <bullet> Hawaii bottomfish fishery. Interactions with Hawaiian 
monk seals, a critically endangered species; and
    <bullet> Atlantic and Gulf of Mexico reef and bottom longline and 
bandit rig fisheries. Bycatch of non-target and undersize finfish.
    In addition, $ 800 K will be used to enhance technical expertise 
and testing. NOAA Fisheries believes bycatch reduction can be enhanced 
and better coordinated utilizing national bycatch reduction expertise 
of gear specialists, fishery and protected species experts, socio-
economic specialists, and outreach experts. These specialists will be 
located across the country, and will examine bycatch reduction from 
gear perspectives, economic analysis of gear use, and devise methods 
for outreach to fishermen. This group will examine existing bycatch 
reduction methods, evaluate their effectiveness, and design and test 
new methods.
    Public/Private Bycatch Reduction Research and Testing--Funding is 
expected to expand and improve cooperative research activities to 
support research and testing in three fisheries per year at a cost of 
$0.6 million. Research and testing (including independent monitoring), 
using leased vessels to test bycatch reduction devices, will address 
innovative methods to reduce bycatch. The vessels will be leased to 
follow the experimental protocols developed by this initiative, while 
gaining insight into the effectiveness of the bycatch reductions 
devices through the use of the technologies by the fishermen who work 
these fisheries.

    3. Question: There is a substantial backlog in the days at sea 
required to adequately assess fish populations. How would this backlog 
be reduced if the President's budget were fully funded? How much is 
need to completely eliminate the backlog?
    Answer: The FY 2004 President's budget, including $14.9 million to 
expand and improve fisheries stock assessments, will provide a total of 
2,765 charter days at sea. A total of 4,665 days at sea are planned for 
fisheries surveys including 1,900 NOAA fleet days at sea funded under 
the NOAA Marine and Aviation Office's Marine Services line. The NOAA 
Fisheries Data Acquisition Plan calls for a total of 6,005 days at sea. 
Therefore, the FY 2004 request includes a backlog of 1,340 days at sea.

    4. Question: One of the key provisions of the 1996 Sustainable 
Fisheries Act was the requirement to identify and protect essential 
fish habitat, yet there has been a significant lack of progress in 
reducing the adverse impacts of fishing on habitat. The FY 04 budget 
request for Reducing Fishing Impacts on EFH was level funded from the 
fiscal year 03 level of $500,000, despite our growing awareness of the 
impacts of bottom trawls, dredges and other types of fishing gear on 
deepwater corals and other valuable marine habitat. In addition, the 
fiscal year 04 request for Fisheries Habitat Restoration is $4 million 
below what was appropriated in fiscal year 03 and $5 million below 
fiscal year 02 appropriations.
    What is the status of NOAA Fisheries activities to designate EFH as 
required under the SFA?
    These funding requests, taken together, give the impression that 
the Administration considers the identification and protection of EFH a 
low priority. Is this the case?
    Answer: The Essential Fish Habitat (EFH) provisions (Section 
303(a)(7)) in the 1996 Sustainable Fisheries Act required that all 
Fishery Management Plans (FMPs) identify and describe EFH, minimize to 
the extent practicable adverse effects of fishing on EFH, and identify 
other actions to encourage the conservation and enhancement of EFH. 
Much progress has been made to fulfill the EFH mandate. Currently, all 
43 FMPs address the EFH provisions.
    EFH has been identified and described for close to1,000 species and 
their associated multiple life-stages. NOAA Fisheries approved all 
designations except for several in Gulf of Mexico and Caribbean 
fisheries. Both the Gulf and Caribbean Councils are rectifying problems 
with their first attempts to designate EFH. Alternatives for improved 
EFH designations in the Gulf and Caribbean will be available in Draft 
Environmental Impact Statements, which will be available to the public 
for public comment later this summer.
    Councils continue to address the requirement to minimize adverse 
effects of fishing to the extent practicable. NOAA Fisheries approved 
efforts to minimize adverse effects of fishing for all FMPs except for 
nine in the Gulf of Mexico and the Mid-Atlantic. Both Councils are 
working to address problems with how fishing effects were originally 
addressed. Alternatives for addressing fishing impacts to EFH in the 
Gulf of Mexico will be included in a Draft Environmental Impact 
Statement, which will be available for public review later this summer.
    In addition to the efforts described above to rectify past 
deficiencies in implementing the EFH provisions of SFA, at least seven 
of the eight Councils are reviewing and refining their originally 
approved EFH provisions. NOAA Fisheries is also reviewing the FMPs for 
Highly Migratory Species (which is under the purview of the Secretary 
of Commerce, not a Fishery Management Council). The EFH Final Rule 
requires a review and update of the EFH provisions every 5 years. The 
5-year reviews are being undertaken in the order in which the original 
FMPs were approved.
    There are two line items in the NOAA Fisheries budget that 
specifically address EFH. One is ``Refine EFH Designations.'' The 
second is ``Reduce Impacts on EFH.'' In FY '03, NOAA Fisheries 
requested $1million to refine EFH designations and $500,000 to reduce 
impacts on EFH. In fiscal year 03 $500,000, was appropriated to refine 
EFH and the agency's request for new funding to reduce fishing impacts 
was zero funded. In FY '04, NOAA Fisheries actually seeks more funds 
for EFH than it received in FY '03. This request reflects the agency's 
commitment to designate EFH and minimize adverse effects of fishing. 
The additional funds will support much needed research and management 
efforts to further improve the conservation value of the EFH program.
[GRAPHIC] [TIFF OMITTED] T5772.023


    The budget figures cited in the question from Congressman Gilchrest 
for habitat restoration do not represent expenditures for the EFH 
program. The line items for Fisheries Habitat Restoration support the 
NOAA Fisheries Habitat Restoration Division, which includes the 
Community Based Habitat Restoration program. While the Fisheries 
Habitat Restoration line-item certainly supports projects that benefit 
essential fish habitat, that program is not directly related to the 
agency's obligation to fulfill the EFH mandates in the SFA, which go 
beyond restoration.

      Questions for the Record from the Honorable Solomon Ortiz, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                     NOAA's FY 2004 Budget Request

                             march 19, 2003

    1. Question: Recently, National Marine Fisheries Service (NMFS) put 
out a new regulation which mandates the use of larger and more 
expensive Turtle Excluder Devices (TED's) that will cost the fishery 
thousands of dollars to install. Is NOAA planning to purchase and 
install these new devices for the shrimp fishery in order for them to 
comply with the new NOAA mandate to install larger and more expensive 
TED's? Do you anticipate even further changes to TED regulations in the 
future and what do you believe the economic impact of the new 
regulations will be?
    Answer: NOAA Fisheries is not planning on purchasing new TEDs and 
installing them for fishermen and believes that the majority of 
fishermen will not have to purchase new TEDs to comply with the new 
rule. A substantial number of fishermen in the Atlantic (up to 70% in 
some areas) and some in the Gulf (up to 15% in some areas) already have 
TEDs that comply with the new regulations and won't have to make any 
changes. Most of the rest will only have to make modifications to the 
escape hole and flap on their existing TEDs. The modification consists 
of removing the webbing flap that covers the escape opening, cutting 
away additional meshes to enlarge the escape opening, and installing a 
new, larger flap over the escape opening. Fishermen can make the 
modification in under thirty minutes, with less than $25 of material 
costs, or spend an estimated $45 to have the modification done at a net 
shop. The regulations also increase the minimum size of the TED grid 
(the hardware portion of the TED). Because larger TED grids perform 
better at excluding debris and retaining shrimp, most fishermen use TED 
grids that exceed the minimum required sizes already. The regulatory 
change is expected to affect few to no fishermen in the Atlantic and 
only a small percentage of the fishermen in the Gulf.
    NOAA Fisheries believes that most fishermen will only have to make 
minor changes to their equipment to comply with the new regulations; 
however, those fishermen whose current TED grids are too small will 
have to buy new grids, since they can't be easily modified, at an 
average cost of $220 for a new TED that would already include the 
enlarged escape opening. The net impact of the rule (using the worst 
case scenario) is not expected to significantly change average profits 
per vessel ranging from a gain of 0.5% to a loss of 2.4% relative to 
current TED requirements.
    NOAA Fisheries, through its regulatory authority, provides for 
modifications to TEDs as appropriate and warranted. For example, a 
process exists for testing new TED designs, often developed by 
fishermen, which can result in the authorization of new TEDs or 
modifications to existing TEDs to increase efficiency. Technical 
changes, often brought to our attention by fishermen, also may be made 
to the regulations as warranted and appropriate. Additionally, as the 
best available science evolves regulatory changes may become necessary.
    Shrimp loss under the new TEDs requirements will not be a 
significant source of economic impact. The use of a double cover flap 
TED showed a 0.1% shrimp gain and the use of the new seventy-one inch 
opening TED showed a 1% to 3% loss when compared to current 
commercially available TEDs.

    2. Question: The surge in foreign shrimp imports has severely 
suppressed the price per pound of shrimp, placing the fishery on the 
verge of involuntary bankruptcy. In my district alone, the economic 
impact in South Texas between year 2000 and 2001 is $86.4 million. Now, 
not only are shrimpers contending with the low price per pound of 
shrimp due to imports but also high cost in diesel fuel, which has 
forced vessels to be placed dockside. I realize there was $35 million 
Fisheries Disaster funding in the Omnibus bill but that was not 
sufficient to sustain this valuable fishery. It was a band-aid, not a 
solution to the problem. What plans does NOAA have to assist the Gulf 
and South Atlantic Shrimp Fishery in easing the economic constraints 
that have been imposed on the Gulf and South Atlantic Shrimp Fishery 
due to the tremendous surge in foreign imports?
    Answer: The National Marine Fisheries Service (NOAA Fisheries) is 
developing a business plan to provide economic and financial relief to 
the Gulf of Mexico and southern Atlantic states shrimp fisheries. The 
business plan may identify a series of alternatives that could relieve 
the financial pressure in the shrimp industry. These alternatives have 
been identified through a series of meetings that have been held with 
industry representatives, fishery managers, and academic fishery 
experts since last fall, from Texas to North Carolina. These 
alternatives are being analyzed by experts in the field of fisheries 
economics with specific expertise in the southeastern region shrimp 
fishery, under contract to NOAA Fisheries. They are preparing an 
assessment of proposed industry alternatives that are most likely to 
relieve the financial pressure on the harvesting sector brought about 
by higher fuel costs and lower ex-vessel prices due to increased import 
levels. Although the analysis of proposed management alternatives has 
not yet been finalized, a combination of limited entry and a marketing 
and quality assurance program to provide high quality, wild caught, 
fresh shrimp to specialty and niche markets are expected to be the best 
alternatives that will allow fishers to capture the benefits of 
improved shrimp prices.
                                 ______
                                 

  Issues and Questions from the Honorable Frank Pallone, Jr., Ranking 
   Member, Fisheries Conservation, Wildlife and Oceans Subcommittee, 
    Regarding USFWS and NOAA's FY 04 Budget Request, March 19, 2003

I. General Overview Questions
Question 1: Based on the new budget, NOAA (especially the National 
        Ocean Service) appears to be de-emphasizing its ocean 
        activities and increasing funding toward programs that do not 
        address ocean issues. Please explain the rationale behind this 
        shift in focus.
    Answer: The President's FY 2004 budget for NOAA's Ocean Service 
(NOS) requests a $6.5 million increase, all of which is dedicated to 
programs that address ocean issues. The FY 2004 increases will help 
improve the Nation's most extensive coastal water level monitoring 
system and support a forecast capability for real-time observing 
systems, which will result in an improved capability to provide 
mariners, emergency responders, and coastal managers with information 
on water levels, including storm surge warnings. Also, the FY 04 budget 
includes program increases for Electronic Navigational Charts (ENCs) 
and the vessel time charter. The $2M program increase for ENCs provides 
NOAA with the ability to expand ENC coverage of U.S. waters in order to 
enhance navigational safety. With the $2M program increase for the 
vessel time charter, NOAA will increase hydrographic surveying capacity 
where the most critical survey needs exist.
    Within the FY 2004 President's Budget Request, NOAA's Satellite and 
Information Services will continue their support to NOAA's ocean and 
coastal missions. Specifically, NOAA utilizes satellite data and 
communications systems from its polar-orbiting and geostationary 
operational environmental satellites, POES and GOES, respectively, to 
develop global to local scale sea surface temperature measurements. 
These are critical to track the onset and duration of the El Nino and 
La Nina signals in the equatorial Pacific Ocean, as well as global and 
national coral bleaching events. NOAA also utilizes data from non-NOAA 
satellites to measure sea surface height used to support the formation 
and duration of eddy's in the ocean currents. Data are also used from 
commercial systems to monitor harmful algal blooms in near coastal 
waters. NOAA's satellites carry data collection systems that are used 
to collect data from buoys in the ocean. Without these oceanic 
readings, NOAA could not support its weather and climate, and ocean and 
coastal missions. NOAA will continue to support this critical support 
to the ocean and coastal community in its future satellite systems, 
GOES-R, and the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS). In addition to providing satellite-derived 
products and services, NOAA also houses the world's largest collection 
of climatic, geophysical, ocean and coastal data within NOAA's National 
Data Centers.
    In addition to continued support in FY 2004 for dedicated ``ocean'' 
programs, including the National Undersea Research Program, the 
National Sea Grant College Program, and the Ocean Exploration program, 
NOAA Research is requesting increases for two significant ocean/coastal 
activities.
    The President's FY04 budget request includes an increase of $1.0 M 
(and total request of $1.8M) for National Invasive Species Act support, 
and for aquatic nuisance species prevention and control activities. 
One-third of the increase will support competitive grants through the 
Ballast Water Technology Demonstration Program administered by Sea 
Grant. Another third will assist with the development of a nationally 
coordinated monitoring and early detection system beginning with a 
pilot project in Hawaii. The final third will be used to control 
invasions and restore habitat in invaded ecosystems.
    Finally, NOAA Research is requesting an increase of $16.9M for the 
Climate Change Research Initiative, of which $6.3M is for support of 
the Global Ocean Observing System. This is a critical part of the 
President's Climate Change Research Initiative because of the ocean's 
large role in storing heat and carbon dioxide, key components for 
understanding oceanic process and the global climate. The system is a 
composite of complementary networks, which include tide gauges, surface 
drifting buoys, tropical moored buoys, ships-of-opportunity, the Argo 
array, ocean reference stations, the ocean carbon network, and support 
systems for data assimilation, management and product delivery.

Question 2: Of the total amount of line items that received 
        appropriations for FY 2003, for which NOAA did not request 
        funding in FY 2004, how many were considered by NOAA to be one-
        year appropriations?
    Answer: The following line items received appropriations in FY 
2003, were not requested in FY 2004, and are considered by NOAA to be 
one-year appropriations. Those marked with an asterisk (*) were also 
funded in FY 2002.

[GRAPHIC] [TIFF OMITTED] T5772.024

[GRAPHIC] [TIFF OMITTED] T5772.025

Question 3: What is the purpose of NOAA's new Business Management Fund 
        (requested at $172,463 million)?
    Answer: The Business Management Fund (BMF) would provide a 
mechanism to capture all of NOAA's centralized services. It would allow 
for a more accurate distribution of corporate services costs to NOAA's 
Line Offices based on consumption of services. The BMF will allow NOAA 
to more distinctly apply accepted business practices to its corporate 
costs processes, thereby providing for a more accurate distribution of 
these service costs to programs. Creating this fund would allow NOAA to 
have increased clarity in its budgetary reporting as well as enhance 
accountability among service providers. The BMF will promote NOAA's 
``truth-in-budgeting'' goal by adding rigor to its corporate process 
and handling centralized charges through an appropriate budgetary 
mechanism.

What types of activities fall under ``general support and service 
        activities''?
    General support and service activities are those current functions 
that NOAA's Office of Finance and Administration (OFA) performs for the 
line offices. OFA has broadly grouped these activities into six 
business lines:
    <bullet> Workforce Management--Provides traditional human 
resources services to the NOAA line offices. Additionally, this 
business line contains the efforts of the civil rights and diversity 
offices.
    <bullet> Facilities--Provides services related to the occupancy of 
NOAA-owned and leased real and personal properties.
    <bullet> Information Technology--Provides networking, desktop, and 
telecommunications services primarily to an OFA customer base. Non-OFA 
customers are serviced at select NOAA Facilities.
    <bullet> Acquisitions--Provides contracting and purchasing 
services to the NOAA line offices. Additionally, this business line 
contains the DOC BankCard center.
    <bullet> Grants--Provides for the award and administration of 
grants and other financial assistance agreements.
    <bullet> Financial Services--Provides accounting, budgeting, and 
compliance services to the NOAA line offices.
If the funds are transferred from line offices to the BMF, how is this 
        different than the current system where line offices are 
        directed to transfer funds to headquarters to cover agency 
        overhead and administration?
    The current system provides for an annual allocation based on a 
rate agreed to by the line offices using historical (FY 1992) labor 
data. Under a BMF the transfer of funds would be made upon quarterly 
billings based on consumption. OFA and the line offices will negotiate 
projected future-year consumption rates based upon prior-year actuals. 
Billings will be in advance based upon the negotiated annual 
consumption rates. Quarterly billings may be adjusted up or down based 
upon annualized prior-quarter consumption rates.

Should the BMF be approved in the FY 04 process, would the $172 million 
        amount requested be drawn evenly from transfers made by the 
        various line offices? In other words, would the National Ocean 
        Service contribute the same amount as the National Weather 
        Service?
    No, the current allocation methodology would be used so as not to 
produce any funding shocks to the line offices given that their budgets 
have been previously established for FY 2004. The line offices will be 
provided with a bill based on consumption for their planning purposes 
for the out-year budgets. Starting in FY 05 the line offices will pay 
for corporate services based on actual consumption.
In the event that there were un-obligated funds leftover in the BMF at 
        the conclusion of the fiscal year, how would these funds be 
        handled? Would they be rolled-over into the next fiscal year 
        and credited against new transfers from the line offices? Would 
        they be distributed back to the line offices to supplement 
        program budget shortfalls? What would prevent this fund from 
        becoming over-capitalized?
    The BMF, acting as a working capital fund, has requested (in our 
legislative language) an amount not to exceed 4% of the full costs 
necessary to maintain a reasonable operating reserve and to fund new 
requirements as determined by the Administrator. A working capital fund 
is a revolving fund. Reserves in excess of the 4% would be rebated to 
our customers based on their overall payment proportions to OFA (i.e., 
If NWS share of the OFA billings represented 35%, then 35% of any 
monies refunded would be distributed to NWS). A routine overage/
underage for OFA services would trigger a review of OFA pricing 
procedures, with adjustments made accordingly.

Question 4: What needs have changed in NOAA's Corporate Services to 
        warrant a funding increase of more than $25 million for FY 04?
    Answer: Of the $25 million requested (see Summary below), $15.3 
million of the change from FY 2003 to the FY 2004 President's Request 
for Corporate Services is not an increase. Rather, it is a transfer of 
$15.3 million from the Procurement, Acquisition, and Construction (PAC) 
account to the Operations, Research, and Facilities (ORF) account for 
the Commerce Administrative Management System (CAMS). This transfer is 
necessary because NOAA's new financial system--CAMS--became the 
official financial system of record on October 1, 2003. As a result of 
this change in CAMS' status, NOAA now needs operational resources, not 
acquisition funding, for operations, maintenance, and user support on 
the new system.
    The FY 2003 Enacted budget reduced NOAA's Policy Formulation and 
Direction budget below its FY 2002 level. Therefore, $6.5 million is 
requested to restore funding required to support this activity's 
current program level. Attachment 1 provides a summary listing of 
services projected for restoration with full funding of this request. 
In addition, $3.7 million is required for restoration of funding and 
annualization of the Under Secretary and Associate Offices, and 
implementation of recommendations that came from the NOAA-wide Program 
Review Taskforce (PRT).
    NOAA is requesting $1.0 million for the Program, Planning and 
Integration office (PPI). Among the most pressing of the PRT's 
recommendations were those delineating needed improvements in NOAA's 
corporate decision-making processes. Specifically targeted were those 
processes most necessary to support the Budget and Performance 
Integration Initiative of the President's Management Agenda. It was 
determined that the introduction of matrix management and the 
establishment of a NOAA-wide, requirements-based management process 
would be vested in PPI. This office is mandated to effectively execute 
highly complex, cross-cutting programs. Funds for these programs will 
be allocated to each Line Office, but administered and monitored by the 
matrix program manager under the oversight of PPI.
    In addition, as part of the President's Management Agenda, NOAA is 
supporting the Department of Commerce's E-gov initiative in its request 
for $3.0 million. This investment will enable American citizens to have 
one-stop, electronic access to grant, recreational, disaster, and 
geospatial information. In view of the increased concerns regarding 
attempted cyberterrorism following the attack of September 11, 2001, it 
is imperative that NOAA solidify the protection of its information 
technology (IT). Instead of piecemeal IT security efforts scattered 
among the various Line Offices, NOAA has requested $4.05 million to 
enhance IT security bureau-wide.

[GRAPHIC] [TIFF OMITTED] T5772.026


National Ocean Service

Question 1: Coral Reef Programs--Please discuss the elimination of the 
        Coral Reef Program in the FY 04 budget request. Does the 
        concurrent increase (from $500,000 to $13.5 million) in funding 
        for the National Coral Reef Institute offset this cut? What is 
        the National Coral Reef Institute? Will NOAA be able to 
        implement all of the authorized activities under the Coral Reef 
        Conservation Act? Will the reductions in NOAA's request for 
        coral reef funding result in decreased funding available for 
        coral reef grant assistance to states and territories in FY 04?
    Answer: The NOS Coral Reef Program was not eliminated or reduced in 
NOAA's FY 2004 Budget Request. The tables which appear in NOAA's FY 
2004 Budget Summary contain some typographical errors. The correct 
labeling of NOS' coral budget lines appears below. There is no 
reduction to NOAA's request for coral reef funding in FY 2004. Page 77 
of NOAA's FY 2004 budget summary provides a brief description of the 
NOAA Coral Reef Conservation Program, and shows an FY 2004 Request of 
$28.3M, an increase of $2 million from the FY 2003 level.

[GRAPHIC] [TIFF OMITTED] T5772.027


    Since 2000, NOAA has implemented all but two of the activities 
called for under the CRCA. The following activities have been 
implemented: National Coral Reef Action Strategy (Sec. 203), Coral Reef 
Conservation Program (Sec. 204), Coral Reef Conservation Fund (Sec. 
205), and the National Coral Reef Conservation Program (Sec. 207). NOAA 
has not implemented Section 206 to provide Emergency Assistance grants 
because of other funding priorities, and there have been no emergency 
incidents during this time. NOAA has not ignored an emergency. NOAA is 
developing the first Effectiveness Report (due by end of 2003) as 
required by Section 208.
    The National Coral Reef Institute (NCRI) was established in 
response to FY 1998 appropriations legislation (P.L. 105-277) and 
direction in the accompanying reports (H. Rept. 105-405 and S. Rept. 
105-48). NCRI's primary objective is the assessment, monitoring, and 
restoration of coral reefs through basic and applied research and 
through training and education. NCRI operates at the Nova Southeastern 
University Oceanographic Center near Ft. Lauderdale, Florida.

Question 2: Marine Protected Areas--What is the status of the 
        appointments process to establish a Marine Protected Area 
        Advisory Committee pursuant to Executive Order 13158? When will 
        the Administration have this committee appointed and 
        operational? Does the NOAA funding request for Marine Protected 
        Areas include sufficient funds to complete the inventory of 
        existing MPAs in the Federal, State, and local coastal waters 
        as required under E.O. 13158? When will this inventory be 
        completed?
    The Secretary of Commerce notified 30 nominees of their selection 
as candidates for the MPA Advisory Committee on January 3, 2003. NOAA 
held the first advisory committee meeting on June 24-25, 2003, in the 
Department of Commerce Auditorium. However, the Federal Office of 
Personnel Management, which has given priority to homeland security 
reviews, had completed mandatory background checks for only 21 of the 
30 nominees at the time of the meeting. Those 21 members were 
officially appointed as Committee members by the Secretary of Commerce, 
and comprised the operational committee which met in June.
    Background checks for eight of the remaining nine members were 
still in process at the time of the June meeting. One of the nominees 
had yet to submit the information necessary to initiate his background 
check. Four of these eight members have successfully completed the 
background check process and were officially informed of the 
appointment as committee members at the end of August. The one nominee 
not submitting information has since withdrawn his name from 
consideration, and a new nominee will be selected by the Department of 
Commerce and the Department of the Interior. The next meeting of the 
committee is scheduled for the week of November 17, 2003, and will be 
held in San Francisco, California.
    The NOAA/Department of the Interior Inventory Team is making 
significant progress on developing the U.S. Inventory of Marine Managed 
Areas, including up to 80 descriptive data fields for each site. 
Information is being collected for three governmental levels, Federal, 
state/territorial/commonwealth, and tribal, and placed on the MPA 
website, http://mpa.gov/. The first state/territorial/commonwealth 
information, for sites in the Commonwealth of the Northern Mariana 
Islands, was added to the web site this year. The agencies recently 
published a Federal Register Notice to solicit public comment on site 
inventory criteria, a vital step in determining which sites will be 
included in the final inventory. The Notice will close on September 23. 
The final inventory is planned for completion by the end of December 
2004, but will continue to be updated afterwards on a regular basis as 
Federal, state, and tribal sites are modified, established, or 
disestablished.
    Continued funding at the FY 2004 Request level of 3.0M is 
sufficient to complete the inventory by December 2004, and keep it 
updated thereafter.
Ocean and Atmospheric Research

Question 1: Why were the Aquatic Nuisance Species/Zebra Mussel 
        Research, Gulf of Mexico Oyster Initiative, and Oyster Disease 
        Research programs cut from Sea Grant's budget?
When considered in conjunction with other cuts in the Oceans 
        Restoration and Response Programs, the decrease in Sea Grant 
        funding and elimination of many Sea Grant programs appear to be 
        a significant blow to science and environmental research. 
        Please comment.
    Answer: The Administration chose to request Sea Grant in FY 2004 at 
the level that had been proposed the previous year for transfer to NSF. 
No formal decision was made as to what parts of the earlier FY 2002 
program would or would not be funded. Some activities will still 
continue, but at a lower level.

    Question 2: Ocean, Coastal and Great Lakes research sustained a $27 
million reduction from FY 03 enacted appropriations level of $112,216 
million. Weather and Air Quality Research (within OAR) received a small 
($209,000) reduction, while Climate Research received an $18 million 
increase. Given that there is a direct relationship between the world's 
oceans and the atmosphere, funding for both oceanic and atmospheric 
research has become increasingly important in better understanding 
climate change. How can NOAA justify this asymmetry in research 
funding?
    Answer: At first glance, the relative increases and decreases among 
the three budget sub-activities in NOAA Research (OAR) might give the 
impression of an asymmetry in research funding, with decreases in 
funding in the President's budget request correlating most closely to 
the termination of programs not requested in the President's budget. 
However, the picture is quite different when one looks at NOAA's 
overall investments in research across the agency. The total funding 
levels included in the FY04 request reflect a balanced research program 
that addresses both oceanic and atmospheric issues. Further, NOAA's 
climate research activities are not exclusively focused on the 
atmosphere. For example, the President's FY04 budget request includes 
funding for ocean observations, which are critical for improving 
understanding of climate change.

Conservation Funding
Passed by Congress in 2000, the Conservation Initiative represented a 
        major advancement in conservation funding. Over the last three 
        years Congress has used this category to provide critical 
        increases for NOAA conservation programs that have historically 
        been underfunded, such as Procurement, Acquisition, and 
        Construction in the National Marine Sanctuaries and National 
        Estuarine Research Reserve and Operations, Research, and 
        Facilities for the Coastal Zone Management Act programs and 
        Pacific Coastal Salmon Recovery. The Administration's budget 
        request only seeks $329 million of the $520 million requested 
        in FY04, which represents a $151 million cut below FY03.
Question: Why has NOAA chosen to request less than what Congress has 
        appropriated in the past to support activities authorized under 
        the Conservation Initiative? Why has the Administration not 
        explicitly incorporated requests for funding under a specific 
        Conservation Initiative category lines items?
    Answer: A major goal of this Administration is to limit the overall 
growth of Federal discretionary spending. Keeping that goal in mind 
when formulating the FY 2004 budget request, NOAA faced many difficult 
choices. However the request includes many high priority programs. 
NOAA's FY 2004 Budget request includes $329.4 million under the 
Conservation Initiative category. The reduction from the FY 2003 
appropriation is primarily due to two decreases. First, the FY 2004 
NOAA budget request for the Pacific Salmon Recovery Fund does not 
include the $40.0 million for the Pacific Salmon Treaty funded in FY 
2003. The FY 2003 appropriation completes the commitment under the 1999 
Pacific Salmon Agreement to fund the Northern and Southern Funds. 
Secondly, there are many one-time habitat restoration projects and 
estuarine land acquisition and construction projects funded in FY 2003 
that are not included within the FY 2004 request.
Attachment 1
                        RESTORATION OF SERVICES
                    POLICY FORMULATION AND DIRECTION
                     FY 2004 BUDGET REQUEST ($6.5M)

    Following is a summary list of the types of services that would be 
restored by fully funding the Policy Formulation and Direction budget 
for FY 2004:

Grants Management
    <bullet> Process a workload that has increased by 50% in a timely 
manner
    <bullet> Meet financial assistance award (grant) cycle times for 
NOAA's Joint Institutes and vital cooperative research programs with 
universities
Acquisition
    <bullet> Reduce cycle times of simplified acquisitions and 
contracts to ensure the timely delivery of products and services needed 
to support NOAA mission
    <bullet> Contract throughout the year for audit support services 
to ensure that capital leasing determinations are correctly made and 
accounted for instead of on a ``crisis basis'' at the time of an audit
    <bullet> Contract for contract close-out services
    <bullet> Perform required oversight of purchase card activity to 
prevent fraud, waste, and abuse and ensure the most effective use of 
resources
    <bullet> Perform many of our Contracting Officer Technical 
Representative (COTR) functions
    <bullet> Provide clients with training in the areas of COTR, Basic 
Procurement, Purchase Card, and Small Purchases
    <bullet> Represent NOAA and our clients at post-award contractor 
meetings
    <bullet> Conduct required reviews of purchase cardholders and 
individuals with delegated procurement authority
    <bullet> Provide on-site assistance to clients in the areas of 
procurement planning, contract administration, development of 
statements of work, and dispute resolution.

Information Technology
    <bullet> Resolve long standing financial audit issues, including 
providing a dedicated Information Technology Security Officer and 
continue segregation of duties issues
    <bullet> Reduce risk of compromise or loss to both systems 
supporting NOAA Finance and Administration (NFA) and to the integrity 
of the data housed in outdated systems
Facilities
    <bullet> Provide effective oversight and management of NOAA's 
personal property inventory in order to maintain a clean financial 
audit
    <bullet> Provide clients with timely and professional occupational 
safety and health service, training, accident investigation, and 
workplace inspections
    <bullet> Perform routine site inspections and lessor compliance 
reviews
    <bullet> Perform ongoing lease contract management
    <bullet> Provide customer outreach training for new or revised 
procedures and/or requirements in the area of safety, inventory 
control, etc.
    <bullet> Provide sufficient facilities services to support client 
missions
    <bullet> Reinstate timely shipping and receiving services 
including hazardous materials to meet cycle times for NOAA's critical 
field research programs
    <bullet> Reinstate efforts to establish required Continuity of 
Operations Plans with the appropriate testing and drills, 
telecommunications, and fly-away kits

Financial Services
    <bullet> Provide timely and accurate payments to vendors and 
reduce penalty payments
    <bullet> Conduct required Imprest Fund audits
Workforce Management
    <bullet> Resolve thousands of leave discrepancies affecting the 
Department of Commerce's and NOAA's audit findings
    <bullet> Provide timely advice and assistance to NOAA managers and 
employees
    <bullet> Provide timely notice of personnel action activity to 
managers and employees
    <bullet> Process NOAA employee awards, personnel actions, payroll 
actions, and other recruitment actions timely and accurately
    <bullet> Reduce the cycle time for hiring personnel critical to 
the efficient and effective accomplishment of NOAA mission
    <bullet> Provide retirement calculations timely
    <bullet> Negotiate union contracts timely
    <bullet> Perform organizational analysis required by OMB for 
buyout proposals
    <bullet> Train managers and employees on the Department of 
Commerce Demonstration Project training and Commerce Opportunities On 
Line
    <bullet> Evaluate NOAA's two-level performance management system
    <bullet> Market e-learning, one of OMB's e-government initiatives
    <bullet> Respond to employee relations inquiries in a timely 
manner
    <bullet> Respond to requests regarding labor relations and 
bargaining unit activities
    <bullet> Create data reports needed by NOAA management for 
decision making
    <bullet> Conduct ongoing workforce/succession planning, including 
skills gaps or needs analyses
    <bullet> Advise managers on the employee aspects of competitive 
outsourcing and A-76 studies
    <bullet> Provide face-to-face counseling to employees on their 
rights and potential courses of action when facing separations 
resulting from reorganization, RIF, and competitive outsourcing
    <bullet> Provide on-site training sessions in the area of labor 
relations, reduction-in-force, A-76, classification, staffing, and 
employee relations
    <bullet> Provide on-site benefits and retirement training for new 
employees and those within five years of retirement respectively
    <bullet> Develop, implement, and monitor affirmative employment 
activities, including cultural awareness and outreach initiatives and 
to provide EEO training to supervisors managers and employees
    <bullet> Facilitate workgroup meetings (team building) and plan 
organizational improvement and productivity in response to the NOAA 
Survey Feedback Action employee satisfaction survey
    <bullet> Provide a NOAA Employee Worklife Center
    <bullet> Educate NOAA employees on Diversity
    <bullet> Provide NOAA team building services (Myers Briggs Type 
Indicator, Thomas Kilmann Conflict Model, Diversity/Organizational 
Development Education )
    <bullet> Recognize NOAA employees with the Diversity Spectrum and 
Best Practices Awards


</pre></body></html>
